<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Cochran, Craig, Harkin, and 
Inouye.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE L. CHAO, SECRETARY

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Ladies and gentlemen, the hour of 10:30 
having arrived, the Senate Appropriations Subcommittee on 
Labor, Health, Human Services, and Education will now proceed. 
We have as our witness Secretary Elaine Chao, first Asian-
American woman appointed to the President's Cabinet in U.S. 
history, a very, very distinguished record prior to coming to 
the position of Secretary of Labor: President and CEO of the 
United Way Foundation; Director of the Peace Corps; Deputy 
Secretary of Transportation for President Bush the first; 
distinguished fellow at the Heritage Foundation; and MBA from 
the Harvard Business School; an undergraduate degree from Mount 
Holyoke College.
    So the Secretary has brought very distinguished credentials 
to the job and now she's in her second term, and has gained a 
lot of experience on how to handle a very tough Department. And 
in the ante room I asked her how she's going to get along on so 
little money, and she said she'd rather answer that question 
only once. So in a few minutes I'm going to ask her that 
question.
    The budget is for $11.6 billion, $425 million below the 
level for fiscal year 2005, which is a 3.5 percent reduction 
and when you figure in the inflation rate, it'll be somewhere 
near 6 percent. There is no doubt that we have to economize, 
but this budget is going to be very, very challenging, Madam 
Secretary, and we will work with you on the priorities.

                           PREPARED STATEMENT

    I see that there is $1.38 billion for worker protection 
programs and $250 million to continue the community college 
initiative. This is most days very busy on Capitol Hill with 
the budget under consideration, and I am due to offer an 
amendment to try to get a little extra funding for this 
subcommittee. So I will ask that my full statement be made a 
part of the record and will yield to the distinguished chairman 
of the full committee, Senator Cochran.
    [The statement follows:]
              Prepared Statement of Senator Arlen Specter
    This morning, the subcommittee on Labor, Health and Human Services 
and Education will discuss the President's $11.6 billion 2006 budget 
request for the Department of Labor, which is a net reduction of $425 
million below the fiscal year 2005 level. We are delighted to have 
before us the distinguished Secretary of Labor, the Honorable Elaine 
Chao, our Nation's 24th Secretary of Labor.
    This subcommittee is pleased to see several shared priorities 
funded in the fiscal year 2006 budget, including worker protection 
programs, and the Community College Initiative.
    However, I am concerned that at the same time, there is $575 
million of program reductions and eliminations. For example, the $49.4 
million program for Responsible Reintegration of Youthful Offenders is 
eliminated; the $76.2 million program for Training Migrant and Seasonal 
Farmworkers is also eliminated; Dislocated Worker State grants are 
reduced by $132.5 million, and the Job Corps is cut by $34.8 million.
    I know, Madam Secretary, that you can appreciate the difficult 
tradeoffs that this subcommittee will need to negotiate in the coming 
months as we balance the competing pressures of education, biomedical 
research, worker protection programs and continued investment in our 
Nation's youth. Madam Secretary, I look, forward to working with you to 
craft an appropriations bill that maintains our commitment to fiscal 
restraint while preserving funding for high priority programs.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. Madam 
Secretary, welcome to the hearing of our Appropriations 
Committee, specifically the Subcommittee on Labor, Health and 
Human Services. We appreciate your distinguished service as 
Secretary of Labor. It's one of the tough jobs in the 
Government, though we know with your experience you bring a 
great deal of expertise and knowledge that will be very helpful 
to not only the President but our country as you carry out the 
duties of this important office.

                             BUDGET REQUEST

    We know the budget request is lean and difficult to imagine 
being implemented as it's presented because there's some 
tightening of the budget, because we are working hard to 
control the deficit and make sure that there's room in this 
economy for continued growth, expansion, and creation of jobs. 
The Department of Labor, as much as any Department of 
Government, understands the importance of trying to hold the 
line on spending. And so some very difficult choices are 
obvious.
    We are looking forward to working with you and getting the 
benefit of your advice and suggestions as we proceed to review 
the budget request to make sure that we don't make mistakes and 
cut programs that we shouldn't, but we know we are going to 
have to make some tough choices. So we thank you for your being 
here and your distinguished service.
    Senator Specter. Thank you very much, Mr. Chairman, Senator 
Cochran. Secretary Chao, now we look forward to your testimony.

                SUMMARY STATEMENT OF HON. ELAINE L. CHAO

    Secretary Chao. Thank you very much. Mr. Chairman, I know 
that you are pressed for time, so I'm just going to summarize 
my----
    Senator Specter. That would be fine, leaving us the maximum 
amount of time for dialogue, questions and answers.
    Secretary Chao. But I do want to emphasize a couple of 
points.
    Senator Specter. Fine.

                           PRESIDENT'S BUDGET

    Secretary Chao. One is that the President's budget will 
enable the Department to continue to build upon our precedent-
setting record of worker protection, which you have mentioned.
    Senator Specter. Madam Secretary, would you pull the 
microphone a little closer to you? Senator Thurmond always used 
to say, would you pull the machine closer?
    Secretary Chao. I do want to emphasize that the President's 
budget will enable the Department to continue our precedent-
setting record on worker protection, and it will help us 
implement some bold new training initiatives, which I look 
forward to discussing. And we are looking forward to reforming 
the workforce investment system so that it will serve more 
individuals and achieve even better results.

                           PREPARED STATEMENT

    I've got some--again, some other statements, but I think I 
can submit that for the record in light of the fact that your 
time is so tight.
    [The statement follows:]

               Prepared Statement of Hon. Elaine L. Chao

    Good morning Mr. Chairman, Senator Harkin, distinguished Members of 
the Subcommittee, ladies and gentlemen. Thank you for the opportunity 
to appear before you today to present the Department of Labor's fiscal 
year 2006 Budget.
    The total request for the Department in fiscal year 2006 is $54.5 
billion and 16,945 FTE, of which, $14.3 billion is before the 
committee. Of that amount, $11.6 billion is requested for discretionary 
budget authority. Our budget request will allow us to build on the 
accomplishments achieved in recent years while meeting the President's 
call to hold Federal programs to a firm test of accountability and to 
focus our resources on top priorities. In fiscal year 2006, the 
Department will continue its record-setting enforcement of worker 
protections and provide innovative and effective training programs to 
help prepare workers for good jobs in the 21st Century economy.
    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 Budget. The savings and reforms in the 
Budget are important components of achieving the President's goal of 
cutting the budget deficit in half by 2009, and I urge the Congress to 
support these reforms. The fiscal year 2006 Budget includes more than 
150 reductions, reforms, and terminations in non-defense discretionary 
programs, of which 11 affect the Department of Labor's programs. The 
Department wants to work with the Congress to achieve these savings.

                         RECENT ACCOMPLISHMENTS

    To set the stage for our fiscal year 2006 budget, I would like to 
highlight some of the Department's accomplishments over the last year. 
I am happy to report that our programs have been getting results and we 
continue to make steady gains in protecting America's workforce.
    Under the Department's new Overtime Security Rule, we strengthened 
overtime protection for 6.7 million workers. Today, more workers are 
getting overtime pay and the rules are clearer and easier to understand 
and apply.
    We have also set records in enforcing worker protection laws. For 
example, worker fatalities are at an all time-low, and the Occupational 
Safety and Health Administration (OSHA) has consistently exceeded its 
inspection targets. Workplace fatalities among Hispanic workers have 
fallen by 11.6 percent since 2001. And fatalities in the mining 
industry have now dropped to the lowest level since records were first 
kept in 1910.
    In 2004, more than 288,000 workers received nearly $200 million in 
back wages, including overtime, as a result of the Wage and Hour 
Division's enforcement.
    The Employee Benefits Security Administration achieved more than $3 
billion in monetary results in fiscal year 2004, protecting workers' 
health, benefit, and retirement plans--a 121 percent increase from 
fiscal year 2003.
    We have also enhanced the transparency and accountability of labor 
union finances so that union member rights are better protected and 
they know much more about how their dues money is being spent. Under 
our union transparency reforms, meaningful information about union 
financial transactions will be available and easily accessible to union 
members

                      FISCAL YEAR 2006 PRIORITIES

    While we are proud of our accomplishments, we realize that more 
must be done to improve the lives of America's workers. Our fiscal year 
2006 budget focuses on four overall priorities: protecting workers' 
safety and health; protecting workers' pay, benefits and union dues; 
protecting veterans' reemployment rights; and preparing workers for new 
opportunities.

                           PROTECTING WORKERS

    In fiscal year 2006, $1.4 billion is requested for DOL's worker 
protection activities. This increase of $27.6 million will enable the 
Department to continue our record-setting protection of workers' 
health, safety, pay, benefits and union dues.
Occupational Safety and Health Administration
    The fiscal year 2006 budget request for OSHA is $467.0 million and 
2,208 FTE, an increase of $2.8 million over fiscal year 2005.
    OSHA will continue to target inspections on the worst hazards and 
the most dangerous workplaces, while providing compliance assistance to 
workers and employers as they create safe and healthy workplaces. The 
request for OSHA includes an increase of $1.0 million for expanded 
compliance assistance activities in the State plan states. These funds, 
when matched by OSHA's state plan partners, will enable states to 
establish more Voluntary Protection Program sites, develop new 
agreements similar to OSHA Strategic Partnerships and Alliances, and 
provide additional outreach to workers and employers. An additional 
increase of $1.0 million is requested to enhance OSHA's data analysis 
and performance measurement capability.
Mine Safety and Health Administration
    MSHA protects the safety and health of the Nation's miners through 
enforcement of the Federal Mine Safety and Health Act of 1977. The 
fiscal year 2006 budget request is $280.5 million and 2,187 FTE, 
representing a funding increase of $1.4 million over fiscal year 2005.
    The Administration will seek to strengthen existing enforcement by 
asking Congress for higher civil monetary penalties. Legislation will 
be pursued to increase the fine for mine safety violations from $60,000 
to $220,000.

           PROTECTING WORKERS' PAY, BENEFITS, AND UNION DUES

    The Department will also continue its high priority programs to 
protect workers' pay, benefits and union dues.
Employment Standards Administration
    The Department's Employment Standards Administration (ESA) 
administers and enforces a variety of laws designed to enhance the 
welfare and protect the rights of American workers. The fiscal year 
2006 budget request before the Committee for ESA is $610.7 million and 
4,282 FTE. This amounts excludes and additional $31.0 million of H1B 
fees and $45.0 million in FECA Fair Share funding available to the 
agency. This represents an increase of $81.7 million and 162 FTE from 
fiscal year 2005, primarily due to the additional responsibilities 
associated with the Energy Employees Occupational Illness Compensation 
Program (EEOICPA).

            Wage and Hour Division
    The fiscal year 2006 budget request for the Wage and Hour Division 
totals $167.4 million and 1,346 FTE which excludes $31.0 million in 
estimated fee revenue from DOL's portion of an H-1B visa fraud 
prevention fee authorized by the 2004 H-1B Visa Reform Act. The 
resources requested will support the Wage and Hour Division's Overtime 
Security Task Force and its ``Off-the-Clock'' Initiative to promote 
compliance through education and enforcement efforts in low-wage 
industries. It will also support Wage and Hour's YouthRules! Initiative 
to promote compliance with the youth employment provisions of the Fair 
Labor Standards Act; enable expansion of enforcement to protect 
vulnerable workers in low-wage industries; and increase technical 
assistance and education to encourage compliance with labor laws. The 
budget also includes a legislative proposal to increase civil monetary 
penalties for violations causing death or serious injury to youths in 
the workplace from $11,000 to $50,000, and to $100,000 for repeat or 
willful violations.

Office of Federal Contract Compliance
    The fiscal year 2006 budget request for the Office of Federal 
Contract Compliance Programs (OFCCP) totals $82.1 million and 691 FTE. 
OFCCP is responsible for ensuring equal employment opportunity and non-
discrimination in employment for businesses contracting with the 
Federal Government. OFCCP carries out this mandate by conducting 
compliance reviews to discover instances of systemic discrimination, 
taking appropriate enforcement action, and providing relevant and 
effective compliance assistance programs. During fiscal year 2006, the 
implementation of Active Case Management and Functional Affirmative 
Action Programs will improve OFCCP's results, meaning more workers will 
be protected.

Office of Workers' Compensation Programs
    The fiscal year 2006 budget request for the Office of Workers' 
Compensation Programs (OWCP) totals $341.8 million and 1,758 FTE and 
supports the Federal Employees' Compensation Act, the Longshore and 
Harbor Workers' Compensation program, and the Black Lung Benefits 
program. Included in this request is a $5 million increase in Fair 
Share funding to effectively implement the new centralized medical bill 
processing contract.
    The OWCP budget also includes $96.1 million and 275 FTE to 
administer Part B of the Energy Employees Occupational Illness 
Compensation Program, and $59.9 million and 219 FTE for the Part E 
program that was established in fiscal year 2005. The two Energy 
programs provide compensation and medical benefits to employees or 
survivors of employees of the Department of Energy, and certain of its 
contractors and subcontractors who suffer from a radiation-related 
cancer, beryllium-related disease, chronic silicosis or other covered 
illnesses due to exposure to toxic substances as a result of their work 
at Department of Energy facilities or those of certain of its 
contractors.
    The 2006 budget also includes two legislative proposals affecting 
OWCP programs. The first is a proposal to reform FECA to update its 
benefit structure, adopt best practices of State workers' compensation 
systems, and strengthen return-to-work incentives. This proposal is 
expected to generate Government-wide savings of more than $720 million 
over 10 years. The second is a proposal to restructure and eventually 
retire the debt of the Black Lung Disability Trust Fund (BLDTF), a debt 
that is estimated to exceed $9.6 billion by fiscal year 2006, absent 
legislative action.

Office of Labor-Management Standards
    The fiscal year 2006 budget request for the Office of Labor-
Management Standards (OLMS) totals $48.8 million and 384 FTE. OLMS 
enforces provisions of Federal law that establish standards for union 
democracy and financial integrity. OLMS conducts investigative audits 
and criminal investigations for embezzlement and other financial 
mismanagement; conducts civil investigations of union officer elections 
and supervises remedial elections where required; administers statutory 
union financial reporting requirements; and provides for public 
disclosure of filed reports.
    To help restore OLMS after deep cuts during the 1990s, the budget 
request includes program increases of $6.0 million and 48 FTE to 
enhance union financial integrity, union advisory services, and 
compliance assistance activities. The budget also supports legislation 
that would authorize OLMS to impose civil money penalties on unions and 
others that fail to file required financial reports on a timely basis.

Employee Benefits Security Administration
    The Department's Employee Benefits Security Administration protects 
the integrity of pensions, health plans, and other employee benefits 
for more than 150 million workers. The fiscal year 2006 budget includes 
a $5.8 million increase to strengthen the retirement security of 
workers and retirees. These amounts include additional resources for 
the E-FAST system to maintain current operations.
    With regard to pension benefits, this Administration believes that 
pension promises made to workers and retirees must be kept. The current 
system does not ensure that pension plans are adequately funded. 
Underfunded plan terminations threaten workers' retirement security and 
are placing an increasing strain on the pension insurance system. These 
underfunded plans also impose an unfair and increasing burden on 
employers who sponsor healthy pension plans.
    The President's Budget for fiscal year 2006 proposes to reform the 
funding rules, increase disclosures to workers, and protect the pension 
insurance system, on which 44 million Americans rely to protect their 
retirement security. The Administration's plan will promote simplicity, 
accuracy, stability, and flexibility. It will encourage employers to 
fully fund their defined-benefit pension plans and ensure that benefit 
promises are kept. It will also expand, and make more timely, 
disclosures to workers and the public.
    The Administration's plan will reform the outdated premium 
structure to reflect more accurately the cost of the insurance program. 
The plan proposes to update flat rate premiums and index them to wage 
growth. We will also propose to shift the emphasis to risk-based 
premiums for all under funded plans in order to provide greater 
incentives for responsible funding.
    The fiscal year 2006 budget reiterates the Administration's support 
for Association Health Plan legislation that will allow small 
businesses and others to pool together through their trade and 
professional associations to provide health benefits for workers and 
their families. By joining together, small businesses and other 
association members would benefit from similar economies of scale, 
uniform regulation and administrative efficiencies enjoyed by large 
employers and labor unions. Association Health Plan legislation is a 
key component of the President's plan to improve access to quality, 
affordable health coverage for all Americans.

                 PROTECTING VETERANS' EMPLOYMENT RIGHTS

    This Nation's commitment to our veterans must be honored. No 
veteran should return home without the support that is needed to make 
the transition back to private life a smooth and successful one.
Veterans' Employment and Training Service
    For the Department's Veterans' Employment and Training Service 
(VETS), we are requesting $224.3 million and 250 FTE to maximize 
employment opportunities for veterans and protect their employment 
rights.
    The Department recently issued a notice of proposed rulemaking to 
strengthen and clarify veterans' rights and employers' responsibilities 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA). The rule is expected to be finalized during fiscal year 2006. 
Our budget request also includes $22 million for the Homeless Veterans 
Reintegration Program, an increase of $1.2 million. This program will 
provide employment and training assistance to homeless veterans, with 
expected job placements and retention of approximately 10,600 veterans.

                PREPARING WORKERS FOR NEW OPPORTUNITIES

Reforming the Workforce Investment System
    Overall, the fiscal year 2006 budget request for the Department's 
Employment and Training Administration is $9.2 billion in discretionary 
funds and 1,216 FTE. Our budget request will allow the Department to 
fulfill the President's call to improve job training and prepare more 
Americans for the growing and changing economy, ensuring that no worker 
is left behind. In 2006, we want to double the number of individuals 
trained under the Workforce Investment Act's major grant programs--
including State formula grants and the new Community College 
Initiative--from 200,000 to 400,000. Just as important, we want to help 
provide workers with training that prepares them for the jobs of the 
21st century.
    Under the President's job training reform proposal, we seek 
legislation to reform the Workforce Investment Act (WIA) that would 
consolidate four compartmentalized programs into a single funding 
stream so that Governors and local officials will be able to utilize 
resources in a way that best meets their communities' specific needs. 
This proposal, called ``WIA Plus,'' would provide Governors the option 
of adding resources from up to five additional federally-funded 
employment and training programs to this consolidated State grant. The 
major goals include providing flexibility to States and localities and 
reducing overhead so that more workers can receive training.
    In return for this increased flexibility, States will be required 
to develop strategies to meet increasingly rigorous performance 
standards each year, leading to a goal in the 10th year of placing in 
employment 100 percent of the workers trained with Federal funds.
    The President's WIA reform proposal would also establish Innovation 
Training Accounts to provide workers ownership over the education and 
training they pursue by:
  --Allowing individuals to access a broad range of public and private 
        training resources through a single, self-managed account;
  --Authorizing longer-term training opportunities, since many skills 
        needed for today's jobs require more than just short-term 
        attention and exposure;
  --Providing access to improved labor market information to help 
        individuals make training decisions based on the jobs available 
        in their local area;
  --Holding training institutions accountable for results;
  --Acknowledging the need for incumbent worker training so workers can 
        update their skills and advance their careers; and,
  --Promoting the attainment of industry-recognized credentials and 
        certifications.

High Growth Job Training Initiative
    The President's High Growth Job Training Initiative is designed to 
develop a demand-driven workforce training system. This initiative, 
which began in 2002, prepares workers to take advantage of new job 
opportunities in growing industries and sectors of the American 
economy. The approach is based on grants to partnerships that include 
the workforce investment system, business and industry, education and 
training providers, and economic development entities working 
collaboratively to develop industry-specific workforce solutions. Under 
this initiative, the Department has awarded $164.8 million in 88 grants 
for innovative training programs in high growth industries, such as 
health-care, biotechnology and advanced manufacturing. By training 
workers with skills that are in demand, more workers will be able to 
obtain quality jobs with higher wages and enhanced career 
opportunities. At the same time, employers will be able to fill 
critical workforce needs.

Community College Initiative
    The budget also provides $250 million to continue the President's 
Community College Initiative, which provides for Community Based Job 
Training Grants. For 2005, the Congress approved and financed this new 
initiative, and the first grants will be awarded beginning in the 
summer of 2005. Eighty percent of the jobs in the fastest growing 
fields require education and training beyond high school. The Community 
College Initiative will help fully utilize the expertise of America's 
community colleges as part of our job training programs and better 
train workers for jobs in high growth sectors. These competitive grants 
will build on the High Growth Job Training Initiative and strengthen 
the role of community and technical colleges as partners of the 
workforce investment system.

Youthbuild
    The President's Budget includes a legislative proposal to transfer 
the Youthbuild program from the Department of Housing and Urban 
Development to DOL. This change was recommended by the White House Task 
Force on Disadvantaged Youth. The Youthbuild program targets 
disadvantaged youth ages 16-24. The program provides grants to local 
organizations that train participants for well-paying construction 
jobs. Their training also results in the building of affordable housing 
units. Transferring Youthbuild to DOL would provide the program with 
better contacts with One Stop Career Centers, stronger ties to DOL's 
Job Corps and apprenticeship programs, new links to the President's 
High Growth Job Training Initiative, improved access to the post 
secondary and community college system, and stronger connections to 
employers and local labor markets. It also promises to offer greater 
placement opportunities for the youths involved.

Prisoner Re-Entry Initiative
    In fiscal year 2006, $75 million is provided for the second year of 
the President's 4 year, multi-departmental Prisoner Re-Entry 
Initiative. Of this total, $35 million is for the Department of Labor, 
$25 million is for the Department of Housing and Urban Development, and 
$15 million is for the Department of Justice. This initiative is 
designed to strengthen urban communities through an employment-centered 
program that incorporates job training, short-term housing, mentoring, 
and other transitional services to help recently released prisoners 
make a successful transition back to society and long-term employment. 
It taps the unique contributions and capacities of America's faith-
based and community organizations.

Strengthening the Integrity of the Unemployment Insurance System
    Building on previous proposals to strengthen the Unemployment 
Insurance (UI) system and reduce erroneous UI payments, the fiscal year 
2006 budget proposes a $10 million increase in beneficiary eligibility 
reviews in One-Stop Career Centers. This is projected to save up to 
$225 million annually. In addition, a $30 million increase is requested 
to prevent and detect fraudulent unemployment benefit claims using 
stolen personal information--otherwise known as identity theft--that 
would result in annual trust fund savings of as much as $105 million. 
These two discretionary proposals are part of the Administration's 
proposal to fund efforts to reduce improper payments across several 
agencies using a new budget enforcement mechanism of spending cap 
adjustments. In addition, the Budget includes a package of legislative 
changes to prevent and recover overpayments of Unemployment Insurance 
benefits, saving an estimated $4.7 billion over 10 years. These budget 
and legislative proposals are not only an important protection for 
American workers, but are also a responsible use of public funds.

                             OTHER PROGRAMS

Bureau of Labor Statistics
    In order to maintain the development of timely and accurate 
statistics on major labor market indicators, the fiscal year 2006 
budget provides the Bureau of Labor Statistics with $542.5 million and 
2,475 FTE, which is an increase of $13.5 million over fiscal year 2005. 
This funding level provides the BLS with the necessary resources to 
continue producing sensitive and important economic data, including the 
Consumer Price Index, the Producer Price Index, and the Quarterly 
Census of Employment and Wages.

Office of Disability Employment Policy
    The 2006 budget request provides the Office of Disability 
Employment Policy (ODEP) with a total of $27.9 million and 59 FTE. In 
past years, the request for ODEP included a large research and grant 
making function. ODEP has invested these funds in testing a variety of 
pilot projects, and we now have several years of results to determine 
which of these pilots work, and which ones don't. ODEP will now focus 
on improving access by disabled Americans to DOL's programs, and on 
developing proven approaches to helping Americans with disabilities 
find meaningful employment opportunities.

Women's Bureau
    To continue its outreach to working women, the fiscal year 2006 
budget includes $9.7 million and 60 FTE for the Women's Bureau, an 
increase of $0.3 million above fiscal year 2005.

International Labor Affairs Bureau
    The request for the International Labor Affairs Bureau (ILAB) in 
fiscal year 2006 is $12.4 million and 95 FTE. The budget returns ILAB 
to its core mission of developing international labor policy, and 
performing research, analysis, and advocacy.
    The requested funding levels would allow ILAB to implement the 
labor supplementary agreement to NAFTA and the labor provisions of 
trade agreements negotiated under the Trade Act of 2002, participate in 
the formulation of U.S. trade policy and negotiation of trade 
agreements, conduct research and report on global working conditions, 
assess the impact on U.S. employment of trade agreements, and represent 
the U.S. Government before international labor organizations, including 
the International Labor Organization.
    ILAB will continue to implement ongoing efforts in more than 70 
countries funded in previous years to eliminate the worst forms of 
child labor and promote the application of core labor standards, and 
reduce employment discrimination against persons living with HIV/AIDS.

President's Management Agenda and Department-wide Management 
        Initiatives
    Before I close today, Mr. Chairman, I also want to highlight the 
Department's ongoing efforts to implement the President's Management 
Agenda. In August 2001, President Bush sent to Congress his President's 
Management Agenda (PMA), a strategy for improving the management and 
performance of the Federal Government. The agenda called for focused 
efforts in the following five government-wide initiatives aimed at 
improving results to citizens: Strategic Management of Human Capital, 
Competitive Sourcing, Improved Financial Performance, Expanded 
Electronic Government, and Budget and Performance Integration. DOL is 
also responsible for three of the PMA initiatives that are found only 
in selected departments. The first of these three is Faith-Based and 
Community Initiatives. In the fourth quarter of 2004, DOL began working 
in earnest on another selected PMA component, Real Property. Also, in 
the first quarter of 2005, DOL began tracking its status and progress 
on a new PMA initiative to Eliminate Improper Payments.
    The Department is one of only three cabinet departments that earned 
``green'' status ratings on four of the five government-wide scorecards 
for the first quarter of 2005, without a single red score. For progress 
during this period, DOL achieved five of five green scores. On the 
basis of its favorable ratings for status and progress in 
implementation of these initiatives, DOL was honored with two 
Presidential Quality Awards and is recognized as one of the best 
managed Cabinet agencies.

                               CONCLUSION

    With the resources we have requested for fiscal year 2006, the 
Department will continue to improve its protection of workers' safety 
and health, protect workers' pay, benefits, and union dues, secure the 
employment rights of America's veterans, and prepare workers for the 
jobs of the 21st Century.
    Mr. Chairman, this is an overview of the programs we have planned 
at the Department of Labor for fiscal year 2006.
    I would be happy to respond to any questions members of the 
subcommittee may have.
    Thank you.

                         MEDICAL LEAVE PROGRAM

    Senator Specter. Okay. Well, thank you, Madam Secretary. 
The medical leave program has been challenged with some 68 
Federal lawsuits raising issues on the interpretation of when 
employees are eligible for leave under the 1993 Family and 
Medical Leave Act. Last December, your Department announced its 
intention to publish a rule to revise the Act's regulations.
    There are many in the labor area who like the way the 
program is being administered and there are some in the 
business area who would like to see their restrictions 
tightened. We have been studying the issue, but we would be 
very interested in your view as to how the regulations are 
being administered, whether you intend to put up new 
regulations, and what your evaluation is as to the equitable 
balance as you see it.
    Secretary Chao. First of all, let me say that the Family 
and Medical Leave Act is an important law that basically 
benefits a lot of workers and their families, and we take our 
responsibilities under this law very seriously. Let me also say 
that in the last 10 years that the regulations have been in 
effect, there have been numerous lawsuits challenging various 
provisions of the regulations. And some of these provisions in 
the regulations that were set out have in fact been struck 
down, including one by the Supreme Court in a decision in 2002, 
Ragsdale v. Wolverine.
    So we are mandated by the Court to revisit certain aspects 
of the Family and Medical Leave Act, and we've, in response to 
the Supreme Court decision and other case law developments, we 
have held a number of stakeholder meetings throughout the last 
2 years with both employees and employers, with the unions, 
with non-profit groups. And we have been considering a number 
of informal comments and the feedback that we have received 
from these shareholder meetings. We've been reviewing the 
development in case law and we are looking at a number of areas 
where we could possibly provide better guidance.
    But let me say that no final decision has been made on this 
issue. We do have outstanding the 2002 Supreme Court decision 
on Ragsdale, and so something needs to be done on that.
    Senator Specter. Well, let us work together and stay in 
touch to see how--what you're thinking about, have an equitable 
balance so that we do our best to strike a balance between what 
the workers have in mind on leave and what the employers are 
concerned with.

                       YOUTHFUL OFFENDER PROGRAM

    You are again proposing to eliminate the responsible 
reintegration of youthful offender program, replacing it with a 
prisoner re-entry initiative. I was with the President and the 
First Lady in Pittsburgh 1 week ago yesterday, and she has a 
program to help troubled youth, and we have these programs 
sprinkled all over the map, Secretary Chao.
    This prisoner re-entry initiative, you really need a score 
card to keep track of what's going on. It's going to be funded 
through three Departments, $35 million from the Department of 
Labor, $25 million from HUD, and $15 million from the 
Department of Justice. Does all this alphabet soup make sense?
    Secretary Chao. I know that the youth offender program is 
very near and dear to your heart and it's one of your----
    Senator Specter. Well, it has been near and dear to my 
heart since I worked with youthful offenders many years ago as 
district attorney, and it continues to be an atrocious problem. 
There were 11 murders in Philadelphia over the weekend. The 
chief of police decried the situation yesterday, noting that 
there were more murder--more people killed in Philadelphia over 
the weekend than in Iraq. So there really needs to--we really 
need to do something. It is a bottomless pit. What do you 
think?
    Secretary Chao. We know that this is a program that you 
place a great deal of emphasis on, and in fact we share your 
concern that there seems to be a great many different venues 
through which focus on this issue was taken, which was why we 
took the impetus--we took the initiative initially to try to 
work the young offenders program into a larger program. And so 
we have tried to integrate the funding. We have tried to work 
this program into the prison re-entry initiative.
    Our concerns are the same as yours. It's too fragmented. 
And so we thought that, again, with the young offenders 
program, if we work together through the prisoners re-entry, 
along with a more coordinated and coherent approach with other 
Departments that are also involved in facing this--addressing 
this challenge, that we would do a better job.
    Senator Specter. My red light is on, and I like to observe 
the time, but it would lose continuity if I didn't ask you one 
more question. We could solve this fragmentation by simply 
moving the Department of HUD and Urban Development and the 
Department of Justice under your Department of Labor, under 
your overall Secretaryship. Would you think that would 
eliminate the confusion and duplication and overlapping?
    Secretary Chao. I never refuse an offer to expand my 
empire.
    I'm only joking, of course.
    Senator Specter. Madam Secretary----
    Secretary Chao. I think there's a larger issue here: This 
is very much geared toward training and getting young people 
together with community and faith-based organizations who 
support, in a holistic way, the full integration of young 
people back into the community. And so we thought that a more 
holistic, coordinated, and comprehensive approach with other 
Departments that are also doing the same thing would yield 
actually a better result for these young people.
    Senator Specter. I want to now yield to the distinguished 
chairman of the full committee who may be able to solve all of 
our problems when he makes the allocations.
    Senator Cochran. Mr. Chairman, thank you very much for your 
confidence in our decision-making capabilities. I hope that we 
are able to reach a decision that enables the Department of 
Labor to carry out its important responsibilities, particularly 
in job training and their programs in my State.

                           JOB CORPS PROGRAM

    I had the pleasure of visiting last year a Job Corps site 
where they're doing very commendable work in preparing students 
for real jobs that exist in our State. I noticed there's a 
decrease in the budget request for the Job Corps program, a 
decrease of $29 million below last year, and also a suggestion 
for recission of funds in the construction area for the 
renovation and repair of buildings. I think my State has a 
backlog of that kind of work as well.
    I hope we will be able to work with the Department to 
identify some changes that we can make in the budget without 
disrupting the overall goal of holding the line on unnecessary 
spending. But I mention that program, and I wonder what your 
impression has been of the Job Corps program, specifically its 
efforts to train those who don't come to the program with a 
high level of education, some of them don't, and so this job-
training activity may be their only hope for having a good-
paying job.
    Secretary Chao. The Job Corps is a very popular program. It 
is liked by Members across--on both sides of the aisle. It's a 
very popular program. The specific line item that you're 
referring to impacts only the construction, the rehabilitation, 
and acquisition account for buildings. So we do not anticipate 
any service reductions at all.
    We will continue to pursue the acquisition of the new sites 
in Pinellas Park, Florida, and Milwaukee, Wisconsin. I think 
what we're talking about here is again, we do not expect that 
current funding requests will impact the current service level 
at all.

                             LOAN GUARANTEE

    Senator Cochran. There is one request I called in the other 
day by telephone to your office. It has to do with an 
application for a Department of Agriculture loan guarantee 
submitted by a company that is planning to build a steel 
manufacturing plant in Columbus, Mississippi. They've applied 
for a loan guarantee from the Department of Agriculture under a 
program that I'm familiar with.
    But before the Department can approve that, they're 
required to submit the application or notice of the application 
to the Department of Labor. And the Labor Department's role is 
limited to making two findings: That the approval of the loan 
guarantee does not involve the relocation of jobs; and there 
will be no adverse impact on competitors in the immediate area.
    In the immediate area of Columbus, there is no other steel 
manufacturing plant. There is no other steel manufacturing 
plant that will provide the material that this company will 
provide in the entire Southeastern United States. To my 
knowledge, and I'm assured that this is the case, there is no 
question about relocating jobs from some other area.
    I had a very difficult time getting information from your 
office as to what the status of the matter was. I asked for 
additional information. I was assured that my call would be 
returned by somebody who could provide me with that 
information. I haven't received a call yet. Somebody on my 
staff may have gotten a call, but I haven't been advised about 
it until now.
    I hope that you will look at this request. The company's 
name is Steelcorr Corporation. It would manufacture steel 
plates for automobile construction. We have several new 
automobile construction facilities that have been located in 
our State, in the State of Alabama, and in that region, but 
this would be the first plant that would be actually making 
steel plates to be used in the construction of these 
automobiles.
    If this company is able to get the loan guarantee, they'll 
build that plant and it will provide a lot of new jobs and a 
lot of new industries that are compatible with it. Suppliers 
and the like would also likely move into our area.
    So we have a great deal of interest in this, and we hope 
that the Department of Labor won't just continue to hold this 
application. It's a matter of some urgency, I'm told, so that 
they can move forward with the construction of this facility. 
I'm sorry to have to spend so much of my time talking about the 
importance of that. It sounds like it's something that the 
Department could handle very quickly.
    Senator Specter. Senator Cochran, if you'd like more time, 
you're welcome to it.
    Senator Cochran. Thank you, Mr. Chairman. I don't think I 
need it.
    Secretary Chao. May I answer that? May I just make a few 
comments about that if I could? First of all, I'm sorry that 
you have the impression that our Department is not responsive 
in answering, because when the chairman calls, both chairmen, 
we answer the calls right away, so again, I don't know what 
happened. I will check into that.
    Second issue, we understand that this is a--we know that 
you are concerned about this issue, and we're very focused on 
it. We play only a very small part as you mentioned in the 
whole process. The Department of Labor is required by law to 
evaluate the impact of this financial assistance. We have about 
30 days. The application was submitted on February 24 with 
USDA, and it was forwarded to the Department of Labor for 
consideration--I'm sorry--on February 24. So the Department has 
about 30 days and we're still in the evaluation process.
    Please be assured that your interest in this is noted, and 
again, we are just responsible for the assessment, and then we 
go back to USDA and then they, of course, make the final 
decision.
    Senator Cochran. I thank you for your response and hope 
that we will see the timely handling of the Department of 
Labor's responsibility for this application. Thank you, Mr. 
Chairman.

                    PERSONAL RE-EMPLOYMENT ACCOUNTS

    Senator Specter. Thank you very much, Senator Cochran. 
Madam Secretary, in fiscal year 2004, Congress did not approve 
your request for $50 million to initiate a new personal re-
employment account program, but you used transfer authority to 
spend $9 million on this program anyway. I think it is very 
important that when there is a refusal by the Congress on the 
appropriations process under the Constitution that the funding 
not be used in any collateral way, and I would be interested in 
your comments on the matter and your assurances that the 
Department does not intend to use the collateral way with 
transfer authority, where there has been an expressed 
declination by the Congress.
    Secretary Chao. As you know, the administration strongly 
supports the personal re-employment accounts, and the House 
passed one version and the Senate did not. Because the original 
larger scale personal re-employment accounts were not funded, 
it was decided to test the approach on a smaller pilot basis, 
through some demonstration projects, and I believe we notified 
the Appropriations Committee that we were intending to do so. 
And I think, as you mentioned, there's about $7.9 million out 
of a huge project that was the original intended amount.
    So we hope that we at least--we will get better information 
and test this approach on a--with some communities have 
voluntarily wanted to participate. And we hope that again that 
will yield better information on whether this works or not.
    Senator Specter. Well, Secretary Chao, even though it's a 
relatively small sum of money, although we might discuss 
whether $7.9 million is a relatively small sum of money, and 
even though it's a pilot project, and even though the 
administration very much wants it, and even though some 
communities would like to do it, it's really, really beyond the 
separation of powers.
    Listen, you've done such a good job that I'm not going to 
dwell on the point. But I just want to drop a big red flag.
    Secretary Chao. Okay.
    Senator Specter. Okay? It doesn't have any stars and 
stripes on it.
    Secretary Chao. I understand.

       APPALACHIAN COUNCIL AND THE WORKING FOR AMERICA INSTITUTE

    Senator Specter. Big red flag. I appreciate the work of the 
Department in working through the statutory deadline of January 
31 to put grants into effect for several projects, including 
the Appalachian Council and the Working for America Institute. 
There have been some differences of opinion as between--these 
occur inevitably between the executive and the legislative 
branches, and that's why we have separation of powers.
    But I would like you to take a look at those programs, a 
personal look, and let me know what you think of them, because 
if there are any problems there, I would like to be personally 
informed.
    Secretary Chao. Okay.
    Senator Specter. An effort made to work them out. Those 
projects have been in effect for a long time, and they provide 
sort of a classic confrontation in the political field. You and 
I are both dedicated to service and doing what is good, so 
that's something that I would like something between Elaine 
Chao and Arlen Specter. If you would take a look at them, we 
can see what they're doing and try to work out any problems.
    Secretary Chao. So it's Working for America and the NCEE?
    Senator Specter. Yes, and the Appalachian Council.
    Secretary Chao. The Appalachian Council, okay.
    Senator Specter. And the Working for America Institute.
    Secretary Chao. These are sole-source contracts. We can 
talk more about them, but the main problems are sole source 
criteria.
    Senator Specter. Well, we do still use them to some extent.
    Secretary Chao. But we did fund--the committee earmarked 
and it went out on time.
    Senator Specter. No, no, I know you've done it, and I 
started off by thanking you for doing that. This initiative for 
the black clergy, which Senator Santorum and I were so 
enthusiastic about, looked like it was all going through until 
late in October, and we had a problem, which could have had 
some very serious repercussions. We were able to work it out. 
And I'd like you to take a look at that one too as to how they 
are doing.

                         FAITH-BASED INITIATIVE

    This goes back to the problem we talked about, juvenile 
delinquency, and this is a faith-based initiative. These are 
churches and they've set up six job training programs. And here 
again is something which reaches the level where I would like 
the Secretary and the chairman to work together.
    Secretary Chao. I'd be pleased to do so.

                          ASBESTOS VIOLATIONS

    Senator Specter. Madam Secretary, the issue has arisen on 
increasing the penalties for a willful violation of the 
Occupational Safety and Health Act on asbestos violations. And 
I would be interested--I'm considering legislation on that 
field. Asbestos is a terrible problem which we all know about, 
and I'd be interested in your views as to whether you think 
enhanced penalties would be a good idea there.
    Secretary Chao. I think the current discussions about the 
asbestos bill, which you have taken quite a leadership position 
on, is evolving, and we want to thank you for your leadership. 
It's a difficult issue. There are obviously a great array of 
different stakeholders. And the administration has not really 
taken a position on a number of these issues pending these 
working groups and outside stakeholder groups to come to some 
kind of an agreement.
    Senator Specter. Well, we are working very hard on the 
asbestos bill. I had a chance to talk to the President about it 
when I traveled with him to Pittsburgh a week ago yesterday, 
and he's looking for a bill which he can sign, and we're trying 
to get bipartisan activity. And your Department has had 
phenomenal success in administering matters.
    The way it works is, if you do a good job, people come back 
to you and say, you've done such a good job and we'd like you 
to do more. We find that with this subcommittee and I find that 
on the Judiciary Committee. And on the legislation which we are 
working on to create a trust fund, there's not going to be any 
Federal money going into the fund.
    The insurance and manufacturing industries have agreed to 
put up $140 billion, which we're projecting will be sufficient. 
And we're working very carefully on directing it only to the 
sick people, so that we're not going to have any expanded 
coverage. It's going to people who really are sick.
    The Supreme Court handed down a decision that--5 to 4--that 
if you were exposed to asbestos you would collect money whether 
you were sick or not. And thousands of people are dying of 
mesothelioma and asbestosis. Companies are going bankrupt, 
can't pay them. Seventy-four companies are going bankrupt. But 
there's not going to be any extended coverage, and the 
Department will not be called upon to be a tax collector or 
banker.
    I'm meeting with the Attorney General later today and we're 
giving him a lot of new jobs too on enforcement. And it is sort 
of axiomatic that everybody is overworked, but this is a 
problem which is overwhelming the economy, and we are searching 
very, very hard for remedies.
    I'm delighted to be joined by my distinguished ranking 
member, also delighted to be joined by Senator Inouye, who beat 
the ranking member here by 30 seconds. Senator Inouye, with his 
customary grace and aplomb, has gestured to take Senator Harkin 
first. Senator Harkin has just acceded.
    As I said at the beginning of the hearing, I'm due on the 
floor to offer an amendment to increase the funding for our 
subcommittee, so I'm going to--well, we were--we've been cut 
everywhere, and I want to bring the funding back up to level 
for education, which would be a little over $500 million and 
NIH $1.5 billion. So I'm going to leave the seamless gavel in 
the hands of Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Senator Specter. Thank you for the very good work you're 
doing, Madam Secretary.
    Secretary Chao. Thank you.
    Senator Specter. We'll be working with you to tackle the 
tough issues which we talked about, and we will have some more 
questions for the record. Thank you.
    Secretary Chao. Thank you.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin [presiding]. Madam Secretary, again, welcome 
and I appreciate your work at the Department of Labor and your 
continuing efforts in that regard. I just want to join our 
distinguished chairman in welcome you again to this committee.
    Madam Secretary, I'm just going to make a short opening 
statement and then we'll get to some questions and I'll yield 
to Senator Inouye. Madam Secretary, I know you appreciate frank 
exchanges. We've had many in the past. So I must tell you up 
front that I am very disappointed in the administration's 2006 
budget request for your Department. I appreciate that you're 
being a good soldier and going along with the OMB's marching 
orders, but I must for the record say that the proposed 2006 
budget from the Department of Labor is seriously out of synch 
with the needs of our labor force.

                               UNEMPLOYED

    Right now, 7.7 million workers are officially unemployed. 
Another 1.8 million are too discouraged to look for jobs, so 
they aren't even included in the official unemployment rate. 
Long-term joblessness is at record levels. Yet despite these 
challenges, the administration proposes to cut DOL's budget by 
$400 million.
    Let me mention some specifics. A 2003 General Accounting 
Office report found that the employment services, the principal 
source of employment and training programs for American 
workers. But the White House proposes to eliminate this proven 
agency and replace it with a generic block grant to the States.

                          MIGRANT FARM WORKERS

    Second, the number of migrant farm workers with immigration 
issues has increased from 7 percent to 52 percent in the last 
decade. Yet the White House proposes to eliminate not only the 
migrant and seasonal farm worker program, but also the source 
of the information, the national agricultural workers study, 
where we get the data and the information.

                                VETERANS

    Third, our soldiers are coming back from Iraq wounded in 
record numbers, many with amputations that will affect their 
employment options for the rest of their lives. Yet the White 
House has proposed an insignificant increase in the veterans 
employment and training service, and proposes to cut the Office 
of Disability Employment Policy by almost half.
    Next, the President is promoting both the Central American 
Free Trade Agreement and the Andean Trade Agreement, both of 
which will require technical assistance on core labor 
standards. But this budget proposes to essentially gut the 
International Labor Affairs Bureau, ILAB, which provides that 
technical assistance.

                          WORKFORCE CHALLENGES

    So as I said, Madam Secretary, these budget proposals, I 
believe, are out of synch with the needs of our workforce. In 
some cases, the budget is out of synch with the 
administration's own professed priorities. Our workforce today 
faces more challenges than at any time since the Great 
Depression--globalization, outsourcing, the continuing shift 
from manufacturing to services. I would argue the Department of 
Labor needs more resources, not less. Rather than downsizing, 
the Department should be playing a much more robust role in 
guiding the American workforce through this period of change.
    So I am disappointed with this proposed budget and 
hopefully through the efforts of Senator Specter on the floor 
and as we move ahead with the appropriations, I am hopeful that 
we can provide a more appropriate funding for the priorities in 
the Department's budget, Madam Secretary.

                              HALLIBURTON

    Now, I had some questions, but I would certainly--first, 
Madam Secretary, Dresser-Rand employees from Olean, New York, 
called the Department of Labor 2 years ago with questions about 
the legality of Halliburton confiscating the early retirement 
subsidy to their pension when Halliburton sold the Olean plant. 
To date, these employees have received no response from your 
Department. So I'd like to ask if you could please submit for 
the record a timeline of what your Department has done in the 
past 2 years to respond to these calls and when you anticipate 
being able to respond definitively. I'm particularly interested 
in the activities of DOL investigators located in Texas.
    Now, the reason I mention this, Madam Secretary, is that I, 
along with others, have sponsored legislation since 1999 to 
create an office in your Department to respond to pension 
participants to be an advocate for them within the Government. 
Yet your Department keeps saying it's not necessary, that we 
already respond adequately to pension participants.
    Again, Madam Secretary, if that's your position, can you 
please comment on the experience of the Olean workers in New 
York?
    Secretary Chao. Actually, EBSA, that's the Employee 
Benefits Security Administration----
    Senator Harkin. Is that mike on? Okay, now I hear it.
    Secretary Chao. My opening statement, which I submitted for 
the record, talked about the great--the very strong enforcement 
record we've had ensuring worker safety and health and also 
retirement security. In fact in 2004, EBSA has achieved more 
than $3 billion in monetary results for workers' retirements 
and also pension funds. This is a 121 percent increase over the 
previous year.
    I'm not familiar with the case that you mentioned and I 
will certainly take a look at it. But we have also about 108 of 
these participants' advocates, benefit advisors, within EBSA, 
and that's what these people's jobs should be, and that is 
they're case workers. They're supposed to be helping 
individuals who call in. And so we don't really think that the 
advocacy office is necessary, and I think the results speak for 
themselves. But I'd be very open to showing you what we've been 
doing, and I certainly will get back to you on the information 
concerning the case that you mentioned.
    Senator Harkin. Please do so, because evidently it's been 2 
years, and according to my information--that's all I can go 
on--nothing has been done and they have received no response 
from your Department after 2 years on this issue.
    Secretary Chao. We'll look into it.
    Senator Harkin. So I'd just like to know----
    Secretary Chao. We actually have a good record----
    Senator Harkin. Pardon?
    Secretary Chao. We actually have a good record in 
recoveries and----
    Senator Harkin. But do you have a record on what's happened 
with Olean?
    Secretary Chao. We will look into it.
    Senator Harkin. And you will submit that to us then?
    Secretary Chao. Yes.

                         CHILD LABOR VIOLATIONS

    Senator Harkin. Okay, I appreciate that. Next I'm--Madam 
Secretary, I'm disturbed by reports of an unprecedented 
agreement, really unprecedented, between the Department of 
Labor and Wal-Mart in a settlement on child labor violations.
    On January 11 of this year, the Department of Labor signed 
an agreement with Wal-Mart settling a case against the company 
on violations of child labor laws, in which 85 minors operated 
hazardous equipment. As part of the settlement, Wal-Mart was 
granted an unprecedented concession, 15 days advance notice of 
any future audit or investigation into the company's labor 
practices.
    Well, there's been a lot of stories about this in the 
press. There was a story printed in the American Progress that 
DOL had retracted their initial press release on the settlement 
and re-issued the release with changes that Wal-Mart insisted 
on. Now these are all in the popular press out there. But 
again, I must say I'm disappointed the administration is 
sending the wrong signal on child labor laws, eroding 
protections by providing advance notification of inspections 
domestically, while eliminating support for programs to 
eradicate child labor internationally.
    Madam Secretary, are you aware of this agreement with Wal-
Mart?
    Secretary Chao. Not initially. This is actually done by----
    Senator Harkin. Are you telling me right now you're not 
aware of it?
    Secretary Chao. No, I am aware of it.
    Senator Harkin. Oh, you are--you said not initially.
    Secretary Chao. Not initially. This is a--this is 
consistent with past practices in different regions of Wage and 
Hour division to enter upon these settlement agreements. In 
fact, during the previous administration they were called 
partnership agreements. So claims that this agreement is 
lenient are totally false. This agreement is consistent with 
other settlements of other enforcement actions. It is a good 
settlement. The terms apply company-wide, not just the stores 
where the violations occur.
    Wal-Mart was assessed a higher fine than the average 
penalty. There was no coordination of any press agreements. The 
15 day was actually quite normal and usual. In fact, in the 
previous administration there have been cases where the 
previous administration gave up to 90 days of notice. The 
purpose of the notice is not to allow the company to not 
comply. The purpose of the period is--of this time period is to 
allow the--is to remove whatever is the harmful action to occur 
quickly and then it also benefits the Government to be able to 
go in and have the company or the employer be prepared to 
answer questions.
    So again, this particular agreement, while I admit is not 
well written, is consistent with past practices, and the time 
period, 15 days or whatever given, is quite consistent, in fact 
is on the lower end of some of the other agreements which we 
have seen executed under the previous administration. Labor 
union organizations are also given a period of time in which 
they are required to compile the necessary documentation so 
that they can come speak in a more--they can have the documents 
that they need to be able to speak to the Government. So this 
is not--this is again----
    Senator Harkin. I'm told----
    Secretary Chao [continuing]. Consistent case. This is 
consistent with past cases, and it's how it's handled.
    Senator Harkin. I'm told that advance notification has only 
been given for voluntary enforcements in past agreements, but 
never in mandatory type of settlements, that this is the first 
time that this has been done.
    Secretary Chao. This is different from OSHA. This is Wage 
and Hour. This is not OSHA. This is Wage and Hour and 
particular--these apply to Wage and Hour infractions. They're 
very different from OSHA.
    And second----
    Senator Harkin. Well, I thought these kids were involved in 
operating hazardous equipment.
    Secretary Chao. This is not an OSHA issue. This is a Wage 
and Hour issue, so it's not OSHA.
    Senator Harkin. Well, it was a violation of child labor 
laws. Eighty-five minors were operating hazardous equipment.
    Secretary Chao. No, the equipment itself is not hazardous.
    Senator Harkin. Oh.
    Secretary Chao. People can--people can operate them, but it 
was just that these young people operated the--they were bale 
machines.
    Senator Harkin. Yeah, and kids are not supposed to operate 
them.
    Secretary Chao. Kids are not supposed to operate that.
    Senator Harkin. I've been through this before with grocery 
stores.
    Secretary Chao. But this was a--this is not a consistent 
basis. It was a once--it was an infrequent occurrence which is 
documented. So when the Government goes in, we need 
documentation, because it's not as if the child--the young 
person is standing there at the machine the whole time. It was 
an infraction at a particular time and a particular day. It was 
not a consistent pattern of behavior.
    But nevertheless, the 15-day notice, or the advance notice, 
is not unusual. As I mentioned, there were past settlements, in 
fact----
    Senator Harkin. That involved violations of child labor 
laws?
    Secretary Chao. Yes. And they also gave much longer periods 
of----
    Senator Harkin. So there have been past violations of child 
labor laws in which the Department has agreed to an advance 
notice of 15 days----
    Secretary Chao. More than that. Under Wendy's and there's 
another one called Genesis, those are two that come to mind 
immediately, they were in the previous administration and they 
gave up to 90 days. This is different from an OSHA violation, 
because when you have an OSHA violation, there is consistent 
hazardous behavior. This is--Wage and Hour infractions are 
intermittent and they're documented much more by paperwork, so 
it's different. But again, the advance notice has been terribly 
portrayed in the press. It is not unusual.
    Senator Harkin. So you're saying that Wal-Mart was not 
given preferential treatment?
    Secretary Chao. No, it was not, and there was no press 
coordination.

                   INTERNATIONAL LABOR AFFAIRS BUREAU

    Senator Harkin. Okay. When you came before our subcommittee 
to discuss the 2004 budget, we discussed funding for the 
elimination of the worst forms of child labor, as you and I 
often do. This has been a constant communication between us. At 
that time, you were requesting $54.6 million in funding for 
ILAB, the International Labor Affairs Bureau, because you said 
that more than that amount was then beyond the capacity of one 
office to absorb. You assured me at the time that we had the 
same goal, that you wanted to work towards increasing the 
capacity of the office to administer these programs. I quote, 
you said, ``please be assured that we are not differing at all 
in the terms of the goal.'' Further on the record you said, 
``if you want to build the infrastructure internally, it will 
take some time. The commitment I assure you is absolutely 
there.'' These were your words, Madam Secretary.
    Well, what am I to make of the 2006 budget, which proposes 
a measly $12 million for these activities? This is an 86 
percent reduction from $54.6 million down to $12 million. I 
mean, help me understand this.
    Secretary Chao. We're very concerned obviously with child 
labor, and I went to Africa, as you know, in December 2003 to 
review some of the projects which we are in coordination and 
partnership with the ILO. I have to say, Mr. Chairman, the 
results of those visits were not very positive.
    But nevertheless, the current budget in ILAB does not 
reflect our reduced commitment to child labor, but perhaps the 
increasing awareness that we are not the best place to 
administer these programs, and that the best place for--the 
best thing for ILAB is to return to its core mission of working 
on core labor standards and on advocacy, and that's something 
that this budget reflects.
    Senator Harkin. But I don't see it being picked up anywhere 
else. I don't see any--you know, it would be one thing if it 
was cut here but was added some other place and the 
responsibility was shifted, but I don't see that happening 
anywhere in the budget.
    Secretary Chao. Well, I think the State Department, AID, 
and the Peace Corps also does some of these and there are other 
areas we are told that do have an emphasis on this population 
as well.
    Senator Harkin. Well, I don't know about that. AID has been 
focused a lot on disability issues, that's for sure. Mr. 
Natsios has done a very good job in moving AID towards making 
sure that U.S. tax dollars are not used to build facilities 
that are inaccessible. He's done a great job and also the 
Secretary--I should--also did that, Secretary Powell, and 
implemented procedures for disability issues on AID. But I--
this is one area though in terms of core labor standards, child 
labor, worst forms of child labor, where the Department of 
Labor has had, well, I think some pretty long experience in 
this area for some time. The State Department hasn't. AID, I 
think, yeah, in terms of what they're doing for development 
purposes and responding to issues of disability rights, that's 
fine.
    But in terms of child labor, this is the Department of 
Labor, not the State Department. And so--I mean, I might argue 
with you about where it ought to be located, but if the 
administration wanted to shift it, again, I don't see the money 
anywhere for it. I don't see any line item authority in the 
State Department or anywhere else for this to take place. I do 
see in AID for disability, like I said, but not for these child 
labor issues.
    Secretary Chao. The other issue is a lot of the monies that 
were supplemented in the last few years were grant-making, and 
so I think there was an effort to perhaps bring back ILAB to 
its original mission of international labor policy, our 
research, advocacy, and analysis.
    Senator Harkin. Well, I guess that's just a policy 
difference we have. I mean, I think this Congress, Senate, 
House, in the past few years, and I think pretty 
bipartisanally, has spoken strongly both in the previous 
administration and in this one that we want the Department of 
Labor to be actively involved in the issue of child labor.
    There have been a number of reports from your Department on 
that that have gone back a number of years. I think it's been 
recognized in many places that DOL has really moved 
aggressively on this. Now if you want to say you want to go 
back to the start, gee, we've come a long way and we still see 
instances of gross violations, basic decent child labor 
standards around the globe. And this is leadership. This is the 
United States of America talking about our role, our moral 
leadership, our ethical leadership in talking about child 
labor. And I just hope that it would continue on rather than 
trying to go back to where we were 10 years ago or 12 or 15 
years ago on this.
    Secretary Chao. I think we can still do a great deal. We do 
take the leadership, for example, we hosted the first worldwide 
convention of child labor delegates, and through promoting a 
greater awareness of the problem, through convening the right 
mix of stakeholders, I think we can do a lot. I'm just not sure 
that the grant-making part of the resources is something that 
we can--that we're going to place very much emphasis on as we 
go forward.
    Senator Inouye. Madam Secretary, I'm here to greet you and 
to welcome you to the committee. I'm trying to save my voice. I 
just got out of bed with the flu, so I've been advised to 
maintain a low profile.
    If I may, I'd like to submit my questions to you in writing 
and request some written response.
    Secretary Chao. Of course.
    Senator Inouye. Your assignment is a very difficult one, 
because the policies that you have to work under are oftentimes 
generated by other Departments, Department of Defense, 
Department of State, over which your influence may be at best 
limited. And so, having served on subcommittees that deal with 
these two Departments, I'm well aware that oftentimes decisions 
that you render may have to be determined by our relationship 
with certain countries. I know that it may not be to your 
liking, but such are the facts of life, and for that I thank 
you for your patience and your understanding.
    I will be submitting my questions, but I have to save my 
voice. Thank you very much.
    Secretary Chao. Thank you for coming.
    Senator Harkin. Thank you, Senator. Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. I 
apologize to the committee and to the Secretary for trafficking 
late this morning, but there was a bigger billing in a 
different committee, Elaine. Alan Greenspan was here and we're 
talking about retiring and the demographics of a workforce. And 
it's certainly part of your charge and your responsibility, and 
I understand that.
    I think one of the things most significant said, and it 
will be my only question, I'll review your testimony, and I 
must tell you I applaud the work you have been doing and the 
successes you've had in relation to America's workers and the 
enforcement of law in a clear and transparent way that I think 
all of us recognize is tremendously important for the 
credibility of government and for your agency, and you're to be 
recognized and applauded for that.
    I think one of the things the chairman said a few moments 
ago that I found interesting was really no way to fix the 
system, and we were discussing Social Security, and look at 
older Americans' financial security than to keep them a little 
longer in the workforce. The reality is out there no matter 
what we do that the demographics are so overpowering as it 
relates to where we are traveling as a culture. We're going to 
live longer. We're going to be much healthier living longer. 
Americans feel much more productive usually if they're in the 
workforce. And that early retirement is a relatively new 
phenomenon, that the numbers we're seeing and have seen for the 
last good number of decades are really products of a difference 
that 30, 40, 50 years ago was simply not the case.
    I found that quite fascinating. He had, as is quite typical 
of Chairman Greenspan, all the facts, figures, and statistics 
to back that up. But having said that, in the programs that you 
look at today in your charge and responsibility, what areas do 
you believe most effective for those who find the need to stay 
in the workforce, those that might need some additional 
training? We may be looking at some, if you will, bumping up, 
if the skills of 55, 60, 65-year-old people who might choose to 
stay in the workforce another 5 or 6 years or more, that will 
be beneficial to them. Is it possible for you to address those 
programs and what you see in the future?
    Secretary Chao. It's interesting that you mention this 
topic, because I just--because it's very timely and very 
relevant. I just got back from the G-8 labor ministers meeting 
where the theme, interestingly enough, was aging populations. 
Among the industrialized nations of the world, the graying of 
the workforce is a huge concern for policy makers.
    You are right. Workers these days are living longer, 
they're in better health, and they don't view retirement as the 
ending phase of their life, but rather the beginning of a 
fourth of a fifth phase of their life. And so we want to ensure 
that our policies are open and flexible so that individuals who 
want to remain in the workforce can do so, especially since our 
workforce is going to be facing a shortage of workers after 
the--as the baby boom generation retires.
    We do have training programs that will re-skill a person to 
a field in which he or she has not been familiar with. That's 
all part of the workforce development and training that we are 
focused upon.

                    HIGH GROWTH JOB TRAINING PROGRAM

    Then third, I think with the President's high growth job 
training program, we have matched resources and individuals 
with the opportunities that are coming up. We have a need for, 
you know, 3.4 million health care workers in the next 8 years. 
We have a need for 1.5 million nurses in the next 10 years. So 
there are pockets of disequilibrium in our labor market which 
we've got to address, and older Americans are a very valued 
segment of our population.

                           UNEMPLOYMENT RATE

    By the way, I should mention also the unemployment rate is 
5.4 percent nationally this past month. The unemployment rate 
of seniors is about 3.7 percent. So having said all of that, 
and given the tremendous interest that the G-8 labor 
secretaries have on aging workforces, I think it's very timely 
that our Nation is having this discussion as well on Social 
Security and also on pension security as well.
    Senator Craig. Well, I would have loved to have been your 
travel partner and listened to those discussions, because I've 
spent a good deal of time looking at what has happened in 
Japan, and certainly some of the countries of Europe are really 
well advanced in their aging, if you will, and therefore 
finding tremendous impact on their social programs within their 
governments and how they fund them and do all of those kinds of 
things.
    How much of a bias do we still have built in the system to 
force retirement?
    Secretary Chao. If you're an older American and you want to 
work, our country had made great progress. We've abolished--
we've fought against age discrimination, so that is illegal, 
and we've done away with mandatory retirement age, and we've 
raised the Social Security earnings limits.

                               RETIREMENT

    But our workforce is still not as flexible as many older 
Americans would like. Again, retirement is no longer this 
twilight of one's life where one retires to the veranda and 
sits on a rocking chair. It is a very active phase of our 
workforce's life, and people also rebel against--a lot of 
people are also rebelling against the cliff effect, where one 
day they're at work and then the next day they're totally 
disconnected with the only community that they know. So there 
should be greater flexibility and more openness in our 
workforce to be more welcoming of those older Americans who 
still want to--who want to still remain in the workforce.

                            SOCIAL SECURITY

    Senator Craig. Well, I thank you very much for those 
comments. I think they are very real hurdles for us. We're in 
the business of trying to get our hands around, and better 
understand and cause the American people to better understand, 
the problems of Social Security.
    What I think is fascinating about that whole debate that 
we're now engaging in is that it's--it is a piece of a much 
larger issue of workforce and aging and all the dynamics of how 
we keep this country running economically and the security of 
retirement and the reality of so many other things that now 
have to be added to it, and the dynamics of the current and 
future cultures in this country.
    So thank you very much. I appreciate you being here.
    Secretary Chao. Thank you.
    Senator Craig. I guess we're ready to wrap up. Please 
proceed.

                           CHILD LABOR ISSUE

    Senator Harkin. This has been a good discussion listening 
to Senator Craig, but I want to follow up one last time on the 
child labor issue, on the $12 million for all these activities. 
In the Bipartisan Trade Promotion Authority Act of 2002, it is 
the statutory obligation of the U.S. Government to: 
``strengthen the capacity of U.S. trading partner to promote 
respect for core labor standards.'' This is the obligation by 
law of the International Labor Affairs Bureau. So again it's 
not just research, but this is part of the law, it's an 
obligation.
    So again my question comes back, how do we fulfill this 
obligation with $12 million? And do you feel that you can do 
that with $12 million? I guess that's really what I'm getting 
at. I mean, it's not just something we'd like to do. It's now 
an obligation under law.
    Secretary Chao. We're very concerned about child labor and 
we will continue to work on that. Again around 1996 ILAB's 
budget was about $12 million and then in subsequent years it 
rose to about $149 million in 2001. And these were primarily 
grants, and based on an assessment as to what these grants do 
and whether they are as effective as they should be, there was 
some feeling that ILAB should really return to its core mission 
again of promoting core labor standards, going into research, 
analysis, and advocacy and more of that.
    So there will not be any, for example, any FTE----
    Senator Harkin. I'm sorry?
    Secretary Chao. There will not be large FTE reductions. We 
expect to have people who will carry on continuing work. But 
these are----
    Senator Harkin. If there's going to be that big of a cut--
--
    Secretary Chao. But the ones--but the additional monies are 
much more grants.
    Senator Harkin. I would think if there was that much of a 
cut, there ought to be some FTE reductions.
    Secretary Chao. There won't--I don't think there will be.
    Senator Harkin. Again, this is a question I don't know the 
answer to, but were there assessments made either by your 
Department or GAO about these grants and the effectiveness of 
them?
    Secretary Chao. I know that IG has made----
    Senator Harkin. The IG?
    Secretary Chao [continuing]. Has made a study.
    Senator Harkin. Well, maybe I'll get my staff to get a hold 
of that and see what they said on it, because I'm just not 
familiar with that. But I just wanted to point out that there 
is a statutory obligation for ILAB now, and I'm not certain it 
can fulfill it with $12 million. If all you were going to do is 
research, maybe so. But if you have to fulfill this, especially 
with CAFTA coming up and Andean Trade, all that coming down the 
pike, I would still think this would be an area where you're 
going to require more than that.
    Secretary Chao. Well, we want--we want to work with you on 
it. But it was kind of the assessment that we'd be able to 
provide this kind of assistance with our in-house Department of 
Labor employees, that we would be able to offer technical 
assistance and also coordinating with other grant-making 
agencies as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Madam Secretary, you've been very gracious 
with your time. I have some questions I will submit for the 
record, especially as it deals with the Office of Disability 
Employment Policy and the veterans employment and training 
programs. I'll just submit those in writing.
    Secretary Chao. We'll be pleased to answer them. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing.]

              Questions Submitted by Senator Arlen Specter

                  SUBSTANCE ABUSE TREATMENT WORKFORCE

    Question. I have heard from my constituents that in Pennsylvania 
and throughout the nation, the substance abuse treatment workforce is 
undergoing turnover rates of 50 percent or higher and there is real 
question whether the remaining workforce can get the training needed to 
implement the most effective treatments. This would be a serious 
problem for any industry but given the alarming public health and 
public safety issues associated with addiction it is a particularly 
serious workforce development issue.
    I know that your department has initiated effective workforce 
development programs in several industries such as agriculture, mining 
and nursing. Do you have any plans to implement such programs for the 
substance abuse treatment industry?
    Answer. Health care has been targeted as one of the high growth 
industries in the President's High Growth Job Training Initiative, and 
through that initiative the Department has funded a broad array of 
occupational workforce solutions. This includes such occupations as 
direct support specialists and paraprofessionals, and we would consider 
the substance abuse treatment workforce to be a component of this 
industry. The Department welcomes the contributions of the substance 
abuse treatment industry as part of the High Growth Job Training 
Initiative.
    Additional opportunities are available to address local workforce 
shortages through the Community-Based Job Training Grants, which target 
high growth industries in local communities. Community colleges, as 
grant applicants, in partnership with industry, the workforce 
investment system, and the continuum of education providers, including 
K-12, can submit applications to meet local workforce challenges like 
the shortage of substance abuse workers under the formal Solicitation 
for Grant Applications.

                        JOB CORPS MANAGEMENT FEE

    Question. The Workforce Investment Act provides for a management 
fee of not less that 1 percent for each Job Corps operator and service 
provider. How much is budgeted for such fees for program year (PY) 2006 
compared to 2005? What is the process for determining management fees, 
and what is the range of percentages currently being provided?
    Answer. We estimate that management fees in Job Corps will cost 
about $44.1 million in PY 2006, which is a very slight increase above 
the PY 2005 estimate of $43.9 million. As a percentage of the 
expenditures under contracts in which management fees are included, 
such fees represent roughly 4 percent of the costs. In the framework of 
total Job Corps operating expenditures, fee payments represent only 3 
percent of costs.
    The fee amounts in individual contracts are determined during the 
procurement process. The greatest share of Job Corps contracts, in 
terms of dollar expenditures, contains performance-based fees. The fees 
in these contracts are structured so that the contractors are 
guaranteed a fee payment of 3.6 percent and then can earn as much as 
2.4 percent above that based on objectively determined performance 
excellence. These types of performance-based fees are used in our 
center operating contracts and contracts for post-center career 
transition services.

                         PROGRAM ADMINISTRATION

    Question. Your budget justification material states that 
consolidated job training programs will save $300 million in 
administrative costs, yet you are not proposing any reduction in 
Federal staffing. Please explain.
    Answer. The $300 million in administrative costs savings created by 
consolidating job training programs relates to savings realized at the 
State and local levels, not at the Federal staffing level. Savings 
realized by States and local areas will enable them to increase 
training enrollments and provide improved services to their 
participants.
    The Program Administration account was reduced by $842,000 to 
reflect program efficiencies created by the consolidation. The 
reduction in FTE associated with these efficiencies was offset by the 
anticipated need for FTE to administer the new H-1B job training grant 
program and the YouthBuild program, which is proposed for transfer from 
the Department of Housing and Urban Development, resulting in an equal 
need for FTE staffing in 2006. If the job training grant consolidation 
were enacted, we would expect further long-term Federal administrative 
savings would be possible.

                        COMMUNITY COLLEGE GRANTS

    Question. According to GAO, the Labor Department plans to obligate 
only $13 million of the $250 million requested for the Community 
College Initiative during fiscal year 2006, because unobligated funds 
from fiscal year 2005 can be used for most of its expected needs 
through September 30, 2006. Even though the funds are available for the 
program which extends through June 2007, how do you justify the need 
for the full $250 million during this funding cycle?
    Answer. The Department of Labor has provided GAO with information 
on the allocation of funds for this program pursuant to the 
Congressional appropriation process that is utilized for the 
Department's ``forward funded'' programs. The $248 million appropriated 
in fiscal year 2005 for the Community College Initiative are program 
year funds and accordingly, none of the funds are available for Federal 
obligation until July 1, 2005, with a large portion of the funds only 
becoming available for obligation on October 1, 2005. In preparation to 
utilize fully these resources during the period of obligational 
authority, the Department is publishing two solicitations for grant 
applications--one in April 2005 and the second later during the 2005 
calendar year. Each of these competitive solicitations will be for $124 
million. The purpose of these solicitations is to promote the 
development of strategic partnerships between business and industry and 
community colleges, and to train workers for the industries creating 
the most new jobs.
    Businesses in high-growth, high demand industries face increased 
difficulty in finding workers with the skills they need as a result of 
globalization, the aging of America's workforce, and the fact that 
technology and innovation are continuously changing the nature of work. 
As a result, community colleges will be increasingly critical providers 
for workers needing to develop, retool, refine, and broaden their 
skills. The initial investment of $248 million will be an important 
first investment and allow community colleges to train at least 100,000 
workers. The fiscal year 2006 Budget proposes another $250 million to 
continue this important new initiative and train at least another 
100,000 workers.
    One of the purposes of these resources is to build the capacity of 
community colleges to train workers. The accelerated pace of innovation 
and technology continuously require new sets of skills in the 
workplace, calling for a continued focus on capacity building. We must 
continue to support community colleges in their effort to ensure that 
workers have and maintain the skills they need to be competitive in a 
21st century innovation economy.

                    ONE-STOP SYSTEM ELECTRONIC TOOLS

    Question. Page ETA-12 of your Budget Justification Material lists a 
request of $48,294,000 for ``One-Stop System Electronic Tools.''
    What exactly is being funded with this request, and how does it 
compare to the fiscal year 2005 funding level?
    Answer. Although there appears to be a significant decrease in this 
line item in the fiscal year 2006 request as compared to the fiscal 
year 2005 enacted level ($48,294,000 compared to $97,974,000), the 
actual decrease is approximately $10 million. Funding for this line 
item reflects the movement of the $39,690,000 in funding to States for 
workforce information activities (Core Products & Services and LMI 
Research & Development) formerly housed in this budget line item into 
the WIA Plus State Consolidated Grants.
    This line item has traditionally been utilized to support national 
electronic tools such as America's Job Bank, America's Career 
Information Network, America's Service Locator, and the Occupational 
Information Network (O*NET). These electronic tools help in the 
preparation of a competitive workforce to keep the United States viable 
in the global economy and support the President's Temporary Worker 
Program. In addition, other funds in this line item were targeted to 
system building activities designed to enhance the delivery of services 
through the nation's One-Stop Career Centers and to provide national 
infrastructure for performance accountability. The approximately $10 
million reduction in the 2006 request is in the system building 
activities.
    DOL has been actively evaluating this line item to ensure that it 
provides the critical workforce information products and tools 
necessary to support the workforce investment system and the 
President's Temporary Worker Program. We have also been actively 
identifying mechanisms to control the costs for the current tools. This 
has resulted in strategic changes to the suite of tools that are 
supported. For example, DOL now supports a new Web site--Career Voyages 
(www.careervoyages.gov)--that is designed to provide young adults and 
transitioning workers with a career exploration tool for careers in 
high growth, high demand industries. We have also developed a new Web 
space to promote the transformation to a demand-driven workforce 
investment system called Workforce One (www.workforce3one.org) where we 
feature new and innovative approaches to workforce development. We are 
currently in the process of developing a clearinghouse for industry 
developed competency models and skills standards.
    Below is a brief description of each of the current electronic 
tools supported by this line item:
  --The CareerOneStop (COS) Electronic Tools--a suite of Internet-based 
        tools that consists of:
    --America's Job Bank.--An electronic job board where businesses can 
            search for candidates and post job listings and job seekers 
            can search for jobs and post their resumes;
    --America's CareerInfoNet.--A site that provides access to 
            occupational projections and other workforce information 
            for career exploration;
    --America's Service Locator.--A site that provides location 
            information for One-Stop Career Centers and other workforce 
            services;
    --CareerOneStop Portal.--The home page that provides a central 
            access point to all the content of the COS sites, by topic 
            and customer group;
    --Workforce Tools of the Trade.--A Web site designed to support the 
            professional growth of workforce investment professionals 
            that help business and citizens meet their workforce needs;
    --On-Line Coach.--A tool that is integrated into the COS to help 
            individuals not as familiar with the COS sites to navigate 
            through the numerous resources available based on common 
            issues or problems they may be facing--the tool then walks 
            them step-by-step through the appropriate resources; and
    --Toll Free Help Line.--The TFHL (1-877-US2-JOBS) provides 
            telephone access to job seekers and businesses on a wide-
            range of workforce issues.
  --Occupational Information Network (O*NET).--An occupational 
        classification system that provides detailed information on 
        occupational characteristics and skill requirements and serves 
        as the common occupational language for the COS as well as the 
        workforce investment system as a whole.

                          LEGISLATIVE SAVINGS

    Question. The Administration is proposing legislation to save both 
unemployment compensation and workers' compensation funds. Provide an 
estimate of savings from each component of these proposals for each 
year, from fiscal year 2006 through 2015 (10 years). Provide the 
legislative text for these proposals.

ETA's Response
    Answer. The unemployment insurance (UI) integrity proposal is made 
up of five amendments. Amendment 1 would allow States to use up to 5 
percent of recovered overpayments for benefit payment control. 
Amendment 2 would allow States to permit collection agencies to keep up 
to 25 percent of recovered overpayments and delinquent taxes. Amendment 
3 would require a minimum 15 percent penalty on fraud overpayments, to 
be used for benefit payment control. Amendment 4 would prohibit non-
charging benefits when an overpayment is the employer's fault. 
Amendment 5 would allow intercept of Federal income tax refunds for 
recovery of overpayments. The savings breakdown, in millions of 
dollars, for this proposal is as follows:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                    2006   2007   2008   2009   2010   2011   2012   2013   2014   2015  2006-15
----------------------------------------------------------------------------------------------------------------
Amendment 1......................  .....     12     23     24     25     26     28     29     30     32      229
Amendment 2......................  .....      4      9      9     10      9     10     11     12     13       87
Amendment 3......................  .....     39     80     84     88     93     97    101    105    111      798
Amendment 4......................  .....     10     22     24     25     26     28     29     31     32      227
Amendment 5......................    281    282    284    288    288    302    317    331    347    362    3,082
                                  ------------------------------------------------------------------------------
      Total Proposal.............    281    347    418    429    436    456    480    501    525    550    4,423
----------------------------------------------------------------------------------------------------------------

    These are our best estimates of the savings and delinquent tax 
collections which would result from this proposal. However, of the 
total 10-year savings, only $3.082 billion is scorable under CBO and 
OMB scoring rules. We also estimate that the proposal would produce tax 
reductions of $2.856 billion over 10 years.
    Draft legislation for these proposals was sent to Congress in June.
ESA's Response
    Answer. The 2006 Budget includes two reform proposals affecting 
Federal workers' compensation programs: Federal Employees' Compensation 
Act (FECA) reform, and Black Lung Disability Trust Fund debt 
restructuring.
    FECA Reform.--The Budget proposes to reform FECA to improve program 
fairness, speed claims processing, adopt best practices of State 
workers' compensation programs, and implement recommendations of DOL's 
Inspector General. Attached is a spreadsheet that shows the FECA Reform 
savings by provision and fiscal year. Legislation is expected to be 
transmitted to Congress this fall.
    Black Lung Trust Fund Debt Restructuring.--The proposed legislation 
seeks to restore solvency to the Black Lung Disability Trust Fund, 
which currently has a $9 billion debt to Treasury. The Administration's 
legislative proposal would: (1) refinance the debt to take advantage of 
current, low interest rates; (2) extend until the debt is repaid the 
Fund's excise tax levels, which are set to revert to lower levels in 
January 2014; and (3) upon enactment of the bill, provide a one-time 
appropriation for a payment to the U.S. Treasury to cover the forgone 
interest payments. Because this is an intragovernmental transfer, there 
is no net government-wide budgetary effect until the 2014 (when the 
current excise tax rates are extended). The following chart provides 
the year-by-year estimates:

------------------------------------------------------------------------
                                                                 Excise
                                           Approp    Advances     tax
                                                                 effect
------------------------------------------------------------------------
2006...................................     $3,808     ($452)  .........
2007...................................  .........      (443)  .........
2008...................................  .........      (433)  .........
2009...................................  .........      (429)  .........
2010...................................  .........      (430)  .........
2011...................................  .........      (433)  .........
2012...................................  .........      (434)  .........
2013...................................  .........      (436)  .........
2014...................................  .........      (700)       $261
2015...................................  .........      (833)        378
------------------------------------------------------------------------

    Legislation is expected to be transmitted to Congress this fall.
    For FECA Reform:
    The following chart provides the year-by-year estimates for each 
provision:

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                             Concurrent
                                                                                  Three-day                      Survivor     schedule     Subrogation   Increase     Increase      Net savings
                                                                 Conversion        waiting        Eliminate     cap at  70    award and    rights for     burial      maximum       to special
                                                                  benefit          period       augmentation     percent     disability   COP (savings   benefit   disfigurement       fund/
                                                                                                                            compensation    to Gov't)                   award       Government
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2006........................................................  ...............    ($4,909,020)   ($12,015,616)   ($106,496)  ............  ($1,903,104)   $640,000     $345,000     ($17,949,236)
2007........................................................     ($1,548,747)     (5,026,836)    (31,803,310)    (305,136)   $2,385,956    (1,948,778)    640,000      345,000      (37,261,852)
2008........................................................      (4,546,223)     (5,147,480)    (39,920,647)    (492,847)    4,759,088    (1,995,549)    640,000      345,000      (46,358,659)
2009........................................................      (7,431,599)     (5,271,020)    (48,033,265)    (671,802)    7,255,545    (2,043,442)    640,000      345,000      (55,210,584)
2010........................................................     (10,260,326)     (5,397,524)    (56,146,377)    (841,047)    7,429,678    (2,092,485)    640,000      345,000      (66,323,082)
2011........................................................     (13,085,659)     (5,527,065)    (64,263,845)  (1,003,042)    7,607,990    (2,142,705)    640,000      345,000      (77,429,325)
2012........................................................     (15,908,472)     (5,659,715)    (72,392,698)  (1,156,980)    7,790,582    (2,194,130)    640,000      345,000      (88,536,412)
2013........................................................     (18,731,097)     (5,795,548)    (80,537,429)  (1,304,431)    7,977,556    (2,246,789)    640,000      345,000      (99,652,738)
2014........................................................     (21,553,774)     (5,934,641)    (88,703,356)  (1,447,152)    8,169,017    (2,300,712)    640,000      345,000     (110,785,617)
2015........................................................     (24,380,724)     (6,077,072)    (96,895,409)  (1,583,296)    8,365,073    (2,355,929)    640,000      345,000     (121,942,356)
                                                             -----------------------------------------------------------------------------------------------------------------------------------
      Ten-year Total........................................    (117,446,620)    (54,745,922)   (590,711,951)  (8,912,228)   61,740,483   (21,223,622)  6,400,000    3,450,000     (721,449,860)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                OSHA RESOURCES TARGET ERGONOMIC HAZARDS

    Question. What level of funding has been targeted for worker 
protection from ergonomic hazards for fiscal year 2006 budget request?
    Answer. The resources utilized to address ergonomics in the fiscal 
year 2006 budget request are contained within all of OSHA's budget 
activities and are not separately identified or earmarked to address 
ergonomics or any other specific issue.
    Question. For what activities has funding been requested?
    Answer. OSHA's approach to ergonomics involves focused activity by 
the entire agency in addressing the four prongs of the ergonomics 
policy: industry specific and task-specific guidelines, strong 
enforcement, outreach and assistance, and research.
    Question. How many FTEs have been assigned to work on ergonomics?
    Answer. The agency has not specifically identified the number of 
staff working on ergonomics. The staff necessary to address ergonomic 
concerns is available as needed within the ongoing enforcement, 
outreach, and regulatory activities of the agency.
    Question. How many ergonomists does OSHA employ and what are their 
responsibilities?
    Answer. Although there is no formal Federal job classification 
titled ``ergonomist,'' OSHA currently employ four Certified 
Professional Ergonomists (CPE), one Certified Industrial Ergonomist, 
and one Industrial Engineer whose education and experience is Human 
Factors Engineering. Of these six, two are employed in two different 
Regional Offices and provide enforcement oversight; one works at our 
Salt Lake Technical Center; one works in the National Office on 
guidelines; one is a training and curriculum developer; and one is a 
Compliance Assistance Specialist whose job is to provide assistance on 
a broad range of safety and health topics. All of these positions 
include providing training and assistance to compliance staff and 
outreach and assistance to the regulated community.
    Question. How many enforcement actions has OSHA taken pertaining to 
ergonomic hazards during fiscal year 2004 and fiscal year 2005 to date?
    Answer. OSHA assessed ergonomic conditions in 707 inspections 
opened in fiscal year 2004. Of these 707 inspections, 108 were 
conducted under Regional or Local Emphasis Programs which focus 
inspection resources on industries in which high rates of 
musculoskeletal disorders are known to occur.
    As of March 31, 2005, OSHA has assessed ergonomic conditions in 151 
inspections conducted in fiscal year 2005. Of these, 41 were conducted 
under a Regional or Local Emphasis Program with a focus on evaluating 
musculoskeletal disorders.
    Question. Specifically, how many hazard warning letters have been 
issued on ergonomic hazards, and how many general duty clause 5(a)(1) 
citations have been issued, and the date of their issuance?
    Answer. Since the beginning of the Secretary's four-pronged 
approach to ergonomics in April 2002 through April 2005, OSHA has 
issued 380 ergonomic hazard alert letters. Many ergonomic inspections 
are still ongoing in fiscal year 2005; however, for those that have 
been concluded we have issued 26 ergonomics-related Hazard Alert 
Letters (EHALs). In fiscal year 2004, we issued 107 ergonomic hazard 
alert letters. Each EHAL recommends ways to reduce ergonomic hazards, 
and indicates that OSHA may conduct a follow-up inspection to assess 
the extent to which the employer has taken such action.
    OSHA issued a total of 11 general duty clause citations between 
February 2003 and August 2003, and five citations were issued between 
November 2003 and August 2004.
    Question. How many inspections on ergonomic hazards does OSHA plan 
in fiscal year 2004 and fiscal year 2005?
    Answer. In general, OSHA does not have a pre-determined number of 
inspections under which we target ergonomics. In fiscal year 2004, OSHA 
assessed ergonomic conditions in 707 inspections. For fiscal year 2005, 
we estimate that our compliance staff will evaluate approximately 850 
worksites for ergonomic issues.
    Question. What ergonomic guidelines have OSHA issued to date, and 
what is planned through fiscal year 2006?
    Answer. OSHA has issued ergonomics guidelines on nursing homes, 
retail grocery stores and poultry processing. A draft of the shipyard 
guidelines will be released for public comment shortly. The agency 
plans to finalize the shipyards document after considering the public 
comments. No decisions have been made regarding additional OSHA 
guidelines.

                   FAITH BASED COMMUNITY INITIATIVES

    Question. You are requesting a $2,100,000 increase for a ``Faith 
Based and Community Initiatives,'' for a total of $37,432,000 (pg. DM-
12). What distinguishes these projects from faith-based initiatives of 
the Employment and Training Administration?
    Answer. The total you refer to is for the entire Program Direction 
and Support budget activity in the Departmental Management 
appropriation. This activity includes funding for the Office of the 
Secretary as well as other Departmental policy organizations such as 
the Center for Faith-Based and Community Initiatives. For fiscal year 
2005, approximately $600,000 of the $26,618,000 appropriated for this 
budget activity is used to fund the Center for Faith-Based and 
Community Initiative. This amount does not even fully cover the 
administrative needs for a staff of seven. Thus the entire amount in 
fiscal year 2005 is used to pay for the staff to implement the 
President's Faith-Based and Community Initiative.
    The Center for Faith-Based and Community Initiatives does not have 
a program budget. The Center works with the Employment and Training 
Administration and other DOL grant-making agencies to improve funding 
opportunities for grassroots faith-based and community organizations. 
This includes implementing new pilot and demonstration programs as well 
as assisting agencies in simplifying grant application and reporting 
procedures.
    DOL's request of $2,100,000 in fiscal year 2006 will be used for 
State and local implementation of the Initiative by providing technical 
assistance to State and local workforce development entities 
undertaking projects that integrate faith-based and community 
organizations in workforce development service delivery.
    Question. How much do you expect will be available for new starts 
and how many new projects in fiscal 2006?
    Answer. Of the amount requested, one third of the funds will be 
used to provide the administrative costs of employing staff. The 
remaining two thirds of the requested increase will be used to provide 
technical assistance to fiscal year 2005 and fiscal year 2006 grantees. 
This funding will be used to ensure the success of ongoing projects.
    New fiscal year 2006 grants will be funded from appropriations 
provided to the Employment and Training Administration for program 
purposes. The Center for Faith-Based and Community Initiatives is 
working with the Employment and Training Administration to determine 
the level of funding to be allocated for this purpose and the number of 
new grantees that these funds will allow.

                        MSHA COST DUST MONITORS

    Question. What is the status of the Personal Dust Monitor being 
tested by the Mine Safety and Health Administration?
    Answer. MSHA is currently participating in a collaborative study 
with the National Institute for Occupational Safety and Health (NIOSH) 
to examine the long-term mechanical, electrical, accuracy, and 
precision performance of the PDM in a variety of underground coal mine 
environments. As of May 26, 2005 MSHA and NIOSH completed all of the 10 
detailed in-mine studies. For the special area sampling portion of the 
study, 47 of the 180 mechanized mining units remain to be sampled. MSHA 
expects the study will be complete by August 2005 and that NIOSH will 
issue a report by October 2005.
    Question. Do you expect to issue new mine safety enforcement 
regulations as the result of this new technology being utilized?
    Answer. On June 24, 2003, MSHA issued a News Release announcing its 
intention to suspend all work in the finalization of the proposed 
Single Sample (SS) and Plan Verification (PV) rules and to pursue 
accelerated research on the PDM. MSHA also declared its commitment to 
``move forward in a new and positive direction with a final rule'' that 
incorporates new requirements for monitoring dust exposures that 
reduces miners' risk of black lung disease'' upon successful completion 
of in-mine performance verification testing of the PDM units. The 
Department will review the various options, including rulemaking, for 
the eventual application of this novel monitoring technology in our 
Nation's coal mines.

                          OVERTIME REGULATIONS

    Question. You are not asking for any increase in staffing for 
enforcement of Wage and Hour Standards, despite the major overhaul in 
overtime regulations that went into effect August 23, 2004. What is the 
Department doing to enforce compliance with the new overtime 
regulations?
    Answer. The final rule went into effect on August 23, 2004. Since 
the final rules were published in April 2004, ESA staff has 
participated in over 630 compliance assistance seminars reaching some 
63,000 employers, employees and others. ESA also launched the new 
FairPay web site, which provides online training seminars, model salary 
basis policy, numerous fact sheets and frequently asked questions. 
Recently, the agency has updated its interactive on-line elaws advisor 
to include the new overtime rule. The advisor averages 35,000 users a 
month.
    ESA's ongoing Overtime Security Task Force initiative involves 162 
targeted investigations of employers with low-salaried employees. The 
initiative was designed to secure overtime protections for the 1.3 
million salaried workers who are now entitled to overtime because of 
the salary increase. Five planned regional employer forums have already 
been conducted in connection with this initiative.
    Question. What has been the experience to date with complaints and 
litigation?
    Answer. Contrary to the dire predictions of some, the new rule has 
proved to be a catalyst for compliance. Media reports from around the 
country confirm that as employers have reviewed how they classify 
employees, many workers who should have been paid overtime under the 
old rules have gained overtime protection for the first time, in 
addition to the many workers who have gained overtime protection as a 
result of the higher salary level test. The new overtime security rules 
have put in place much needed overtime protections for millions of 
workers, especially lower-wage workers.
    For example, a Wall Street Journal article published April 18, 
2005, notes that more workers gained overtime protections than lost 
them under the new rules, citing recent surveys and consultations with 
employers to suggest that few employers reclassified any employees as 
exempt from overtime while many more employers gave overtime protection 
to some workers who did not have it before.
    The few Federal courts that have considered the new rules have 
concluded that the duties tests are essentially the same as under the 
old rules and that the outcome of the cases would be the same as under 
the old rules.

            CIVIL MONETARY PENALITIES FOR VIOLATIONS OF FLSA

    Question. You are proposing legislation to increase penalties for 
violations of child labor and health and safety laws. How many 
additional resources do you estimate would be collected in fiscal year 
2006 from these higher penalties?
    Answer. The proposal, which would increase civil monetary penalties 
for violations of the Fair Labor Standards Act's youth employment 
provisions that result in the death or serious injury of a young 
worker, would provide ESA with stronger deterrents and more effective 
penalties to address the most serious of the youth employment 
violations.
    The Department estimates it would receive no additional resources 
as a result of the increase in child labor civil monetary penalties. 
The proposal specifies that civil monetary penalties collected for 
youth employment violations are to be deposited in the general fund of 
the Treasury, as they are currently. The funds are not now, and will 
not be, returned to the Department as means to augment its enforcement 
efforts.

                  ASSOCIATION HEALTH PLAN LEGISLATION

    Question. Is the Labor Department's fiscal year 2005 budget 
sufficient to effectively administer Association Health Plan (AHP) 
legislation, or would additional resources be necessary?
    Answer. The Department's fiscal year 2005 budget that has already 
been enacted does not include resources specifically allocated for AHP 
administration. This is due to the fact that the legislation has not 
been finalized, and we do not know the extent of the Department's 
jurisdiction, authority, or workload.
    The Department will make determinations about any additional 
funding and staff requirements when the legislation becomes law.

                      H-1B SKILLS TRAINING GRANTS

    Question. Madame Secretary, while the Department of Labor's budget 
request identifies a number of proposed competitive grant programs, 
such as Prisoner Re-Entry and Community College/Community-based 
Training grant programs. The Department's fiscal year 2006 budget 
request does not identify the H-1B skills training program, which is 
financed through employer paid H-1B fees, as one of those competitive 
grant programs.
    With roughly $125 million available in fiscal year 2006 for these 
H-1B skills training grants, can I have your assurance that these 
grants will continue to be awarded on a competitive basis, as they have 
been in previous iterations of the H-1B grant program, and coordinated 
through the workforce investment boards?
    Answer. The implementation plan for the new H-1B job training grant 
program is currently under development. As you know, the new grant 
program and the fees on employers submitting H-1B applications that 
will be the source of funding for the grants were authorized by 
amendments to the Immigration and Nationality Act that were contained 
in the fiscal year 2005 Consolidated Appropriations Act enacted last 
December. ETA anticipates that the vast majority of investments of new 
H-1B job training grants will be awarded on a competitive basis. The 
competitive investments will be strategic partnerships that develop 
solutions-based approaches to workforce challenges identified by 
industry. ETA will look to fund mature partnerships between the 
workforce investment system, education, and employers to implement 
activities, including job training. These services and activities are 
designed to prepare workers, unemployed and employed, to take advantage 
of new and increasing job opportunities in high-growth/high-demand and 
economically vital industries and sectors in the American economy.

                                OVERHEAD

    Question. Madame Secretary, the President's budget request states 
that the President's job training reforms would increase the number of 
workers trained in large part by eliminating unnecessary overhead. The 
fiscal year 2006 budget builds on the President's April 2004 proposal 
for job training reform that sought to ``double the number of workers 
trained.'' Please define precisely what the Department means when it 
uses the term ``overhead''.
    Answer. Part of the problem lies in the lack of an appropriate 
statutory definition in WIA of overhead or administrative costs. As a 
result, too many WIA dollars are spent on overhead and non-training 
services, such as management studies, travel, and other infrastructure 
costs. In Program Year 2003, the largest share, or 30 percent of WIA 
funds, was spent on ``Infrastructure.'' Nineteen percent of funds were 
spent on employment placement activities while 23 percent was spent on 
core and intensive services and 28 percent was spent on training. Many 
of the infrastructure activities are necessary and appropriate, but it 
is difficult to justify spending more WIA funds on infrastructure 
activities than on training.
    Part of the solution is to more accurately define administrative 
costs. Through WIA reauthorization, the Administration proposes to 
specifically define administrative costs, while emphasizing the 
relative importance of training. The new definition would clarify that 
administrative cost limits apply to subrecipients and vendors just as 
they do to primary grant recipients.
    More broadly, the consolidation of four separate programs proposed 
by the Administration will reduce overhead costs by eliminating 
duplication in the provision of services, taking advantage of gains in 
economies of scale, and promoting a more effective and efficient use of 
Federal dollars. Continuation of the four programs--the WIA Adult 
program, the WIA Dislocated Worker program, the WIA Youth program, and 
the Wagner-Peyser Employment Service program--promotes ``silos'' of 
duplicative government systems providing identical services such as job 
search assistance and career counseling. By continuing duplicative 
service delivery systems, taxpayers pay more for administrative costs, 
overhead, and government bureaucracy, and receive fewer services. 
Furthermore, States that opt for WIA Plus State Consolidated Grants 
will be able to eliminate even more duplication.

                    NATIONAL FARMWORKER JOBS PROGRAM

    Question. Madame Secretary, the Department has once again proposed 
to eliminate the Migrant and Seasonal Farmworker Program, rating it 
``ineffective'' in an Office of Management and Budget PART assessment. 
The OMB materials go on to note the program's poor performance 
accountability. However, the Department's own budget materials indicate 
that the Program Year 2003 goal was achieved--84 percent of program 
participants were employed at program exit; 80 percent were still 
employed 6 months after initial entry into unsubsidized employment and 
average earnings gains for those employed was over $4,300. Importantly, 
84 percent of farmworkers who participated in education or training 
under the program received an education or occupational credential or 
certificate, enhancing their ability to compete for better jobs.
    Answer. The performance results for the National Farmworkers Jobs 
Program (NFJP) appear high, but these performance levels only reflect 
how successful the program is for those participants who receive 
employment and training services. The majority of the approximately 
20,000 farmworkers served through the NFJP--about two out of three--
receives related assistance services only (such as emergency 
assistance, transportation or child care) and do not receive any 
employment and training services. Therefore, NFJP is providing 
employment and training services to a very small proportion of the 
estimated 2 to 3 million farmworkers, and it is difficult to justify 
the program's overall impact on improving the economic opportunities of 
farmworkers.
    In addition, the PART review found that the NFJP was duplicative of 
other programs and services available through the WIA Title I programs 
and that farmworkers would be served better by accessing those services 
through the One-Stop system. Many NFJP grantees are already partners in 
the One-Stop delivery system at the State level. Yet, many localities 
rely on NFJP grantees almost exclusively to serve farmworkers outside 
the better-suited One-Stop delivery system.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin

                           ODEP MOU WITH SBA

    Question. I was very pleased to see that the Department of Labor 
(DOL) recently signed a Memorandum of Understanding (MOU) with the 
Small Business Administration on the development of programs and 
policies to encourage self-employment for people with disabilities. 
Unfortunately, no DOL funds have yet been committed to this MOU, and 
the 2006 budget proposes to drastically reduce funding for the Office 
of the Disability Employment Policy (ODEP). Part of this proposed 
savings is to come from the elimination of $16 million worth of grants 
to enhance employment opportunities for Americans with disabilities. 
Please provide a list of the $16 million worth of grants and a 
justification for why you believe they have outlived their usefulness. 
In addition, I'd like to know how much of the proposed million in the 
budget will be allocated toward programs associated with this MOU.
    Answer. In fiscal year 2006, ODEP will continue, with the Small 
Business Administration (SBA), to implement the Memorandum of 
Understanding through the allocation of staff resources (Full Time 
Equivalents) in order to develop specific activities related to Small 
Business Development. This includes providing information, technical 
assistance, and policy guidance to the workforce development and small 
business development systems, to increase participation of people with 
disabilities in entrepreneurship training, financing, accessing needed 
capital, and increasing capital for individuals with disabilities who 
desire to start their own businesses. ODEP is working with SBA, DOL 
agencies, and business associations to develop the capacity of small 
businesses to recruit, hire, retain, and promote people with 
disabilities by documenting and disseminating effective practices to 
the small business community.
    In addition, the fiscal year 2006 Budget will enable ODEP to 
continue its core mission of policy analysis, technical assistance and 
dissemination of effective practices to increase the employment 
opportunities for people with disabilities. ODEP plans to refocus its 
research emphasis from a reliance on using externally-grant funded 
public and private organizations, to a stronger internal emphasis on 
policy development, analysis, and dissemination.

               NATIONAL AGRICULTURAL WORKERS STUDY (NAWS)

    Question. The President's budget for 2006 proposes a $13 million 
increase in the Bureau of Labor Statistics and yet a stop work order 
went out in January on the $2 million National Agricultural Workers 
Study (NAWS). This study determines the distribution of more than $1.3 
billion in government spending. Departmental statements in the past 
have been that the study was cancelled in an effort to get other 
Federal agencies to fund the contract. Can you provide a record of DOL 
attempts to ask other agencies to fund the contract prior to 
terminating it? What is the status of the contract right now? Have 
other agencies stepped forward and if not, what are DOL plans with 
respect to this study?
    Answer. Let me begin by clarifying that the Department of Labor has 
not cancelled the NAWS. The Department and this Administration 
recognize that, although the wages, income, and working conditions for 
migrant and seasonal farm workers have improved in recent years, these 
important workers face unique challenges as they continue contributing 
to the success of the agricultural industry.
    As part of the Department's ongoing effort to improve programs that 
benefit both workers and employers, we have been consulting with other 
Federal agencies that use the data collected by the NAWS to determine 
the most suitable host agency for this survey. The Department issued a 
partial stop-work order to the NAWS contractor on January 12, 2005, but 
that stop-work order has been lifted and the NAWS contractor is again 
collecting data and will continue to do so periodically in the future. 
During the stop-work order, the contractor was instructed to cease 
survey work but to continue three NAWS-related task orders, one each 
for the Department's Employment and Training Administration (ETA), the 
Environmental Protection Agency (EPA), and the Centers for Disease 
Control and Prevention, National Institute for Occupational Safety and 
Health (CDC NIOSH). Under these task orders, the contractor is 
analyzing data, writing reports, testing new questions, and providing 
special data sets.
    The Department continues to evaluate survey options for the future. 
We recently produced the ninth NAWS Report, which is based on 
information collected in fiscal years 2001-2002. We are in the process 
of analyzing NAWS data from fiscal years 2003-2004, which will be 
presented in a future report.

                SANITARY FACILITIES AND FEMALE EDUCATION

    Question. Madam Secretary, research has repeatedly shown that the 
health and survival of children improve in direct proportion to the 
mother's level of education. The education of girls leads to major 
benefits: higher incomes and smaller families for the girls themselves 
and more productive economies in the countries that support the 
education of girls. Despite these statistics, UNICEF has found that 
girls represent 70 percent of children ages 6-11 who are not attending 
school worldwide. There are many reasons for this but one simple 
intervention is making a big difference--girls are more likely to be 
kept out of school if there are no sanitation facilities. When we put 
girls' bathrooms in schools, parents are more likely to send their 
daughters to school rather than to work.
    This is why grants have been made from the Basic Education program 
in the International Labor Affairs Bureau to organizations that build 
girls bathrooms in schools, primarily in Africa. However, I have 
recently become aware of reports that the Department of Labor is 
warning these organizations that for some administrative reason, they 
cannot leave the toilets in the school after the grants have expired.
    If this is true, it is just ridiculous. The whole purpose of the 
funding was to put the bathrooms in the schools so that generations of 
girls would get educated and improve their families and their 
countries--why would we spend additional dollars to take them out after 
3 years or 5 years, or whatever the length of the grant?
    If the Department is indeed requiring the organizations to remove 
the equipment, can you please provide the rationale behind this 
requirement to the committee along with your plan for how you intend to 
fix this situation?
    Answer. The Department of Labor (DOL) believes that projects which 
expand access to quality educational opportunities are a vital tool in 
combating child labor. Moreover, we strongly agree that the 
construction of latrines and other sanitary facilities as part of such 
projects is an effective means of encouraging parents to send their 
children, especially girls, to school, rather than to work in often 
exploitive forms of labor. To date, DOL has not directed any grantee to 
remove latrines from schools, and it is not our intention or desire to 
do so. However, Federal grant regulations governing the acquisition and 
use of items of property may require the removal of these sanitary 
facilities upon the conclusion of the grant, in such cases we are 
obligated to advise the Bureau of International Labor Affairs (ILAB) 
grantees of their responsibilities regarding property acquired with 
Federal grant funds.
    You can be confident that the Department will work very closely 
with its grantees to assist them in retaining any sanitary facilities 
even after direct grant funding ends, by encouraging them to continue 
to use the property to support the grant's goals of improving 
educational opportunities and decreasing exploitive child labor. We 
believe that such uses of the property will allow indefinite retention 
of the sanitary facilities under the Federal grant regulations, and we 
are committed to ensuring the sustainability of these critical 
projects. Given the nature and value of latrines being funded by ILAB, 
we believe Federal property regulations would require removal of the 
facilities or compensation to the United States for the facilities' 
value only in the rare circumstance that the educational project closes 
down, or the project seeks to sell or dispose of the facilities.

                       NATIONAL EMERGENCY GRANTS

    Question. Secretary Chao, at your last appearance before us, you 
and I spoke about the National Emergency Grant program. I am very 
concerned that this remains a problem. A majority of States in a recent 
GAO report stated that they had to delay or deny services to workers as 
a direct result of the backlog in NEG applications at the Department of 
Labor. Is it as a direct result of the backlog in NEG applications at 
the Department of Labor? Is it true that your Department now plans to 
stop counting the number of days elapsed if there is a problem with an 
application? If so, will that include routine clerical errors or must 
there be a significant lack of information for the application to stop 
being counted?
    Answer. The Department of Labor is committed to reviewing National 
Emergency Grant (NEG) applications as quickly as possible, and we have 
made significant progress in resolving any backlog. When the issue was 
raised initially, we imposed a goal on ourselves of making award 
decisions within 30 working days of receiving a completed application. 
Further, we have taken steps to simplify and automate the application 
process through an electronic application system. The GAO study you 
refer to was based on data from a couple of years ago, prior to these 
actions.
    Phase 1 of the e-application system was operational on July 1, 
2004. We are already enhancing this system for State use with a Phase 2 
system that will be fully implemented on July 1, 2005. Preliminary 
testing of Phase 2 with State users received a uniformly positive 
reception. Additional design enhancements will be developed and 
implemented next year.
    The new NEG e-application system ensures that all necessary 
information is provided and eliminates the possibility that 
applications could be rejected purely for clerical errors.
    Since the introduction of the e-application system, the Department 
has seen a reduction in the amount of time required for review and 
approval of NEG applications, and we expect to improve upon this 
response time in the future. We have been within our self-imposed 
timeframe of 30 working days. Further, we will continue to track the 
application award period. States have not been complaining about NEG 
timeliness in the past year due to our proactive reform of the program.
    Finally, the Department believes that States and localities have 
sufficient funds to initiate services to workers who may subsequently 
be served under a National Emergency Grant. Services should not be 
denied or delayed while awaiting a decision on a NEG award. States 
carried in almost $550 million in unexpended Dislocated Worker formula 
funds--roughly two times the amount available for NEGs.

                   NATIONAL LABOR MARKET INFORMATION

    Question. The National Labor Market Information programs provide 
State-by-State information on employment, unemployment, earnings, 
occupational information, skills trends by industry, worker 
displacement, and job openings. Policy makers, including those of us in 
Congress, utilize this information to make decisions on allocation of 
Federal funds, program planning and evaluation as well as labor market 
dynamics. Why does the President's budget propose to eliminate the 
national labor market information programs? What measures will you put 
in place to ensure that State information is reported in a consistent, 
timely, and accurate manner?
    Answer. It is important to clarify that the funding for workforce 
and labor market information within DOL occurs in two different 
agencies. The Bureau of Labor Statistics (BLS) funds States to collect 
a wide array of information, including the information mentioned in the 
question. That information is available on a State by State basis and 
is also used as the foundation for national labor market statistics.
    The Employment and Training Administration (ETA) provides funding 
to States to develop workforce information as a service to businesses 
and job seekers. The data and statistical information that States 
collect on behalf of BLS is an important foundation for the workforce 
information funded by ETA. However, supplemental workforce information 
may come from many other sources including census data, State economic 
development data, educational data, data collected by industry trade 
associations, and information received from direct contact with the 
business community. The goal of ETA's investments is to transform these 
BLS and supplemental data sources into workforce intelligence through 
analysis and the development of user-friendly tools and products.
    The U.S. Department of Labor fiscal year 2006 budget proposal for 
ETA does not eliminate the national labor market information programs. 
As part of the proposed WIA Plus State Consolidated Grants, 
$39,680,000, which was previously provided to States in a stand alone 
grant, would be moved from the One-Stop Career Center/Labor Market 
Information line item into the consolidated grants to support State 
development and dissemination of workforce information. The 
consolidation of the workforce information funding into the WIA Plus 
Consolidated Grants will serve as an additional catalyst for 
transforming the silo system of the past into a demand-driven workforce 
information system that provides more and better information products 
and services that consumers will need in making strategic and tactical 
workforce investment and critical career decisions.
    The consolidation proposal does not affect funding for BLS or the 
Census Bureau, where much of the information used in the national 
allocation of Federal funds, program planning, and evaluation, as well 
as labor market dynamics information is provided.

                               JOB CORPS

    Question. Madam Secretary, this Subcommittee has demonstrated a 
long-standing support for the Job Corps program. That support has been 
based on proven results working with disadvantaged youth. Despite the 
fact that 74 percent of Job Corps enrollees are high school drop outs 
and 32 percent come from families on public assistance, 90 percent of 
Job Corps graduates are placed in full-time employment. The average 
hourly wage for Job Corps graduates at 6 months after initial placement 
is $8.95 per hour. This is a real opportunity for kids who are headed 
down a tough road.
    In the current economy, however, this figure does not adequately 
reflect the benefit of Job Corps to graduates because it does not 
address the health and pension benefits. Please submit data to the 
Committee on the availability of health and pension benefits to Job 
Corps graduates 6 months after initial placement, the estimated value 
of those benefits, and other significant benefits such as the 
opportunity for continuing education or ongoing training. Madam 
Secretary, these benefits are getting more valuable by the day and I 
strongly urge you to incorporate this question in your 6 and 12 month 
follow-up surveys.
    Answer. Both the 6-month and 12-month follow-up surveys ask 
initially-placed graduates (who indicate that they were employed during 
the week prior to the survey) whether any benefits are available to 
them through their job. Specifically, the survey asks whether the 
employer offers a health insurance plan, paid sick leave, paid 
vacation, childcare assistance, or a retirement or pension plan. The 6-
month and 12-month surveys do not collect information in regard to the 
value of these benefits.
    The table below depicts the percentage of graduates, employed at 6 
months and/or 12 months during PY 2003, who responded to the survey 
that their employer offers one or more of the listed benefits.

------------------------------------------------------------------------
                                                          Percent of
                                                      employed graduates
                                                       offered  benefits
            Benefits offered by employer             -------------------
                                                        at 6      at 12
                                                       Months    Months
------------------------------------------------------------------------
Health Insurance Plan...............................      62.0      61.7
Paid Sick Leave.....................................      49.2      51.2
Paid Vacation.......................................      61.0      61.0
Childcare Assistance................................      15.5      17.2
Retirement or Pension Plan..........................      42.2      45.6
------------------------------------------------------------------------

    Not included in these data are the over 1,581 Job Corps students 
placed in the military during PY 2003, all of whom, as service members, 
receive benefits such as medical, dental, 30 days paid vacation, an 
automatic $32,000 Montgomery GI Bill, and 100 percent tuition 
assistance for college education.
    Question. In addition, while I am a strong supporter of the 
benefits of online learning for rural areas and I am certainly always 
appreciative of budget savings, I am concerned about the suggestion in 
your budget documents that you want to move toward relying more heavily 
on online learning in Job Corps Centers. The kids in these programs are 
difficult to reach and Job Corps does a fantastic job of turning them 
around. At the heart of the program is the personal connection that 
highly qualified instructors make with these kids, cheering them on and 
giving them a real sense of accomplishment. Can you provide a 5 year 
plan for Job Corps curriculum? Please include information on the manner 
in which online learning will be utilized to deliver services to Job 
Corps participants.
    Answer. Since 2002, Job Corps centers have increasingly provided 
online and server-based courses to students to enable them to complete 
their high school programs and receive diplomas. These programs are 
particularly beneficial in situations where the Job Corps centers are 
in rural locations and/or cannot make arrangements with local high 
schools to allow students to attend classes.
    In Job Corps classrooms with online learning opportunities, an 
instructor circulates among the students to answer questions and 
provide one-on-one assistance. Group instruction and written materials 
are often incorporated with the delivery of online courses. Currently 
Job Corps centers do not use a single online curriculum. Operators of 
multiple centers tend to have contracts with online course and software 
providers to enable cost-effective delivery to several centers.
    In PY 2005, however, the Job Corps National Office plans to 
undertake a major effort to establish standards and curriculum for 
foundation courses in reading, math, and writing and to establish core 
standards for high school programs with recommended curricula. These 
efforts will follow the development of strategic education and 
instructional technology plans. Therefore, Job Corps does not currently 
have a 5-year curriculum plan in place. While the specific approaches 
to incorporating online and other curricula will be based on the 
planning process, Job Corps intends to build on best instructional 
practices and courses to create a ``blended learning'' approach 
involving a mix of face-to-face and online instruction. This approach 
has been proven effective in engaging students with diverse learning 
styles and abilities and enabling them to work closely with qualified 
instructors. The use of online learning will also allow students to 
have equal access to Job Corps' newly developed core curricula, based 
on rigorous standards in both academic foundation skills and high 
school programs.

                  HIGH GROWTH JOB TRAINING INITIATIVE

    Question. As a Member of both your Appropriations and Authorizing 
Committees, I was very interested to read in your testimony about a new 
program that is not authorized under the Workforce Investment Act (WIA) 
called the High Growth Job Training Initiative. You cite the fact that 
you have spent $164.8 million for 88 grants since 2002. I have a series 
of questions related to the expenditure of these dollars.
    How many of these grants were awarded on a competitive basis?
    Answer. The High Growth Job Training Initiative was initiated to 
model new and innovative strategies to create a demand-driven workforce 
investment system. In carrying out this mission, the Department awarded 
grants to model programs using discretionary funding for this activity 
as is authorized under title I of the Workforce Investment Act. Through 
unsolicited grants, which are not awarded on a competitive basis, the 
Department has been able to strategically invest in innovative models 
that address the key issues industry identified and to do so in the 
context of different sectors for each industry. Unsolicited grants also 
have allowed the Department to spark transformation of the workforce 
investment system to a system that is more demand-driven--that is, more 
responsive to the skill needs of businesses and industry. This 
innovative approach to workforce investment features partnerships that 
include the workforce investment system, business and industry, 
education and training providers, and economic development working 
collaboratively to develop solutions to workforce challenges. The 88 
grants cited, and a subsequent grant awarded on June 3 to the 
Pennsylvania Workforce Investment Board for a comprehensive statewide 
strategy for addressing the workforce needs of Pennsylvania's plastics 
manufacturing sector, were awarded as non-competitive grants. All of 
these grants were subject to review and approval by the Department's 
Procurement Review Board.
    It has been the Department's intent from the beginning to move to 
competitive opportunities following the first round of strategic 
investments by industry. In June 2005, the Department announced 12 
grants, in the health care and biotechnology industries, which were 
competitively awarded in accordance with a Solicitation for Grant 
Applications. Moving forward, the majority of future investments will 
be made on a competitive basis.
    Question. How many of these grants were awarded directly to private 
sector companies?
    Answer. Of the 88 grants cited, three were awarded to private 
sector companies in partnership with non-profit associations, workforce 
investment boards, and other public sector entities, which was a 
requirement. These grants were awarded to:
  --Catalyst Learning, in partnership with Anne Arundel Community 
        College
  --Hospital Corporation of America (HCA), in partnership with Broward 
        County Community College, Dade County Community College, and 
        Palm Beach County Community College
  --Management & Training Corporation, in partnership with City 
        Colleges of Chicago, Cincinnati State Technical and Community 
        College, Sinclair Community College, Luzerne County Community 
        College, Lehigh/Carbon County Community College, the 
        Metropolitan Chicago Healthcare Council, the Paul Simon Chicago 
        Job Corps Center, the Cincinnati Job Corps Center, the Dayton 
        Job Corps Center, and the Keystone Job Corps Center
    Two subsequent grants were competitively awarded in accordance with 
a Solicitation for Grant Applications to private sector companies. They 
are:
  --CVS Regional Learning Center, in partnership with Detroit Workforce 
        Development Department, ORC Macro, Wayne County Community 
        College District, Goodwill Industries of Greater Detroit, New 
        Galilee Missionary Baptist Church, Perfecting Church, and 
        Little Rock Baptist Church
  --United Regional Health Care System, in partnership with North 
        Central Texas Healthcare Consortium, United Regional Healthcare 
        System, Wilbarger General Hospital, Electra Memorial Hospital, 
        Seymour Hospital, Vernon College, Midwestern State University, 
        Texas Christian University, North Texas Tech Prep Consortium, 
        Partners-in-Education, and Region 9 Education Service Center
    Question. Can you provide the Appropriations Committee with a 
complete list of all of the grants awarded under this program and their 
geographic locations?
    Answer. Yes. Through the High Growth Job Training Initiative, the 
Department has made 101 investments in 12 high growth industries. The 
details on each award follows:
    Grant Recipient and Location: Henderson-Henderson County Chamber of 
Commerce/Kentucky
    Partner(s) and Location(s): Henderson, Union, and Webster County 
WIBS; Henderson Community College; the Kentucky Community and Technical 
College System; Employer representatives from targeted industries; 
County economic development councils; city and county municipal 
governments and county high school technology centers/KY
    Funding Amount: $2,991,840
    Purpose of the Award: This pilot will design and deliver demand-
driven training and placement services in the following industries: 
industrial technology, engineering technology, manufacturing, 
hydraulics, pneumatics and IT. We anticipate that this demonstration 
will train and place 1,265 workers. It is anticipated that at least 63 
percent will be placed within four weeks and 71 percent of dislocated 
workers will be placed.
    Grant Recipient and Location: Automotive Youth Educational Systems/
Michigan
    Partner(s) and Location(s): Automotive manufacturers and dealers' 
associations; local high schools/national
    Funding Amount: $600,000
    Purpose of the Award: The grantee will demonstrate a demand-driven 
automotive technician curriculum and training process that uses a new 
blended training delivery model (including on-line features). This new 
approach to learning, paired with work-based applications in 
dealerships across the country, will offer access to expanded learning 
opportunities in urban and rural communities. This pilot project is 
projected to train 6,250 new participants in year 1, 7,700 in year 2, 
and 8,600 in year 3.
    Grant Recipient and Location: Council for Adult and Experiential 
Learning/Pennsylvania
    Partner(s) and Location(s): WIBs in local sites; Community colleges 
in local sites; hospitals at local sites; Department of Labor Office of 
Apprenticeship/IL, MD, SD, TX, WA, GA, VA, DE, WI
    Funding Amount: $2,174,450
    Purpose of the Award: This pilot is designed to increase the number 
of CNAs, LPNs, and RNs by building upon a pre-existing career ladder 
model and adding an apprenticeship component for CNAs and LPNs. It is 
anticipated that the demonstration will train approximately 300 
students per site at 5 sites for a total of 1,500 students served 
during the pilot.
    Grant Recipient and Location: Computing Technology Industry 
Association (CompTIA)/Illinois
    Partner(s) and Location(s): Northern Virginia Community College; 
NFL Films; Okidata; Hill International, Keyport Division; Naval 
Undersea Warfare Center; Henkels & McCoy; Exodux IT Services; 
Cosmopolitan Chamber of Commerce/national
    Funding Amount: $2,818,795
    Purpose of the Award: This demonstration will support the 
development and implementation of a National Information Technology 
Apprenticeship System (NITAS), a competency-based apprenticeship 
methodology that supports consistent and flexible credentialing for the 
career development and advancement of IT workers. It is anticipated 
that throught this demonstration approximately 384,000 IT workers will 
become registered apprentices and approximately 6,700 employers will 
register as on-the-job learning providers.The seven-track NITAS career 
matrix allows workers to progress through all or part of the 
apprenticeship program using a combination of classroom instruction and 
on-the-job training. Standardized, industry-recognized certifications 
are earned as each apprenticeship tier is completed and the 
certifications are transferable from employer to employer.
    Grant Recipient and Location: The National Retail Federation 
Foundation (NRFF)/Washington, D.C.
    Partner(s) and Location(s): Local WIBs involved in multiple project 
sites; local community colleges involved in multiple locations; Toys 
``R'' Us; Saks, Inc.; CVS/pharmacy; the Home Depot; seven major 
shopping center developers; hundreds of large and small retail 
employers and businesses; NRFF's State and Local Affiliate Network; 
State and Government Agencies; Community-based organizations/DC
    Funding Amount: $2,250,000
    Purpose of the Award: Grantee will demonstrate a model for creating 
a comprehensive cross-industry career ladder from sales associate 
through senior level management. For each level in the career ladder, a 
core competency and training curriculum model will be developed for 
distribution throughout the industry and the public workforce system. 
In addition, the demonstration will train a significant number of 
incumbent and new workers in the retail sector in partnership with 
employers and the public workforce system. The curriculum will be 
disseminated broadly to retail employers across the country through the 
public workforce system.
    Grant Recipient and Location: The National Retail Federation 
Foundation/Washington, D.C.
    Partner(s) and Location(s): Local WIBs involved in multiple project 
sites; seven major shopping center developers and hundreds of large and 
small retail employers and businesses; Montgomery College; NRFF's State 
and Local Affiliate Network; State and Local Government Agencies; and 
community-based organizations/national
    Funding Amount: $2,815,000
    Purpose of the Award: This Project will demonstrate the use of 
retail skills centers' at eight sites that provide retail and customer 
service education and training services for mall employees and area job 
seekers. Located in shopping centers, these ``skills centers'' help 
retail employers recruit, retain, and advance workers through a range 
of training options, from language and employability skills classes to 
customized seminars. This pilot project is projected to train and place 
over 3,000 individuals in the retail sector.
    Grant Recipient and Location: National Restaurant Association 
Educational Foundation/Illinois
    Partner(s) and Location(s): State Restaurant Associations in each 
State; International School Licensing Corporation's America's Schools 
Program/national
    Funding Amount: $1,765,000
    Purpose of the Award: NRAEF will demonstrate the value of creating 
a national system of State hospitality partnerships through the HBA/
ProStart project. These partnerships, in 19 States across the country, 
are dedicated to the establishment of 900 high school hospitality 
School-to-Career programs and industry mentoring programs that lead to 
an industry-recognized national certificate. The goal of the project is 
to offer work-based learning opportunities for 6,700 students at 
approximately 6,000 work sites. By increasing student worksite 
experience and increasing industry involvement in workforce issues 
through this project, NRAEF will have the ability to cultivate new 
sources of talent and thus strengthen the hospitality industry by 
attracting, supporting, guiding, training, and teaching current and 
future workers.
    Grant Recipient and Location: National Institute for Metalworking 
Skills (NIMS)/Virginia
    Partner(s) and Location(s): Employer partners are mentioned but not 
specifically named/national
    Funding Amount: $1,965,700
    Purpose of the Award: This demonstration is designed to create a 
more economical, rational, effective and efficient competency-based 
apprenticeship model that builds on the time-tested NIMS skill 
standards credentialing system. Under this demonstration, NIMS will 
develop a competency web for metalworking occupations consistent with 
NIMS skill standards.
    This includes developing apprenticeship programs and curriculum 
development for the six competency-based apprenticeship programs with 
portable, nationally-recognized credentials for these occupations 
complete with a curriculum guide and implementation guide. It is 
anticipated that this demonstration will train ATELS staff and industry 
partners on the apprenticeship programs to better serve the over 500 
apprenticeships under way at any one time by employers and assocations.
    Grant Recipient and Location: Community Learning Center, Inc. 
(CLC)/Texas (two grants)
    Partner(s) and Location(s): Tarrant County Workforce Development 
Board; Tarrant County College; Lockheed Martin-Aero; Bell Helicopter-
TEXTRON; Interconnect Wiring and Southwest Airlines/TX
    Funding Amount: $4,028,400
    Purpose of the Award: This demonstration project will continue the 
Aerospace Industry Training Project (AITP) for preparing and placing 
dislocated workers in aircraft assembly and will provide incumbent 
workers with advanced training. It is anticipated that 1,024 dislocated 
workers will receive training and wage increases and that 802 workers 
will be placed in unsubsidized employment.
    Grant Recipient and Location: Downriver Community Conference--
AutoAlliance International/Michigan
    Partner(s) and Location(s): Michigan Works Association; Monroe 
County Community College; Henry Ford Community College; Wayne County 
Community College; Davenport University; Baker College; AutoAlliance 
International (joint venture of Ford and Mazda); UAW; Downriver Career 
Technical Consortium; Flat Rock secondary schools/MI
    Funding Amount: $5,000,000
    Purpose of the Award: It is anticipated that the grantee will 
demonstrate methods for training and preparing automotive workers for 
new advanced manufacturing production processes. Grantee will map, 
track, and analyze transferable manufacturing skills sets and 
competencies required for the new positions and provide training, 
assessment and employment for 1,400 worker
    Grant Recipient and Location: Alameda County Workforce Investment 
Board/California
    Partner(s) and Location(s): San Mateo County WIB; Skyline Community 
College; Ohlone Community College; Genetech; Alza; Baxter; Chiron; 
Adecco; Gruber and Pereira Associates; Opportunities Industrialization 
Center West/CA
    Funding Amount: $2,000,000
    Purpose of the Award: Under this pilot, it is anticipated that the 
grantee will develop career pathways in bio-tech manufacturing, 
facilities management, quality control, and product engineering. 
Additionally, the program will work with area community-based 
organizations to create a ``bridge'' program to prepare lower skilled 
individuals for entry-level employment. This pilot project is expected 
to train up to 150 workers and place them in employment at wages of 
$35,000-$40,000 per year. In addition the grantee is expected to train 
40 dislocated engineers and place them in employment at wages of 
$50,000-$80,000 per year.
    Grant Recipient and Location: Forsyth Technical Community College/
North Carolina
    Partner(s) and Location(s): Forsyth Tech has a local JobLink One-
Stop Career Center on campus; grantee is Community College; Syngenta, 
Targacept, Orthofix and Wake Forest University School of Medicine 
(WFUSM); North Carolina Biotechnology Center; Wake Forest University; 
Winston-Salem State University; University of North Carolina-
Greensboro; Winston-Salem Chamber of Commerce; Winston-Salem/Forsyth 
County Schools/NC
    Funding Amount: $754,146
    Purpose of the Award: Forsyth Tech will demonstrate a program 
designed to implement a biotechnology associate degree training program 
for the region's dislocated manufacturing workers. Forsyth Tech will 
retrain workers who have been dislocated from declining industries so 
that they are qualified for employment in the emerging biotechnology 
field. The Forsyth Tech curriculum will focus on training laboratory 
technicians in biotechnology and related pharmaceutical occupations and 
can be broadly replicated in community colleges across the country.
    Grant Recipient and Location: Indian Hills Community College/Iowa
    Partner(s) and Location(s): Iowa Workforce Development; Des Moines 
Area Community College; Biotechnology Association; Iowa Renewable Fuels 
Association; Cargill, Inc.; Genencor; Pioneer Hybrid International; 
Garst Seed; Phytodyne; Kemin Industries; Iowa Biotechnology 
Association; Iowa Renewable Fuels Association/IA
    Funding Amount: $996,250
    Purpose of the Award: Under this demonstration project, the grantee 
will establish a comprehensive State-wide approach to growing the 
biotech industry as a part of the Iowa economic base; Create a skilled 
workforce through community colleges and workforce investment system 
partnerships; Educate middle and high-schoolers about biotech career 
options and skills needed. The grantee anticipates they will train 100 
high school teachers and counselors, 100 unemployed and underemployed 
biotech workers, 600 incumbent biotech workers and provide career 
awareness training activities to over 6,000 students during the life of 
the grant.
    Grant Recipient and Location: Lakeland Community College/Ohio
    Partner(s) and Location(s): STERIS Corp.; Athersys, Inc.; 
Lakeland's BioTech Council and its employer members; school systems in 
Mentor, Ashtabula, and Mayfield, Ohio; Tech Prep Consortium; Ricerca 
Biosciences; BioEnterprise; Association for the Advancement of Medial 
Instrumentation; NeoBio; Lakeland Community Learning; Lakeland Center 
for Quality and Productivity/OH
    Funding Amount: $333,485
    Purpose of the Award: The grantee will develop demonstration 
training programs that are designed to recruit new workers, beginning 
at the high-school level and up through a Master's Degree level in 
northeast Ohio. The grantee will partner with industry to create 
training and curriculum; develop a BioCenter and a national 
biotechnology career coaching model. This curriculum will be 
deseminated broadly expanding the availability of industry-based 
curruculum and articulating career cadders and competency models 
designed to industry standards. It is expected that the grantee, as 
part of their activities, will expand internship and training 
opportunities through the pilot Bio Center.
    Grant Recipient and Location: Pittsburgh Life Sciences Greenhouse/
Pennsylvania
    Partner(s) and Location(s): Three Rivers Workforce Investment 
Board; Community College of Alleghany County; Renal Solutions, Inc. and 
six additional employers in the area; the Pittsburgh Technology 
Council; The Allegheny County Job Link/PA
    Funding Amount: $2,433,160
    Purpose of the Award: In this pilot project, the grantee will match 
trained workers with local area biotechnology companies with the goal 
of rapidly deploying professionals into biotechnology employment 
through customized training programs and biotechnology curriculum. The 
grantee anticipates that they will train and place 200-400 workers in 
biotech business jobs. As a part of its efforts to support the growth 
of greater Pittsburgh life sciences employers, the project will provide 
training for new entrants into biotech as well as retraining for 
workers affected by declining industries.
    Grant Recipient and Location: The Workforce Alliance, Inc./Florida
    Partner(s) and Location(s): the Workforce Alliance; Treasure Coast 
Workforce Development Board; Indian River Community College; Workforce 
Florida, Inc.; Palm Beach County Business Development Board and 
Economic Development Council; Regional Biotechnology Employers; Florida 
Atlantic University; Office of the Governor; Scripps Research 
Institute; Palm Beach County's Government; school boards; the Agency 
for Workforce Innovation; Business Development Board; Economic 
Development Council/FL
    Funding Amount: $2,325,303
    Purpose of the Award: This demonstration project is designed to 
retrain employed and unemployed workers to build careers in biotech in 
the Palm Beach County, Florida area. Through this demonstraion project, 
the grantee anticipates enrolling 110 workers. The grantee estimates 
that 80 percent of employed and 65 percent of unemployed participants 
will complete their training with a certification or degree. FAU's 
Biotech Training Program will establish a biotech career ladder and 
develop curriculum as well as a program for participants to obtain a 
postgraduate level certificate in Biotechnology and Bioinformatics. The 
learning's from this program will be disseminated broadly for 
replication.
    Grant Recipient and Location: American College of the Building 
Arts/South Carolina
    Funding Amount: $2,750,000
    Purpose of the Award: The grantee will demonstrate the development 
and testing of an innovative, industry-driven curriculum that focuses 
on the traditional building arts, such as carpentry, ironwork, masonry, 
timber framing, plasterwork, and stone carving through the first of its 
kind school, the American College of Building Arts (ACBA). ACBA also 
will establish partnerships with industry organizations for future 
internship programs based on this piloted curriculum. The inaugural 
class of 100 students will be recruited from across the nation to 
attend this unique restoration training college and will return to 
local communities for work-based learning opportunities and employment.
    Grant Recipient and Location: SkillsUSA-VICA/Virginia
    Funding Amount: $142,000
    Purpose of the Award: Grantee will demonstrate methods for 
increasing the pipeline of skilled trade workers by building advanced 
competency models and career ladders and provide secondary students 
interested in the skilled trades with more post-secondary training 
alternatives, such as the opportunity to continue their skills 
development in advanced community college programs.
    Grant Recipient and Location: Oklahoma Department of Career and 
Technology Education/High Plains Technology Center/Oklahoma
    Partner(s) and Location(s): Northwest Workforce Development 
Council; Workforce Oklahoma; Marathon Oil Company; Mid-Continental Oil; 
Mid-Continental Oil and Gas Association of Oklahoma; Unit Drilling; 
Patterson-UTI Drilling; BP America Production Company/OK
    Funding Amount: $1,546,463
    Purpose of the Award: In this demonstration project, the grantee 
will develop a bilingual training curriculum in gas and energy based on 
the skills needs of local employers. The grantee estimates they will 
train approximately 500 workers, including 125 workers new and 325 
incumbent workers. As part of the demonstration, the grantee will 
develop and provide training for new and incumbent workers in the oil 
and gas industry and better integrate the industry with existing 
workforce development resources in Northwest OK, Southwest KS and the 
TX Panhandle. This model will be disseminated to the public workforce 
system for replication across the country in areas in need of a skilled 
energy workforce.
    Grant Recipient and Location: San Juan College Regional Training 
Center/New Mexico
    Partner(s) and Location(s): Farmington WIB; local One-Stops in 
other participant recruitment States (CO, NM, UT, WY); Key Energy 
Services; Navajo Nation; Church of Jesus Christ of Latter-Day Saints/NM
    Funding Amount: $2,113,127
    Purpose of the Award: This pilot project is designed to develop a 
regional energy training center with initial recruitment and screening 
conducted at one-stop centers to provide training to three targeted 
groups: minorities, predominately Spanish-speaking and Native 
Americans, underemployed and dislocated worker populations and 
underemployed incumbent workers. The grantee anticipates training 50 
workers to complete applied basic education to attain required literacy 
level and training 400 workers in a certificate-based training program. 
The grantee anticipates that 320 candiated will complete the training, 
with 300 projected placements. In addition, the grantee anticipates 
that 240 will be retained after 30 days and 210 after 180 days of 
employment. In addition, the grantee will design a skills-based, 
competency model curriculum by mapping key occupational skills and 
benchmarking against the skills of current incumbent workers. This 
curriculum will be used as the basis for safety training 
certifications. To support efforts to reach under represented 
popolations, the grantee will also develop video assessment tools, 
training videos with supportive curriculum written in Navajo and 
Spanish language. These recuritment tools will be made available to the 
public workforce system for use in providing career guidance to 
workers.
    Grant Recipient and Location: University of Southern Mississippi 
(USM)--Geospatial Development Center/Mississippi
    Partner(s) and Location(s): Local WIBs and One-Stop Career Centers; 
Mississippi Gulf Coast Community College; Pearl River Community 
College/MS
    Funding Amount: $1,565,227
    Purpose of the Award: In this demonstration project, the grantee 
will develop a registered apprenticeship program in Geospatial 
Technology based on a competency model that will be designed as part of 
the pilot. The grantee anticipates that as part of the project, 30 
apprentices will be trained. In addition, training materials, tests for 
related classroom instruction, and assessments for structured OJT will 
be developed. Some curriculum modules will be made available through 
web-based distance learning tools to allow for easy replication by the 
workforce system in partnership with employers in the Geospatial 
sector.
    Grant Recipient and Location: American Health Care Association 
Foundation/Washington, D.C.
    Partner(s) and Location(s): George Washington University's Center 
for Health Services Research and Policy and Wertlieb Educational 
Institute for Long Term Care Management/DC
    Funding Amount: $113,296
    Purpose of the Award: This research and demonstration project is 
designed to support the workforce challenges faced by the over 16,000 
long-term care facilities across the country. In this project, the 
grantee will develop an infrastructure of ``Best Practice'' models to 
build partnerships for combating the nursing shortage in long-term care 
that can be expanded, evaluated, replicated, and transported to other 
areas of the country. This project is designed to support addressing 
the nursing shortage in long-term care and offer a model designed to be 
replicable by workforce systems across the country, meeting this 
critical workforce shortage.
    Grant Recipient and Location: Berger Health System/Ohio
    Partner(s) and Location(s): Ohio University/OH
    Funding Amount: $200,000
    Purpose of the Award: This demonstraion project is designed to meet 
the needs of the rural community hospital by holding all classes and 
clinical rotations at the Berger Hospital facilities for the 3-year, 
university-based Associate Degree nursing program. The grantee 
anticipates that through this project, 30 incumbent employees and non-
traditional students will enroll in credentialed programs. This project 
will serve as a model for replication in rural communities across the 
country, offering employee and opportunity to grow in their careers 
while remaining in their rural community.
    Grant Recipient and Location: Capital IDEA/Texas
    Partner(s) and Location(s): Worksource-Greater Austin Area 
Workforce Development Board; Austin Community College; in Austin: 
Seaton Healthcare Network; St. David's Healthcare Partnership; Austin 
Heart; in San Marcos: Central Texas Medical Center/TX
    Funding Amount: $224,088
    Purpose of the Award: This demonstration project is designed to 
enable students and lower-skill hospital employees to advance to career 
training courses by providing tutoring in a key pre-requisite anatomy 
and physiology course. Tutoring begins the first week of class in order 
to: (a) increase the success rate of students, thereby reducing the 
extra expense of tuition, counseling, child care, and time associated 
with students repeating the course; (b) accelerate graduations; and (c) 
increase the success rate of disadvantaged students. Rather than take 
remedial action after students fall behind, the tutoring will raise 
their chances of enrolling in training for and successfully completing 
a nursing or allied health occupation.
    Grant Recipient and Location: Catalyst Learning/Kentucky
    Partner(s) and Location(s): Anne Arundel Community College/FL, IL, 
IN, KT, MD, MI, MO, NC, OH, PA, TN, TX, VA
    Funding Amount: $3,176,000
    Purpose of the Award: Make basic skills and work-related education 
more accessible to adults in low-wage jobs and more feasible for 
employers by combining interactive television broadcasts in the 
workplace with additional coursework through printed materials and 
interactive online exercises.
    Grant Recipient and Location: Columbia Gorge Community College/
Oregon
    Partner(s) and Location(s): Region 9 Workforce Investment Board; 
Columbia Gorge Community College; eight area hospitals and health care 
providers; K-12 school districts; Oregon Health and Science University; 
and city and county governments/OR, WA
    Funding Amount: $1,250,000
    Purpose of the Award: This pilot project is designed to create a 
Health Occupations Career Ladder Nursing Program to train 200 new 
workers and expand CGCC's offerings and opportunities for an Associate 
Degree in Nursing and a distance learning option for a Bachelor Degree 
of Nursing Program. The grantee anticipates they will train 200 new 
healthcare workers. It is expected that forty nurses of 200 total 
trainees will have the opportunity to earn a BSN through Columbia 
Gorge's dual admission agreement with Oregon Health and Science 
University. In addition, the grantee will expand Certified Nursing 
Assistant/Certified Medication Aide training to fill vacancies created 
from the pilot project. The grantee anticipates they will offer 7-9 
classes per year to train an additional 60 students and to develop 
opportunities for training including 10-20 CMAs per year.
    Grant Recipient and Location: Excelsior College/New York
    Partner(s) and Location(s): Excelsior College; fourteen hospices in 
New York State, along with one each in Montana, North Carolina, Rhode 
Island, South Carolina, and Texas; WINs demonstration project in 
various local areas/MT, NY, NC, RI, SC, TX
    Funding Amount: $516,154
    Purpose of the Award: In this pilot project the grantee is expected 
to expand the number of registered nurses and create a stable, highly 
skilled RN workforce for hospices by developing a Hospice and 
Palliative Care Online Certificate Program (HPCC) that includes a 
period of practical experience and training supervised by an expert or 
specialist. The grantee is expected to development of a recruitment 
strategy designed to attract nurses to end-of-life care. Emphasis will 
be placed on the recruitment of RNs who are no longer employed in 
nursing but are interested in re-entering the field, nurses planning to 
leave the acute care arena, and new graduates. As part of the career 
awareness, the grantee will establish a website that will give hospices 
across the nation free access to discuss best practices, announce job 
openings, and publicize trainings and conferences. The grantee will 
also develop a 12-month end-of-life nursing training program that will 
be disseminated broadly to employers and community colleges for 
replication. The grantee anticipates serving 60 interns and 
approximately 30 preceptors affecting the quality of care of over 
17,000 patients from its 212 hospice partners.
    Grant Recipient and Location: Florida International University 
School of Nursing/Florida
    Partner(s) and Location(s): Florida International University School 
of Nursing; Hospital Corporation of America/FL, TX
    Funding Amount: $1,421,639
    Purpose of the Award: This innovative demonstration is designed to 
train 100 baccalaureate-prepared nurses from a pool of foreign educated 
physicians who are currently unemployed or underemployed, offering a 
new model for addressing the critical shortage of nurses in this 
country. As part of the demonstration, the grantee will pilot test a 
synchronous distance education component utilizing interactive 
television, offering an opportunity and method of replication for other 
areas of the country.
    Grant Recipient and Location: Hospital Corporation of America 
(HCA)/Tennessee
    Partner(s) and Location(s): Broward County Community College; Dade 
County Community College; Palm Beach County Community College/FL, TX
    Funding Amount: $4,000,000
    Purpose of the Award: Under this demonstration, the grantee will 
address the lack of experienced nurses and set standards that can be 
replicated across the country by creating a distance learning model and 
a fellowship program that will create an intensive, hands-on, 
accelerated learning setting similar to a medical residency. The 
grantee anticipates that 100 students will enroll in the critical care 
core program during the first year of the grant. During the second year 
of the grant, these 100 students will specialize in either critical 
care specialties or emergency department specialty and an additional 
100 students will enroll in the critical care core. In addition to this 
training, the grantee anticipates that at least 30 students annually 
will receive sponsored scholarships. This demonstration will also allow 
for the develop a competency based Basic Arrhythmia challenge 
examination for experienced nurses as well as various forms of blended 
e-learning curriculum modules for additional topics in the critical 
care core curriculum. The project is designed to enhance the basic 
critical care core on-line curriculum with e-learning course content 
and didactic and laboratory activities. The model will develop critical 
care clinic courses for new nursing graduates and experienced med-surg 
and telemetry nurses and includes a teaching manual that provides 
course outlines, course syllabi, and clinical assessment instruments.
    Grant Recipient and Location: States of Georgia, Colorado, Texas, 
and Florida
    Partner(s) and Location(s): WIBs in all local areas, HCA, Inc.; 
community colleges in local sites
    Funding Amount: $4,541,205
    Purpose of the Award: Grantee will demonstrate a program designed 
to assist workers dislocated since 9/11 by providing training 
scholarships for employment in high-growth nursing careers, LPN, 
radiology technologists, surgical technicians and certified nursing 
assistants. Over 875 individuals along the healthcare career ladder 
will receive scholarships.
    Grant Recipient and Location: Johns Hopkins Health System/Maryland
    Partner(s) and Location(s): Baltimore City WIB; Baltimore City 
Community College, Community College of Baltimore County (CCBC)/MD
    Funding Amount: $3,000,000
    Purpose of the Award: In this demonstration, the grantee will 
develop and execute an Incumbent Worker Career Acceleration Program, 
including five components: (1) an initiative for addressing retention 
and growth of at-risk workers; (2) a GED and diploma preparation 
program; (3) an initiative for retraining of employees in declining 
jobs for emerging jobs; (4) a high-potential worker assessment and 
skills training program; and (5) an initiative to upgrade training of 
incumbent workers into critical skills shortage positions. The grantee 
anticipated that they will have an 80 percent retention rate for 100-
150 employees participating in the Retention and Growth of At-Risk 
Workers Initiative as well as a 70 percent retention rate among 50 
incumbent workers receiving a GED or diploma through the initiative; 
they expect that at least 25 of these individuals will go on to further 
skills training and higher-skilled positions. They anticipate that 75 
participants to receive skills assessment, career counseling, and 
skills-based training and that 200 incumbent workers will receive 
assessment and training leading to the staffing of more critical 
skilled positions.
    Grant Recipient and Location: Management & Training Corporation/
Utah
    Partner(s) and Location(s): In Illinois: City Colleges of Chicago; 
the Metropolitan Chicago Healthcare Council; in Ohio: Cincinnati State 
Technical and Community College and Sinclair Community College; In 
Pennsylvania: Luzerne County Community College and Lehigh/Carbon County 
Community College. Also, the Paul Simon Chicago Job Corps Center, the 
Cincinnati Job Corps Center, the Dayton Job Corps Center, and the 
Keystone Job Corps Center in Drums, Pa./IL, OH, PA
    Funding Amount: $1,500,000
    Purpose of the Award: The focus of the grant is to unite the 
efforts of Job Corps Centers with community colleges to address the 
health care workforce challenges in Illinois, Ohio, and Pennsylvania. 
This demonstration is expected to train 210 youth over a 2-year period 
span at three different Job Corps Centers. The grantee is expected to 
measure retention and completion rates, percent of students who 
complete training in the project and become employed in the healthcare 
industry (job-training match), average wage of students employed, long-
term attachment to the workforce, and promotions or lateral moves in 
the healthcare fields. As part of their activities, the grantee will 
develop outreach materials that are designed to attract low income, out 
of school youth between the ages of 16-24 targeting out-of-school youth 
and Hispanic worker populations.
    Grant Recipient and Location: Maryland Department of Labor, 
Licensing, and Regulation and Governor's Workforce Investment Board/
Maryland
    Partner(s) and Location(s): WIB is the grantee; a MOU will be 
developed among the community college system, the university system and 
the health care industry/MD
    Funding Amount: $1,500,000
    Purpose of the Award: This demonstration is designed to address the 
faculty capacity problem by implementing a scholarship program for 
nurses who pursue credentials to teach nursing and allied healthcare 
professions. The grantee anticipates offering forty $10,000 
scholarships to nurses selected to obtain teaching credentials in 
healthcare. In addition, the grantee will offer forty $10,000 
scholarships will be provided to incumbent healthcare workers seeking 
to become Registered Nurses to replace those who have left to teach 
nursing. This model is designed to demonstrate partnerships that help 
backfill RN positions by implementing a scholarship program for 
Licensed Practical Nurses (LPNs) and other incumbent workers that are 
seeking their Registered Nurse (RN) credentials.
    Grant Recipient and Location: North Carolina Department of Commerce 
Commission on Workforce Development/North Carolina
    Partner(s) and Location(s): North Carolina WIBs; North Carolina 
Community College System; NC Hospital Association; University of North 
Carolina System; NC Department of Health and Human Services; NC Area 
Health Education Centers/NC
    Funding Amount: $1,500,000
    Purpose of the Award: This demonstration is designed to address 
North Carolina's critical nursing and direct care worker shortages by 
targeting the State's pool of dislocated workers. The grantee 
anticipated training up to 450 displaced workers to enroll in Human 
Resource Development Plus pilot sites, 300 workers are expected to 
enroll in additional training with 200 placed in jobs including 120 as 
direct care workers. In this model, H.E.A.L.T.H. will work to enhance 
health career development and employability of dislocated workers and 
provide the needed support for an education and training institution 
for nursing. In addition, the grantee is building capacity to meet 
future training needs by training teachers and mentors, including 
adding MSN faculty with Master's Degrees in the Community College 
System, to meet on-going demand for healthcare workers.
    Grant Recipient and Location: Paraprofessional Healthcare 
Institute/New York
    Partner(s) and Location(s): Workforce Investment Board of Lancaster 
County, Pennsylvania; community colleges; Lehman College of New York; 
North Carolina Foundation for Advanced Health Programs/NY, PA, NC
    Funding Amount: $999,902
    Purpose of the Award: The grantee will provide a range of technical 
assistance, training initiatives, and materials for the long-term care 
workforce. Emphasis will be placed on assisting Hispanic caregivers and 
supporting the nation's Workforce Investment Boards and community 
colleges in recruiting and training. As part of their activities, the 
grantee will create a coaching approach to supervision model for front-
line supervisor with a curriculum designed specifically for employer-
based community colleges and demonstrate the ``Four Ps'' problem 
solving training curriculum in partnership with Workforce Investment 
Board of Lancaster, PA. As part of this demonstration, the grantee will 
develop an apprenticeship career-lattice model based on work with home 
care agencies employing Hispanic and African-American workers as home 
health aides. To allow for replication of the model, the grantee will 
author a full series of guidebooks, curricula and teaching manuals-
written in both Spanish and English-on a range of effective 
paraprofessional workforce development practices targeted to the home 
care workforce.
    Grant Recipient and Location: Pueblo Community College/Colorado
    Partner(s) and Location(s): Pueblo Work Link (One-Stop Career 
Center); Pueblo Community College; Trinidad State Junior College; 
Colorado Community College System; Parkview Episcopal Medical Center/CO
    Funding Amount: $715,402
    Purpose of the Award: This demonstration is designed to bring 
healthcare training opportunities to outlying areas, and help volunteer 
medical personnel secure paid employment. As part of the grantee's 
activities they will create a multi-disciplinary curriculum based on 
competency models that is facilitated by Distance Learning modalities. 
As a result of their activities, the grantee expects to increase by 50 
percent the efficiency of preparing under-represented minorities to 
take advantage of health career opportunities by developing a 
partnership between Pueblo Community College and Pueblo Work Link. The 
grantee expects that by the end of the grant, the project will increase 
the number of minority/disadvantaged EMT-I/Respiratory Care training 
enrollees by 35 percent at Trinidad State Jr. College and 20 percent at 
Pueblo Community College.
    Grant Recipient and Location: Rio Grande Valley Allied Health 
Training Alliance/Texas
    Partner(s) and Location(s): Cameron County Workforce Development 
Board; Lower Rio Grande Valley Workforce Development Board; South Texas 
Community College; Texas State Technical College; Tech Prep of the Rio 
Grande Valley; Mission Hospital Harlingen Medical Center; Starr County 
Hospital; Brownsville Medical Center; Dolly V infant Memorial Hospital; 
Knapp Medical Center; Rio Grande Regional Hospital; South Texas Health 
System; Valley Interfaith; Valley Initiative for Development and 
Advancement/TX
    Funding Amount: $4,000,000
    Purpose of the Award: It is expected as part of this demonstration 
that the grantee will assist area businesses and community leaders to 
develop, attract, and retain local talent by enrolling candidates, 
retaining them through tuition assistance, and developing a High School 
Concurrent Enrollment program and comprehensive Faculty Sharing Program 
while drawing from Alliance hospitals' supply of Masters of Science in 
Nursing. The grantee estimates that 135 participants enrolled in Post 
Licensure Specialties with a completion rate of 95 percent; 70 students 
annually prepared in academies; 90 high school juniors and seniors have 
the annual opportunity to take college classes; 360 participants 
receive comprehensive case management with 90 percent student retention 
rates. In this model demonstration, online coursework will be used as 
part of the Faculty Sharing Program for one allied health specialty and 
400 students' clinical rotations coordinated via on-line, regional 
scheduling.
    Grant Recipient and Location: State of Oregon/Oregon
    Funding Amount: $300,000
    Purpose of the Award: This demonstration model will support the use 
of innovative technology to increase the capacity to train students for 
the health care industry by helping to purchase seven SimMan, real-
time interactive human patient simulators. The simulation technology 
will be integrated into health care curricula for use by well-prepared 
and networked faculty, available over the State's broadband Internet 
network, and affordable for all education and service groups in the 
State, increasing the capacity of the State to meet training needs for 
the industry. At least 90 instructors will receive training in using 
the patient simulators and will provide simulator-based training to at 
least 225 students.
    Grant Recipient and Location: Tacoma/Pierce County Workforce 
Development Council/Washington
    Partner(s) and Location(s): Bates Technical College; Clover Park 
Technical College; Tacoma Community College/WA
    Funding Amount: $762,659
    Purpose of the Award: This demonstration is designed to improve and 
expand the pool of qualified professionals in high-demand health care 
jobs by training invasive cardiovascular technologists, creating a 
Comprehensive Career Coaching Program, establishing connections through 
a Healthcare Educator Network, and reaching out to minorities and 
youth. The grantee anticipates that 10 participants will complete the 
Health Unit Coordinator Pre-Apprenticeship Program and 50 healthcare 
workers will have access to the Comprehensive Career Coaching Program 
to access and complete high demand healthcare training programs. As 
part of the demonstration, the grantee will enroll 8 students in the 
Medical Rotation Program, implement a Health Summer Camp for 15 youths, 
and enter 15 students per year into a 2-year distance learning program. 
This grant will increase minority youth participation in job shadow and 
volunteer programs by 10 percent.
    Grant Recipient and Location: Healthcare Workforce Network/
Wisconsin
    Partner(s) and Location(s): Northwest Wisconsin Workforce 
Investment Board, Ashland; Burnett Medical Center, Grantsburg; Flambeau 
Hospital, Park Falls; Memorial Health Center, Medford; Memorial Medical 
Center, Ashland/WI
    Funding Amount: $215,600
    Purpose of the Award: This project will demonstrate the use of 
disance learning to train healthcare workers in rural areas and 
establish ongoing, collaborative relationships among rural health care 
providers and the One-Stop Career Center system. The grantee will pool 
financial, material, and human resources of small, remote hospitals and 
clinics for the purposes of increasing the supply and retention of 
health care professionals, and develop distance learning materials, 
including web-absed trainnig modules and satellite broadcasts. At least 
300 incumbent workers will successfully complete at least one skills-
upgrade module. The project will also increase the local pool of 
interested healthcare workers by 25 percent.
    Grant Recipient and Location: The 1199 SEIU League Grant 
Corporation on behalf of the League 1199 SEIU Training and Upgrading 
Fund/New York
    Partner(s) and Location(s): NYC Department of Education; the 
Consortium for Worker Education/NY
    Funding Amount: $192,500
    Purpose of the Award: As part of this demonstration the grantee 
expects to expand the Contextualized Literacy Pre-LPN Program, which 
combines literacy and job training in preparation for LPN programs. 
This pre-LPN program has been designed for low-level health-care 
workers who have been out of school for a long period of time and have 
had difficulty passing entrance exams. The grantee expects to implement 
10 pre-LPN classes of 25 students each (250 students) who will enroll 
in a 35-week contextualized course of study that will prepare them to 
pass the C-NET exam and lead to enrollment in an accredited LPN 
program. It is expected that 90 percent of the 250 workers pass the C-
NET test and enroll in an LPN program, supporting meeting this critical 
workforce shortate. As part of the demonstration, the grantee will 
develop an easily replicable demonstration model of contextualized 
literacy for similar programs within the adult education and health 
care industries, allowing for replicaiton throught the workforce system 
in partnership with health care employers across the nation.
    Grant Recipient and Location: The Evangelical Lutheran Good 
Samaritan Society/South Dakota
    Partner(s) and Location(s): In South Dakota: Lake Area Technical 
Institute, Watertown; Sioux Valley Hospitals and Health System; 
University of South Dakota; South Dakota State University, Brookings; 
in Nebraska: Bellevue University, Bellevue; pullUin software/South 
Dakota Health Technology Innovations Inc./MN, SD, ND
    Funding Amount: $1,877,517
    Purpose of the Award: In an effort to increase the pool of 
qualified workers, this demonstration is designed to raise public 
awareness of health care career opportunities by recruiting from high 
schools and non-traditional labor pools such as displaced workers. As 
part of the project, the grantee will produce a video/CD entitled 
``It's Happening in Healthcare!'' that will be distributed to schools, 
the workforce investment system and other entities to promote 
healthcare careers with a specialized target of nontraditional workers. 
The grantee will also develop an online ``virtual caregiver'' that will 
provide a realistic view of career options in this field. The 
demonstration also is designed to increase healthcare worker retention 
by starting a mentor project to support entry-level workers and 
providing various support services. Finally, the grant will develop and 
pilot methods for providing supervisory and management training by 
delivering nursing programs through the Master's degree level, both 
online and through local community colleges. At least 110 participants 
will receive training under this grant.
    Grant Recipient and Location: Delaware Valley Industrial Resource 
Center/Pennsylvania
    Partner(s) and Location(s): Local WIBS; Delaware County Community 
College; Drexel University; Local Manufacturing Companies: AGF 
Manufacturing Co.; Kingsbury, Inc.; Philadelphia Coca Cola Bottling; 
PA's Industrial Resource Network/PA
    Funding Amount: $3,000,000
    Purpose of the Award: This pilot project is designed as a model for 
helping the advanced manufacturing sector develop and recruit students 
for new technical education programs that will produce a steady and 
predictable supply of skilled and educated individuals for key 
technology-intensive industries. This project will train over 500 
workers, serve over 300 companies and will establish a Regional 
Industrial Leadership Coalition to provide public policy leadership and 
outreach to better serve the manufacturing community. The goal of the 
grantee is to produce an annual pipeline that contains 1,000 skilled 
and educated individuals to support the region's advanced technology 
and manufacturing businesses over 3-5 years and to train 95 incumbent 
workers and 455 entry-level workers (100 percent placement) over the 2-
year course of the grant.
    Grant Recipient and Location: Greater Peninsula Workforce 
Investment Board/Virginia
    Partner(s) and Location(s): Greater PA WIB; Thomas Nelson Community 
College; Northrop Grumman Newport News (NGNN); PA's regional Advanced 
Manufacturing Consortium; Consortium of Seven Cities and Counties; the 
PA Alliance for Economic Development; Pennsylvania Worklink; Virginia 
Employment Commission/VA
    Funding Amount: $1,965,000
    Purpose of the Award: This demonstration will will implement a 10-
part program that will deliver a highly skilled workforce for a 
growing, high-performance manufacturing sector. The grantee estimates 
they will train over 5,000 workers for advanced manufacturing jobs 
covering a variety of industries in Southeast Virginia. The services 
are targeted to youth, incumbent workers, and career-transitioning 
individuals. As part of their activities, the grantee will develop or 
adapt education and training curricula to produce required skill sets 
for new, transitional, and incumbent workers. The grantee will offer 
opportunities for work-based experience will be developed as well. 
Instructors will have the option of expanding their skills through 
externships and a regional Advanced Manufacturing Instructor Training 
Institute. As part of the demonstration, the grantee will create 
detailed task analyses and training curriculum for more than 30 
advanced manufacturing jobs and train 30 community college personnel to 
replicate the program and deliver curriculum content statewide. To 
support the recruitment of prospective employees, the grantee will 
develop realistic job action videos on locally-available jobs for 
posting on One-Stop Career Center computers and available.
    Grant Recipient and Location: Illinois State University/NCIST/
Illinois
    Partner(s) and Location(s): Local WIBS; local community colleges; 
local/regional manufacturers and representatives from NAM/CWS local 
affiliate groups/IL, OH, PA, TX, WY, NC
    Funding Amount: $5,774,420
    Purpose of the Award: The grantee will pilot a program curriculum 
to create an associate's degree in integrated systems technology, 
enhance the highly successful apprenticeship model, develop career 
awareness materials, and create a comprehensive career ladder and 
lattice standardizing the career competencies. This pilot will then be 
replicated in four additional States through the creation of regional 
centers of excellence to train more workers, new and incumbent, for 
careers in the advanced manufacturing sector. Approximately 420 workers 
will receive training under this demonstration grant.
    Grant Recipient and Location: Lancaster County Workforce Investment 
Board/Pennsylvania
    Partner(s) and Location(s): Lancaster County WIB; Stevens College 
of Technology; Viking Cabinetry Group; Lancaster County Career and 
Technology Center/PA
    Funding Amount: $1,354,585
    Purpose of the Award: This demonstration is designed to addresses 
the issue of narrowing skill gaps in manufacturing through incumbent 
training. The Lumber & Wood Consortium, the Food Manufacturing 
Consortium, the Plastics Consortium, and the Powdered Metals Consortium 
want to develop curriculum and provide incumbent training. The grantee 
anticipates conducting 70 train-the-trainer sessions and placing 105-
170 incumbent workers into training.
    Grant Recipient and Location: Lower Rio Grande Workforce 
Development Board/Texas
    Partner(s) and Location(s): Local WIBS; Texas State Technical 
College; Texas Southmost College; South Texas Community College; Texas 
Manufacturing Association (STMA); Brownsville Area Manufactures 
Association; Harlingen Manufacturers Association; McAllen Economic 
Development Corporation; McAllen Independent School District; Valley 
Initiative for Development and Advancement/TX
    Funding Amount: $2,000,000
    Purpose of the Award: This demonstration project will develop a 
curriculum and a 5-year Apprenticeship Strategic Plan with multiple 
programs for tool and die, industrial maintenance, and plastic process 
technicians. As part of their activities, the grantee expects to train 
225 youth in advanced manufacturing trade skills; train 200 adults 
through the Skill Enhancement, Pre-Apprenticeship and Post Secondary 
Dual Credit Programs; train 213 adult apprentices over 2 years; and 
attain Journeyman Certification for 20 adult apprentices. The 
partnership will attain credentialing from NIMS for apprenticeship 
trainers. It will also develop program study guides and curriculum for 
Industrial Maintenance, Tool and Die and the Youth Apprenticeship 
Career Pathway.
    Grant Recipient and Location: National Association of 
Manufacturers/Washington, D.C.
    Partner(s) and Location(s): Undetermined/MO, TX and four other 
States
    Funding Amount: $498,520
    Purpose of the Award: The grantee will pilot launch the national 
``Dream It, Do It'' Career Campaign in Kansas City, Missouri, to 
increase career awareness for young people exposing them to high wage 
job opportunities in the manufacturing industry. The program will then 
be replicated throughout the county.
    Grant Recipient and Location: National Center for Integrated 
Systems Technology (IL)/Illinois
    Partner(s) and Location(s): Local WIBs in each of the 8 OH and IL 
sites; IL: Elgin, Moraine Valley, Richard J. Daley, Rock Valley; OH: 
Cuyahoga, North Central State, Owens, Sinclair; Caterpillar, Amatol, 
local manufacturers/IL
    Funding Amount: $9,142,496
    Purpose of the Award: In this demonstration, the grantee will 
provide advanced manufacturing training in integrated systems 
technology for dislocated workers in 8 community colleges in Ohio & 
Illinois. The grantee anticipates training 288 dislocated workers in 
each State and placing 80 percent in full-time employment within six 
weeks of completion of training.
    Grant Recipient and Location: National Institute for Metalworking 
Skills (NIMS)--2/Virginia
    Partner(s) and Location(s): 25 pilot companies/national
    Funding Amount: $939,815
    Purpose of the Award: As part of this pilot project the grantee 
will develop flexible yet structured training delivered ``just-in-
time'' on the shop floor. Separate training models will be developed 
for, and piloted with, five targeted sub-sectors, including: machine 
tool builders, tool shops, contract stamping and mold making companies, 
Computer Numerical Control (CNC) job shops, and CNC high volume 
machining companies. The grantee anticipates piloting the project by 
training new and incumbent workers at 25 companies.
    Grant Recipient and Location: Nebraska Central Community College/
Nebraska
    Partner(s) and Location(s): Six State community colleges; three 
Colleges/Universities; 10 core businesses and industry affiliates; 10 
High Schools; Nebraska DOL; NE Department of Economic Development; 
Bureau of Apprenticeship and the NE Department of Education/NE
    Funding Amount: $1,639,403
    Purpose of the Award: The demonstration will train 834 individuals 
with industrial training for high skill, high wage manufacturing jobs. 
The pilot will develop curriculum and competencies for mechatronics 
technicians and will include manufacturing seminars for 145 high school 
and college instructors annually. This curriculum will also be made 
available to community and technical colleges across the country to 
increase the number of workers trained as mechatronics technicians.
    Grant Recipient and Location: Oregon Manufacturing Extension 
Partnership (MEP)/Oregon
    Partner(s) and Location(s): The Northwest Food Processors 
Association; Oregon, Idaho, and Washington MEPs, not-for-profit teams 
of manufacturing professionals who help small-to-medium-sized 
manufacturers transform the way they do business/OR, WA, NV, ID
    Funding Amount: $3,199,709
    Purpose of the Award: This pilot is designed to implement lean 
manufacturing training comprised of classroom and workplace-based 
activities during work hours, with a strong ``English as a Second 
Language'' (ESL) component. The grantee expects to train at least 2,026 
workers at 48 companies in Oregon, Washington, Idaho, and Nevada. This 
model for implementing training for ESL students in a Lean environment 
will be promoted to the public workforce system as an effective model 
to pair ESL with high-growth jobs in the manufacturing sector.
    Grant Recipient and Location: San Bernardino Community College 
District/California
    Partner(s) and Location(s): WIBs; Business Alliance Partnerships; 
Regional Occupational Centers and Programs (ROOP, NACFAM, SMI, SMAC, 
OCBC, RCMIC, and IVMA); Manufacturing Skills Standards Council; and 
Centers for Applied Competitive Technologies (CACTs)/California
    Funding Amount: $1,618,334
    Purpose of the Award: This demonstration will assess and train new 
and incumbent workers to MSSC skill standards, a nationwide industry-
based skill standard, with assessment and certification system for all 
sectors of manufacturing. Workers' skills will be documented and 
individuals certified for hire and promotion, allowing for new job 
opportunities and/or further training and education. Revised education 
and training for advanced manufacturing will also be incorporated into 
technical programs at high schools, WIBs, and community colleges 
throughout Southern California. The grantee expects to train 180 
currently employed lower skill workers wishing to advance to a 
competency level of manufacturing certified by MSSC assessment. In 
addition, the grantee expects 80 job requisitions will be created and 
100 clients identified who wish to pursue manufacturing careers at a 
certified skill level. To support efforts to reach under-served 
populations, the grantee will develop brochures, literature and CDs 
describing, in English and Spanish, the new jobs and career ladders in 
manufacturing. The grantee will also develop brochures, literature and 
CDs describing the value of manufacturing careers and the process and 
qualifications needed to obtain certification.
    Grant Recipient and Location: St. Louis WIB/Missouri
    Partner(s) and Location(s): St. Louis City WIB; St. Louis Community 
College; Ford Motor Company; Daimler Chrysler Corporation; General 
Motors Corporation; UAW International--Region 5/MO
    Funding Amount: $1,499,998
    Purpose of the Award: As part of this demonstration, automotive 
manufacturing workers will receive state-of-the-art training in: (1) 
integration of automated systems; (2) predictive maintenance for 
advanced manufacturing systems; (3) enhanced mechanical technology; and 
(4) enhanced electrical technology. This training will allow St. Louis 
area auto manufacturers to remain globally competitive while giving 
employees portable skills and job advancement opportunities. The 
grantee expects to train 430 workers.
    Grant Recipient and Location: The Workplace, Inc./Connecticut
    Partner(s) and Location(s): Connecticut WIB; Hurosatonic and 
Norwalk Community Colleges; ASML; Westport Precision; Jurman Metricas; 
Nerjan Development Co.; Nordex, Raym-Co.; Hurosatonic; State of CT 
Department of Education; State of CT Dept. of Economic and Community 
Development (DECD); The CT Employment and Training Commission (CETC)/CT
    Funding Amount: $2,000,000
    Purpose of the Award: This demonstration is designed to addresses 
the training needs of small and medium-sized manufacturers of new and 
incumbent workers (mainly engineers and technicians) in the areas of 
innovation, soft skills and ESL. At a minimum, the grantee anticipates 
assessing and enrolling over 500 workers over the 3 year life of the 
grant. At least 75 percent of those enrolled will complete one or more 
training courses that will result in technical certification and a 
minimum of 90 percent of course completers will acquire technical 
skills that can advance them on a career ladder.
    Grant Recipient and Location: Brevard Community College in 
partnership with American Technical Education Association/Florida
    Partner(s) and Location(s): The Brevard Workforce Development 
Board; National Science Foundation's SpaceTEC, a national center for 
aerospace technical education; the Florida Space Authority; Florida 
Space Institute; and the U.S. Air Force 45th Space Wing/FL
    Funding Amount: $98,560
    Purpose of the Award: The grantee will provide students the 
opportunity to assist in the operation of launch facilities and conduct 
six sub-orbital launches at Cape Canaveral Air Force Station, to 
demonstrate the usefulness of hands-on learning opportunities for 
students in developing technical aerospace skills and improving 
awareness of the skills required for aerospace careers.
    Grant Recipient and Location: Edmonds Community College/Washington
    Partner(s) and Location(s): Snohomish Workforce Development 
Council; Everett Community College; Manufacturing Industries; Boeing; 
Boeing Aerospace Suppliers; the Snohomish County Workforce Development 
Council; the Snohomish County Economic Development Council/WA
    Funding Amount: $1,475,045
    Purpose of the Award: The grantee will train new and incumbent 
workers in a pilot implementation of advanced aerospace technician 
curriculum, develop career ladders, and demonstrate distance learning 
approaches to train workers for aerospace industry. The curriculum 
developed will be broadly disseminated for use by community and 
technical colleges resulting in an increased number of training 
workers, meeting the workforce demands of the aerospace industry.
    Grant Recipient and Location: Florida Space Research Institute/
Florida
    Partner(s) and Location(s): Workforce Florida; NASA; the Civil Air 
Patrol; Florida School Districts/FL
    Funding Amount: $355,628
    Purpose of the Award: The grantee will demonstrate the benefits to 
providing aerospace-industry training to school teachers as a means of 
improving aerospace career knowledge and awareness among youth. 
Specifically, aerospace mentors will work with 25 teachers in seven 
counties and provide externships for technology teachers to increase 
their industry knowledge and their ability to apply the learning's in 
the classroom. Approximately 5,000 students will be exposed to the 
Aerospace industry as a viable career path.
    Grant Recipient and Location: The Houston-Galveston Area Council 
for the Gulf Coast Workforce Board/Texas
    Partner(s) and Location(s): Gulf Coast Workforce Board and area 
One-Stop Career Centers; San Jacinto College; Aerospace Academy; 23 
area aerospace employers including NASA Johnson Space Center/TX
    Funding Amount: $1,000,000
    Purpose of the Award: This demonstration is designed to address the 
issue of narrowing skill gaps in high-tech manufacturing. This project 
includes piloting a training program in which people will be trained in 
high-tech automotive manufacturing and/or construction and building 
trades in addition to other training/curriculum that will be developed. 
The grantee expects to train an estimated 625 individuals in either 
aerospace (advanced IT) areas or advanced manufacturing. Nearly all 
will be incumbent workers. It is extimated that 90 percent of the 
enrollees will complete training and 90 percent of completers will 
receive a 3-5 percent wage increase. In addition, 90 percent of 
unemployed workers will receive job placements and 5 percent will 
receive a promotion.
    Grant Recipient and Location: Automotive Retailing Today (ART)/
Virginia
    Partner(s) and Location(s): The National Automobile Dealership 
Association; National Automotive Technicians Education Foundation; 
other industry and business stakeholders; Automotive Youth Educational 
Systems/national
    Funding Amount: $150,000
    Purpose of the Award: As part of this research project, ART and its 
partners will gather, validate, and deliver information and data about 
career opportunities in the automotive industry to career-related 
websites and portals and to workforce development professionals. This 
information will help promote the industry by describing viable and 
exciting career opportunities, connecting job seekers to training 
opportunities and job openings in the field, and dispelling negative 
presumptions that the general public may have about the industry. This 
information will be made available to the public workforce system to 
support their efforts of meeting the needs of local dealers across the 
country by educating job seekers on career opportunities in the 
automotive service sector.
    Grant Recipient and Location: Automotive Youth Education Services/
Michigan
    Partner(s) and Location(s): Members of AYES' Board, including 
General Motors, DaimlerChrysler, Toyota, Volkswagen, Mercedes, Honda, 
BMW, Audi, Subaru, Nissan, Mitsubishi, Hundai, and Kia Motors; Snap-On 
Tools; SkillsUSA; the National Automotive Technicians Education 
Foundation (NATEF); the National Institute for Automotive Service 
Excellence (ASE); Hudson Institute's Center for Economic 
Competitiveness/national
    Funding Amount: $600,000
    Purpose of the Award: The grantee will demonstrate the expansion of 
a national automotive technician certification program through the use 
of on-line testing, which is linked to professional ASE certifications, 
in high schools. The grantee will also pilot the development of 
registered apprenticeship standards that can be applied across the 
nation in programs targeting high school students entering employment 
in the automotive service sector. The pilot project is expected to test 
5,000 students for the credential, offering an industry-based 
credential to enter employment in the automotive service sector.
    Grant Recipient and Location: Eastfield College/Texas
    Partner(s) and Location(s): Workforce Investment Boards in Dallas, 
Fort Worth & East Texas; Tarrant County College of Fort Worth, TX; 
Toyota Motor Sales USA; Gulf States Toyota; 20 area Toyota and Lexus 
Dealers; Automotive Technology Advisory Committee/TX
    Funding Amount: $837,424
    Purpose of the Award: The grantee will demonstrate methods for 
providing automotive services training to untapped labor pools by 
offering training to individuals, including support services, 
internship experiences, and an English as a Second Language component. 
The demonstration project is expected to train 100 workers to enter 
employment in the automotive service sector.
    Grant Recipient and Location: Gateway Technical College/Wisconsin
    Partner(s) and Location(s): Gateway (a community college); Snap-On 
Tools, Inc.; WI Automobile and Truck Dealers Association (WATDA); 
Melior Institute; National Coalition of Advanced Technology Centers 
(NCATC); Community-based organizations; Automotive Youth Educational 
Systems; the Workforce System/WI
    Funding Amount: $900,000
    Purpose of the Award: The grantee will demonstrate the use of 
blended training delivery systems, including the use of on-line 
features, to provide training toward industry-driven certifications, as 
awarded by the National Automotive Technicians Education Foundation 
(NATEF). The grantee expects to train over 1,500 instructors for ASE 
certification, increasing the capacity of community colleges and career 
and technical education institutions to train more students to industry 
standards for employment in the automotive service sector.
    Grant Recipient and Location: Girl Scouts of the USA/New York
    Partner(s) and Location(s): Automotive Insurance Companies; 
Dealerships; Associations including the Greater NY Automotive 
Dealership Association; Private Auto Repair Operations; Driving 
Schools; Girl Scout Local Councils; AAA Offices; High School Drivers' 
Education Departments/national
    Funding Amount: $200,000
    Purpose of the Award: The grantee will demonstrate methods for 
reaching out to untapped labor pools (such as young women) to consider 
careers in non-traditional occupations, such as automotive services, by 
developing and distributing information geared toward young girls, 
educating them about automotive services as a career option and 
building their skills in car repair and maintenance. Girls will be 
placed in experiential learning programs such as an internship at a 
dealership or a tour of a training facility. This project is designed 
to expand the number of youth overall considering careers in automotive 
services, and particularly young women.
    Grant Recipient and Location: National Institute for Automotive 
Service Excellence/Virginia
    Partner(s) and Location(s): One-Stops; ACT, Inc.; The National 
Automobile Dealership Association; other industry and business 
stakeholders; National Automotive Technicians Education Foundation 
(NATEF); National Automobile Dealers Association/DC
    Funding Amount: $300,000
    Purpose of the Award: The grantee will demonstrate new methods for 
training Spanish-speaking automotive service technicians by translating 
some of the most in-demand certification exams into Spanish and by 
having these exams administered throughout the country. Translation of 
these exams will allow for limited-English technicians to be industry 
certified and to enter in and move up the career ladder offering 
opportunity for greater wage gains in the automotive service sector. 
The grantee expects approximately 2,000 more Spanish-speaking 
technicians will take the test than took it in previous years.
    Grant Recipient and Location: Pennsylvania Automotive Association/
Pennsylvania
    Partner(s) and Location(s): Harrisburg Area Community College; 
Harrisburg Career and Technology Academy; Snap-On Tools, Inc.;the PA 
Workforce System; Automotive Youth Educational Systems (AYES)/PA
    Funding Amount: $95,000
    Purpose of the Award: This small grant will demonstrate a model for 
improving the capacity of local training institutions to provide 
industry-certified training in automotive services, as a means of 
increasing the industries ability to train a diverse workforce. To test 
this model, the grantee will develop a work-training opportunity, or 
on-the-job mentor/intern program, that strengthens business connections 
and provides career opportunities to five students facing social and 
economic barriers. This model will be made available to the public 
workforce system to partner with State dealer associations across the 
country to replicate, offering new career opportunities to underserved 
urban students.
    Grant Recipient and Location: Shoreline Community College/
Washington
    Partner(s) and Location(s): Workforce Development Council of 
Seattle, and WorkSource-North Seattle; Toyota Motor Sales USA; General 
Motors Corporation; Daimler/Chrysler; American Honda; Puget Sound Auto 
Dealers Association; Hunter Engineering; Chevron Oil Company; 
Wagonmaster Corporation; Overall Laundry/WA
    Funding Amount: $1,496,680
    Purpose of the Award: The grantee will demonstrate the use of 
curriculum based on a new set of industry-driven competency 
requirements by training hard to serve individuals for careers in the 
automotive service sector. The grant is targeted to train 50 out of 
school youth and dislocated workers. The curriculum developed will be 
broadly disseminated for use by community and technical colleges and 
high schools across the country to train more workers in the automotive 
service industry.
    Grant Recipient and Location: U.S. Hispanic Chamber of Commerce 
Foundation/Washington, D.C.
    Partner(s) and Location(s): BMW of North America; LLC; Snap-On 
Tools, Inc./CA, FL
    Funding Amount: $136,000
    Purpose of the Award: This project will demonstrate successful 
methods for training Spanish-speaking individuals to become skilled 
automotive technicians while increasing employment opportunities for 
this untapped labor pool. This will be accomplished through the 
recruitment, training, and fostering of career paths for 20 Hispanic-
Latino automotive technicians within Miami, Florida, and Los Angeles, 
California, leading to employment opportunities with dealerships in 
each city.
    Grant Recipient and Location: Delaware Workforce Investment Board/
Delaware
    Partner(s) and Location(s): Delaware WIB (State WIB); Delaware 
Technical and Community College; Agilent Technologies; Delaware 
Department of Education; Delaware Economic Development Office/DE
    Funding Amount: $250,000
    Purpose of the Award: The grantee will demonstrate methods for 
engaging the workforce investment system and biotechnology business 
community in an effort to facilitate collaboration among teachers, 
school districts, the Department of Education, higher education, and 
the business community to improve student achievement in science. One 
key aspect being piloted is the development of mobile science vans that 
experienced instructors and mentors use to visit local schools. The 
objective of the mobile van it to transport science equipment for 
providing laboratory experiences to youth increasing their interest and 
exposure to Science, Technology, Engineering and Mathematics (STEM) 
careers in high growth, high demand industries. The project will train 
30 mentors and is expected to offer 1,500 students hands-on experiences 
with the van.
    Grant Recipient and Location: Forsyth Technical Community College/
North Carolina (Partners: New Hampshire, Washington, Iowa, California)
    Partner(s) and Location(s): Forsyth Tech has a local Job Link One-
Stop Career Center on campus; Forsyth Technical Community College; New 
Hampshire Technical College; Indian Hills Community College; Bellevue 
Community College; Miracosta Community College; Caldwell Community 
College and Technical Institute; Catawba Valley Community College; 
Davidson C; Regional Employers/NH, IA, WA, CA, NC
    Funding Amount: $5,000,000
    Purpose of the Award: The grantees, a group of five community 
colleges, will form Centers of Excellence in five different 
biotechnology sectors. They all come together as a National Center for 
the Biotechnology Workforce, which will: (a) allow workers to learn 
about the competencies and training availability for biotechnology 
careers, and (b) allow community colleges and the workforce investment 
system to access industry skill standards as well as training curricula 
and methods to implement in their location. Under this pilot, each 
college will implement various methods for providing biotechnology 
industry training to workers in this high growth industry. The training 
methods, skills standards, and curriculum developed from this 
demonstration project will be broadly disseminated for use by community 
and technical colleges resulting in an increased number of trained 
workers, meeting the workforce demands of the biotechnology industry.
    Grant Recipient and Location: Massachusetts Biotechnology Education 
Foundation/Massachusetts
    Partner(s) and Location(s): Massachusetts Workforce Board 
Association; Commonwealth Corporation; the Boston Private Industry 
Council (Boston PIC); the Metro Northwest Regional Employment Board; 
the Metro Southwest Regional Employment Board; Massachusetts 
Biotechnology Council; Boston University's School of Medicine; Henzyme; 
other local companies; the University of Massachusetts and the 5-campus 
Statewide system; local school systems in the urban and high-need 
areas/MA
    Funding Amount: $1,372,250
    Purpose of the Award: The grantee will research the early-stage 
(high school) pipeline for biotechnology and health care industries by 
developing and launching a demonstration model of the BioCareer Lab in 
25 urban and high-needs public schools to train and expose students to 
the emerging biotechnology industry. This pilot model is expected to 
train 100 science teachers and 2,000 students. The model will include 
new equipment, ongoing teacher training, a mobile biotech laboratory, 
access to curricula developed with National Science Foundation funds, 
and school to career pathways in partnership with workforce investment 
boards and colleges. This demonstration project will expose more young 
people to careers in the biotechnology sector.
    Grant Recipient and Location: San Diego Workforce Partnership/
California
    Partner(s) and Location(s): San Diego Workforce Partnership is the 
local WIB; Miracosta Community College; BIOCOM/CA
    Funding Amount: $2,510,117
    Purpose of the Award: This demonstration is designed to support the 
workforce system in meeting its growing needs for skilled workers in 
the biotechnology industry. The grantee will create a clearinghouse for 
local and national biotechnology labor market information and to 
coordinate student internships (from high-school to post-doctoral 
levels) and teacher externships for the regional biotechnology 
community. The center will ultimately serve as a national clearinghouse 
for biotechnology industry labor market and occupational information; 
competency and skills requirement information; and training, 
internship, and research opportunities at all levels. As part of the 
grantee's activities, national and local labor market analyses will be 
performed; credit and non-credit classes that are flexible, short-term, 
and that will be recognized by multiple institutions will be developed; 
and local student internships and teacher externships at biotechnology 
companies will be provided.
    Grant Recipient and Location: Associated General Contractors of 
America/Virginia
    Partner(s) and Location(s): Chattanooga State Community College; 
San Antonio (TX) Chapter of AGC, AGC of East Tennessee; International 
Brotherhood of Electrical Workers Local 175; Laborers Local 846 
(Chattanooga, TN); East Ridge High School; East Tennessee State 
University/national
    Funding Amount: $235,500
    Purpose of the Award: The grantee will demonstrate the 
effectiveness of construction career academies by working with its 
partners to sustain existing construction career academies in 
Chattanooga and San Antonio, and to develop additional career academies 
in eight local communities. It is anticipated that the partnership will 
train 400-500 students to enter employment in the construction 
industry. Through the Construction Career Academy initiative, AGC will 
provide local academies with technical assistance in a number of areas, 
such as developing curriculum and forming partnerships between 
businesses and educational institutions. AGC also will provide students 
with materials and equipment and prepare instructors to teach in the 
academies.
    Grant Recipient and Location: Chicago Women in Trades/Illinois
    Partner(s) and Location(s): The Workforce Boards of Metropolitan 
Chicago; Illinois Community College Board; City Colleges of Chicago; 
The Builders Association; Construction Industry Service Corporation; 
Hispanic American Construction Industry Association; Mechanical 
Contractors Association of Chicago; Federation of Women Contractors; IL 
Departments of Labor, Employment Security, Transportation, and Commerce 
and Economic Opportunity; Mayor's Office of Workforce Development; 
Chicago Building Trades Council; Illinois Center for Professional 
Support Services/IL
    Funding Amount: $2,092,343
    Purpose of the Award: The grantee expects that nine thousand two 
hundred women (9,200) will gain awareness of career opportunities in 
construction through orientations and career fairs. In addition, the 
grantee expects that seven hundred fifty (750) women will gain 
acceptance into apprenticeship programs offering an average wage of $13 
per hour during the grant period. Of those entering into an 
appricitceship, 80 percent will be retained for a minimum of 90 days.
    As part of this demonstration, CWIT will launch an outreach 
campaign to attract women into the construction industry. This campaign 
will include professional outreach and marketing materials that focus 
on women, as well as orientation sessions and job fairs that focus on 
construction industry careers. CWIT and its partners will help women 
address their barriers to employment through an array of education, 
training, and support services, such as career planning, placement, and 
mentoring by women currently working in the industry. Finally, CWIT and 
its partners will work with One-Stop Career Centers, apprenticeship 
information centers, and community colleges to enhance their capacity 
to serve women.
    Grant Recipient and Location: Honolulu Community College/Hawaii
    Partner(s) and Location(s): Oahu Workforce Investment Board; Kauai 
Community College; Hawaii Department of Education; Eight local high 
schools; Hawaii Carpenters Union Local No. 745; Sheet Metal Workers' 
International Association Local Union No. 293/HI
    Funding Amount: $1,400,000
    Purpose of the Award: In this demonstration, HCC partners will 
creation a Construction Academy for providing 500 high school students 
with an array of construction-specific courses and career opportunities 
in the construction industry. In addition, 300 students will enter 
apprenticeship programs, construction associate degree programs, or 
construction baccalaureate programs. HCC and its partners will also 
develop and demonstrate a standards-based curriculum that articulates 
with construction certificate and degree programs that will be utilized 
by Hawaii's community colleges, increasing the applicant pool for the 
construction trades in the State. The curriculum developed will be 
shared broadly with community and technical colleges across the 
country.
    Grant Recipient and Location: St. Louis Carpenters Joint 
Apprenticeship Training Program (CJAP)/Missouri
    Partner(s) and Location(s): Workforce Investment Board of Southeast 
Missouri; Workforce Investment Board of St. Louis City; Workforce 
Investment Board of St. Louis County; Mineral Area College; St. Louis 
Community College; Jefferson Community College; Southeast Missouri 
Regional Industrial Training Group; Hazelwood and Affton School 
Districts/MO
    Funding Amount: $2,187,107
    Purpose of the Award: As part of this demonstration, CJAP and its 
partners will train and license high school instructors in skill 
standard certifications so that they can teach and certify students in 
advanced manufacturing and construction skills. The grantee expects to 
train 130 entry-level and dislocated workers and 120 incumbent through 
the initiative. As a result of this training, the grantee expects that 
750 youth will be trained to industry standards during the life of the 
grant. In addition, CJAP also will work with employers, community and 
faith-based organizations, and One-Stop Career Centers to identify 
incumbent workers with a strong interest in advancing their 
construction or advanced manufacturing careers and help them enhance 
their academic skills, access support services, and enroll in a 
maintenance mechanic program or other types of training. CJAP and its 
partners will also create an eight-week maintenance technician training 
program for dislocated workers and this curriculum, as well as the 
training model will be made available to community colleges across the 
country for possible replicaiton.
    Grant Recipient and Location: The Home Builders Institute (HBI)/
Washington, D.C.
    Partner(s) and Location(s): York Technical College (SC); community 
and technical colleges in (FL, KY); American Association of Community 
Colleges; Home Builders Association of Kentucky; Florida Home Builders 
Association; Home Builders Association of Charlotte (NC); Building 
Contractors Association of Wood River Valley (ID); Home Builders 
Association of South Carolina; Tidewater Builders Association/national
    Funding Amount: $4,268,454
    Purpose of the Award: The grantee will demonstrate the creation of 
a systemic approach to construction industry workforce development that 
provides a continuum of recruitment, career exploration, education and 
training. The demonstration will increase the available applicant pool 
for the construction industry meeting their workforce shortages by 
training 2,500 individuals for the construction trade in construction 
academies in four States.
    Grant Recipient and Location: Youthbuild USA/Massachusetts
    Partner(s) and Location(s): local home builders associations; 
National Council of Churches; juvenile justice system; Home Depot/
national
    Funding Amount: $12,202,600
    Purpose of the Award: This demonstration is designed to build on 
the success of the Youthbuild USA, model, supporting the transition of 
adjudicated youth into high growth industries. The grantee will 
participate in an established training program that combines academic 
instruction with construction skill development and, ultimately, builds 
affordable housing in their communities. The grantee will develop a 
national demonstration project in which 325 adjudicated youth will 
participate full-time for 9-12 months in a YouthBuild education, job 
training, and service program. Skills training will occur primarily in 
the construction industry through the building of affordable housing or 
community facilities. Graduates will be helped in finding placements in 
post-secondary education or in jobs. The grantee expects that 60 
percent of the 325 enrollees will complete the YouthBuild program; 85 
percent will be placed in employment or post-secondary education; 
Program completers will have a recidivism rate of 15 percent or less; 
34 percent will attain a GED or high school diploma; and 75 percent 
will be self sufficient over a 5-year period. Youthbuild USA includes 
significant support systems, such as mentoring that will continue for 
at least a year after the program; follow-up education, employment, and 
personal counseling services; and participation in community service 
and civic engagement. Youthbuild USA will work with local One-Stop 
Career Centers to place youth in employment upon completion of the 
program.
    Grant Recipient and Location: Institute for GIS Studies (IGISS)/
Tennessee
    Partner(s) and Location(s): Charlotte-Mecklenburg Workforce 
Development Board; Central Piedmont Community College; Nashville State 
Community College; Motlow State Community College; Bank of America; 
Duke Energy; Smart Data Strategies; University of Southern Mississippi/
TN, NC
    Funding Amount: $2,000,000
    Purpose of the Award: IGISS will pilot the development of an 
industry-led, apprenticeship-based career advancement ladder for 
specialty certificates and degrees in land records management and 
utilities-based geospatial technical applications. The pilot is 
expected to train over 500 unemployed and underemployed workers in a 
variety of learning environments such as apprenticeship and associate 
degree programs in 13 different community colleges across Tennessee and 
North Carolina with the goal of increasing the number of workers in the 
emerging geospatial technology sector.
    Grant Recipient and Location: Kidz Online/Virginia
    Partner(s) and Location(s): NAWB; Los Angeles Trade and Technical 
College, North Caronlina State University; ESRI; American Institute of 
Aeronautics and Astronautics; Institute of Electrical and Electronic 
Engineers; Society of Women Engineers; National Council of Teachers of 
Mathematics; National Science Teach Association; Virginia Space Grant 
Consortium; Digital Quest; Environmental and Spatial Technology 
Initiative; National Institute of Technology and Policy Research; North 
Carolina 4-H; Hampton City Public Schools; Council of Great City 
Schools; NEC Found of America/VA, CA
    Funding Amount: $1,000,000
    Purpose of the Award: Kidz Online will pilot the creation of a 
comprehensive youth and adult learner focused image building and career 
awareness effort by utilizing new distance learning methodologies. 
Specifically, grantee will deliver learning resources including video 
programming and live web casts, provide professional development 
services, and integrate geospatial concepts into existing programming 
and ETA's Career Voyages web site. Spanish language translation will be 
done for some content.
    Grant Recipient and Location: Rancho Santiago Community College 
District/California
    Partner(s) and Location(s): Rancho Santiago Community College; St. 
Louis Community College/CA
    Funding Amount: $187,939
    Purpose of the Award: The pilot project will assess local 
geospatial workforce needs and use the findings to develop new and 
innovative curriculum and career ladder workforce development systems 
for a cross-section of industries. The grantee expects to train 20 
community college faculty to teach the newly-developed geospatial 
curriculum as well as to host a training conference to train 75 
teachers from across the country (from schools not directly associated 
with the grant) in using the new curriculum. As a result of these 
activites, the grantee expects to train 200 students using the newly-
developed geospatial curriculum.
    Grant Recipient and Location: W.F. Goodling Advanced Skills Center/
Pennsylvania
    Partner(s) and Location(s): South Central Workforce Investment 
Board; Penn State York; Harrisburg University; Harrisburg Area 
Community College; Manufacturers Association of South Central 
Pennsylvania; York County Board of Commissioners; Pennsylvania 
Department of Conservation and Natural Resources; Pennsylvania Office 
of Admin; Pennsylvania Department of Community and Economic 
Development; Pennsylvania Department of Labor and Industry; York County 
Community Foundation; Oork Counts Commission; York County/PA
    Funding Amount: $990,125
    Purpose of the Award: The project will demonstrate the use of 2+2+2 
articulation agreements with high schools, community colleges, and 
universities to produce imagery analysis technicians through a 
certificate program in imagery analysis in private and municipal 
applications. These 2+2+2 articulation agreements will provide over 100 
students and/or workers with career and education advancement tracks, 
enabled by linked curriculum and levels of education, training and 
certifications at the high school, community college and university 
levels. The demonstration will also train 100 individuals in specific 
geospatial applications in homeland security, economic development, and 
land-use management.
    Grant Recipient and Location: Geospatial Information and Technology 
Association (GITA)/Aurora, CO.
    Partner(s) and Location(s): American Association of Geographers, 
National Association of Workforce Boards; National Association of State 
Workforce Agencies; Northrop Grumman, Lockheed Martin, Oracle, 
Intergraph, TeleAtlas/GDT, BAESystems, ObjectFX, ESRI, NavTeq, Smart 
Data Strategies; The University of Southern Mississippi; Jefferson 
Community College; Lake Land College; City College of San Francisco; 
Jackson State Community College; Moraine Valley Community College; 
American Association of Community Colleges; the Philadelphia Community 
College System; Central Piedmont Community College; Fulton Montgomery 
Community College; Colorado Community College; Mississippi Community 
College; and the University of Pennsylvania's Wharton School of 
Business/national
    Funding Amount: $695,362
    Purpose of the Award: GITA will (1) develop standard definitions 
for the geospatial industry, vet the definitions through industry 
leaders, and disseminate the results throughout the industry; (2) 
develop content for an on-line workforce information clearinghouse on 
industry jobs, education facilities, and program information; (3) 
create a geospatial career awareness campaign; and (4) work with 
community colleges, employers, and workforce development organizations 
in a selected region to test the use of the Geospatial Industry 
Workforce Information System (an industry-developed and funded 
information network that houses industry jobs, educational facilities 
and programs) and career awareness materials to help local One-Stops 
and educators meet local geospatial industry needs.
    Grant Recipient and Location: Lorain County Community College/Ohio
    Partner(s) and Location(s): Lorain County Chamber of Commerce and 
its Small Business Development Center; The Workforce Institute of 
Lorain County Lorain County Commissioners and the Lorain County 
Development Office/OH
    Funding Amount: $2,599,979
    Purpose of the Award: Grantee will demonstrate new methods for 
training workers in high growth careers, with a special emphasis on 
entrepreneurship, and for promoting the growth of existing businesses, 
especially small and medium business sector, as well as new business 
development--all within identified targeted industries. The first 
project objective is to develop a comprehensive education continuum and 
support system that provides a K-12 to master's degree pathway to 
prepare workers, at all levels, for high demand jobs. The second 
primary objective is to create a support system that combines economic 
and workforce development to collectively focus on providing easy 
access to resources that address the unique needs of existing 
businesses attempting to transition to the knowledge economy. The third 
primary objective is to grow and attract new high-growth businesses in 
the area to create jobs, and enhance objectives 1 and 2 through 
immersing entrepreneur education and support resources for both workers 
and businesses to create a pipeline of creative and innovative ideas. 
This pilot project is projected to train over 5,000 individuals in 
through a variety of learning opportunites including internships, 
certificate, and degree programs supporting small business growth in 
the community.
    Grant Recipient and Location: City of Los Angeles, Community 
Development Department/California
    Partner(s) and Location(s): City of Los Angeles Workforce 
Investment Board; Cedars-Sinai Medical Center/Kaiser Permanente 
Southern California Region/White Memorial Medical Center/East Los 
Angeles Doctors Hospital/Managed Career Solutions, Inc.; Valley 
Community College; City of Los Angeles Community Development 
Department; City of Los Angeles Health Care Career Ladder Training 
Program; Learn2excel/CA
    Funding Amount: $1,196,000
    Purpose of the Award: This pilot project will fund six strategic 
interventions to provide education and training to out-of-school 
disadvantaged youth: (1) an Out-of-School to Career Program that 
creates an articulated pathway through the training process and 
provides supports to participants during the program; (2) a Health Care 
Career Mentoring Program in which mentors will assist youth throughout 
their education and training and into careers; (3) a Hosted Web-Based 
Portal that will function as an on-line learning community meeting 
place to facilitate networking, collaboration, and information sharing 
throughout the Los Angeles healthcare system; (4) a Healthcare 
Vocational Assessment Tool used to determine vocational interest and 
aptitudes for specific health occupations; (5) a Bilingual English/
Spanish Fast Track Health Care Basics Curriculum that includes basic 
skills, medical terminology, and introductory health science courses; 
and (6) a Bilingual English/Spanish Marketing Outreach Program to 
attract minority, disadvantaged youth to healthcare occupations. As a 
result of this pilot project the grantee anticipates that 500 youth 
will go through pre-work and orientation for work experience; 200 youth 
will go through work experience at partner hospitals; 133 youth will 
attend medical fast track pre-requisite training; 117 youth will enter 
training; 80 placements leading up to healthcare tracks will be 
received; 112 will receive job placements or entry into higher level 
education at graduation of healthcare tracks; and approximately 4,635 
individuals will enter the health care workforce pipeline annually.
    Grant Recipient and Location: Miami-Dade College/Florida
    Partner(s) and Location(s): South Florida Workforce; IVAX 
Corporation; MediVector; Onco-Venctor; BioFlorida; South Florida 
Biotechnology Consortium; Miami-Dade County Public Schools; Florida 
Atlantic University; South Florida Manufacturing Association; Greater 
Miami Chamber of Commerce/FL
    Funding Amount: $1,000,000
    Purpose of the Award: As part of this demonstration, Miami-Dade 
College and its partners will pursue a number of strategies to build 
the region's skilled biotechnology workforce. The college will partner 
with industrial pharmaceutical manufacturing (IPM) experts to develop 
IPM curricula, train college faculty on the new curricula, and recruit 
industry experts to serve as adjunct faculty. These three strategies 
will address challenges related to educational capacity. All curricula 
developed will address specialized skills sets in IPM and related 
specialty areas. Competency models, based on evolving industry 
standards, will support the mapping of biotechnology career ladders and 
cross-industry career lattices. Miami-Dade College will expand 
available labor pools through the recruitment of minority youth, low-
income adult minorities, Limited English Proficient individuals, 
veterans, and individuals with disabilities. The grantee expects to 
train 800 incumbent and future IPM technicians and related workers.
    Grant Recipient and Location: United Regional Health Care System/
Texas
    Partner(s) and Location(s): North Central Texas Healthcare 
Consortium (includes representatives from the workforce investment 
system, education and training providers, and hospital industry 
employers); United Regional Healthcare System; Wilbarger General 
Hospital; Electra Memorial Hospital; Seymour Hospital; Vernon College; 
Midwestern State University; Texas Christian University; North Texas 
Tech Prep Consortium; Partners-in-Education; Region 9 Education Service 
Center/TX
    Funding Amount: $846,325
    Purpose of the Award: In this demonstration, the grantee will focus 
on recruiting, training, and capacity building in post-secondary 
institution nursing programs: (1) Recruiting--develop a pipeline of 
young workers for employment in the healthcare industry by recruiting 
from new and untapped, diverse labor pools; (2) Training--train 35 new 
and 85 incumbent workers for hospital positions such as patient care 
associates/medical assistants, nurses, health information technicians, 
Spanish language hospital interpreters, and surgical technicians; and 
(3) Capacity Building--increase the pipeline of available workers by 
training faculty from partner organizations as advanced practice nurses 
and nurse educators to gain qualification needed to teach in 
professional nursing programs.
    Grant Recipient and Location: Claflin University/South Carolina
    Partner(s) and Location(s): Lower Savannah Workforce Development 
Board; Zeus Corporation, Albemarle Corporation; SuperSod; Regional 
Medical Center of Orangeburg and Calhoun Counties; Orangeburg-Calhoun 
Technical College; South Carolina Department of Education; Orangeburg-
Calhoun Tech Prep Consortium; Orangeburg County Economic Development 
Board/SC
    Funding Amount: $750,000
    Purpose of the Award: As part of this demonstration, Claflin, a 
historically black college in rural Orangeburg, SC, and its partners 
will develop a pipeline of skilled biotechnology workers for all rungs 
of the biotechnology career ladder (high school diploma to Master's 
degree level). The grantee extimates that they will train 100 students 
in biotechnology certificates and degrees. In addition, the university 
will also develop curricula for each ladder of the biotechnology career 
ladder. As part of its efforts to stimulate youth enrollment in 
biotechnology training programs, Claflin will implement a comprehensive 
career development process for high school students, incumbent workers, 
and dislocated workers, and will also train local K-12 and secondary 
faculty to co-teach biotechnology modules with industry partners. This 
model of increasing the pool of minorities into high grow careers in 
biotechnology will be offered for broad dessemination to community 
colleges across the country for replication with partner 4-year 
institutions.
    Grant Recipient and Location: Orange County Workforce Investment 
Board/California
    Partner(s) and Location(s): Life Science Industry Council; Beckman-
Coulter Inc.; Edwards Lifesciences Inc.; Allergan Inc.; Saint Joseph 
Health System; Coast Community College District; University of 
California-Irvine; Orange County Department of Education; Orange County 
Business Council; local One-Stop Career Centers; Central Labor 
Council--Local 441/CA
    Funding Amount: $1,000,000
    Purpose of the Award: The project will implement a regional skills 
development collaborative that will leverage workforce invesetment 
system resources to meet the demands of the biotechnology industry and 
its related occupations in healthcare sectors. This project will train 
and advance 75 incumbent workers in allied health occupations such as 
hospital technicians and technologists in radiology, surgical, 
ultrasound, and x-ray. Additionally, 75 workers dislocated from 
declining industries and 75 entry-level workers will receive training 
for high-growth occupations such as medical equipment repairers, 
inspectors and testers; pharmacy technicians; medical assistance; 
biological technicians; and others. The Orange County Workforce 
Investment Board will target services to minority trainees and 
economically-disadvantaged residents. The partnership will also work to 
standardize skill requirements, define biotechnology career ladders, 
and develop effective strategies for engaging and developing youth 
interested in biotechnology careers.
    Grant Recipient and Location: The University of Utah/Utah
    Partner(s) and Location(s): Utah Department of Workforce Services; 
Intermountain Health Care; University of Utah Hospitals and Clinics; 
Veterans Affairs Medical Center/UT
    Funding Amount: $871,707
    Purpose of the Award: In this demonstration project, The 
University's Clinical Faculty Associate model seeks to address the 
severe nursing faculty shortage through a number of connected 
methodologies. The purpose of the project is to promote career 
advancement for Registered Nurses (RNs) working in clinical settings 
through a collaborative clinical teaching model and education program 
that enhances retention and acquisition of the skills needed to teach 
nursing. Practicing RNs will augment their existing clinical skills and 
knowledge by acquiring formal education resulting in a Master's degree, 
post-Master's certificate, or specific coursework related to teaching 
nursing, clinical instruction, and nursing education. These RNs will 
then function as Clinical Faculty Associates under the mentorship of 
university master teachers. By upgrading RNs to Clinical Faculty 
Associate positions increased numbers of baccalaureate nursing students 
will be admitted into the program. The grantee expects to enroll 13 
Clinical Faculty Associates in the University of Utah's Teaching 
Nursing Program and enroll 32 students in the Baccalaureate Nursing 
program. Projected number of students supervised by CFAs is 336 at the 
end of the second project year.
    Grant Recipient and Location: Orange County Workforce Investment 
Board/New York
    Partner(s) and Location(s): 7 local workforce investment boards in 
middle Hudson Valley; Orange County Health Care Cluster; Hudson Valley 
Health Care Consortium; Healthcare Workforce Training Consortium, 
including NorMet (Northern Metropolitan Hospital Association); Pace 
University School of Nursing; Dyson College of Arts and Sciences/NY
    Funding Amount: $1,048,300
    Purpose of the Award: This demonstration project will fund a 
market-driven system trading educational credits for instructor hours. 
It will provide incentives for health care providers in the region to 
provide staff holding master's degrees to serve on the faculties of 
educational institutions in exchange for credits to meet providers' 
future training needs. As a result of this demonstration, the grantee 
project is to have 1,000 additional students admitted to healthcare 
education and training programs in 2 years as a result of the increased 
capacity of providers. Fifty clinical nurses will be trained as 
instructors in 2 years and 100 clinical nurses will be trained as 
preceptors in 2 years. The capacity of educational institutions to 
provide nurse training will increase with the addition of 70 adjunct 
instructors and 70 preceptors, offering a unique model for replicaiton 
by the health care industry.
    Grant Recipient and Location: CVS Regional Learning Center/Michigan
    Partner(s) and Location(s): Detroit Workforce Development 
Department; ORC Macro; Wayne County Community College District; 
Goodwill Industries of Greater Detroit; New Galilee Missionary Baptist 
Church; Perfecting Church; Little Rock Baptist Church/MI
    Funding Amount: $1,757,981
    Purpose of the Award: The major components of this pilot project 
include: a community education and outreach campaign designed to build 
awareness and interest in pharmaceutical careers; recruitment, 
screening, and training of 80 candidates to receive training in an 
apprenticeship program to first become a Pharmacy Service Associate and 
then a Pharmacy Technician; a peer support group; provision of ``wrap-
around'' services, such as child support and transportation; 
identification and support of 130 incumbent CVS Pharmacy Service 
Associates faced with career advancement barriers to become Pharmacy 
Technicians through occupational English as a Second Language and 
customer service skill development instruction; and opportunities for 
both apprentices and incumbent workers to advance their pharmaceutical 
careers through 2-year or 4-year academic programs.
    Grant Recipient and Location: State of Wisconsin/Wisconsin
    Partner(s) and Location(s): Wisconsin workforce investment boards; 
Wisconsin Department of Workforce Development; private sector health 
care associations, including the Wisconsin Nursing Redesign Consortium; 
Wisconsin Technical College System/WI
    Funding Amount: $1,365,101
    Purpose of the Award: In this demonstration, the grantee proposes a 
two-part strategy to fast-track nurse educators to prepare the next 
generation of Registered Nurses (RNs) for the State of Wisconsin, 
including accelerated graduate study programs and a partner-based model 
for identification, recruitment and preparation of health professionals 
for nurse educator careers. The grantee will create an accelerated 
curriculum option and career ladder to facilitate movement of 
Associate's Degree nurses to the Master's degree level. This training 
model will decrease the time-to-degree by 18-24 months without diluting 
the quality of the graduate education programs. These efforts will 
result in fast-track preparation of 70 new and diverse nurse educators 
in Wisconsin by 2007 as replacement and expansion nurse faculty for all 
Wisconsin nursing programs, with an additional 50 Associate's degree 
nurses (ADNs) prepared to enroll in Master's programs Statewide by 
2007. Contracts between partnering employers and program participants 
will result in their contractual commitment as nurse faculty in a 
Wisconsin nursing school and as clinical care providers in sponsoring 
health facilities upon their graduation (2-3 years depending on course 
of study). Recruitment will focus on identifying underrepresented 
populations in nursing, including racial and ethnic minorities, men, 
and people with disabilities. The project will produce two major 
replicable innovations: a streamlined curriculum for rapid progression 
to the Master's degree along various career ladders and from various 
start points, and a Statewide partnership model for developing health 
care solutions.
    Grant Recipient and Location: Temple College/Texas
    Partner(s) and Location(s): Central Texas Workforce Investment 
Board and affiliated Workforce Centers; Scott & White Clinical 
Laboratory Science Program; Scott & White Hospital Clinics; Central 
Texas Veterans Health Care System; Cancer Research Institute; 
Cardiovascular Research Institute; Temple Health and Bioscience 
District; Temple Independent School District; Central Texas Tech Prep 
Consortium; Tarleton State University of Central Texas; Texas A&M 
University College of Medicine; Temple Economic Development 
Corporation/TX
    Funding Amount: $920,495
    Purpose of the Award: In this demonstration, the grantee will 
develop a pipeline of skilled biotechnology technician and research 
workers for all rungs of the biotechnology career ladder (high school 
diploma to Bachelor's degree level). Working with area tech prep 
schools, the project will establish an Advanced Technical Middle 
College for high school students to assist them in preparing for 
biotechnology careers, and will develop community college curriculum to 
advance the area's available biotechnology career lattice. This program 
will be piloted with at least 20 students receiving job placements. The 
grantee will also work with its industry partners to launch innovative, 
mentored, on-the-job and apprenticeship opportunities for students. 
Specific occupations to be targeted include medical laboratory 
technician, research technician, and genomic technician.
    Grant Recipient and Location: Indianapolis Private Industry 
Council, Inc./Indiana
    Partner(s) and Location(s): Indiana Department of Workforce 
Development; Wishard; St. Vincent's and St. Francis hospitals; Indiana 
Health Industry Forum; Roche Diagnostics; Dow Agro-Sciences; Eli Lilly 
and Company; Baxter Pharmaceutical; Ivy Tech State College; Indiana 
University School of Medicine; City of Indianapolis/IN
    Funding Amount: $1,000,000
    Purpose of the Award: Under this pilot project the grantee will 
execute four primary strategies First, work with Ivy Tech, the State 
community college, to expand the number of seats in the school's 
programs that prepare persons to become radiological technicians, 
registered nurses and respiratory therapists. The goal is to graduate 
and certify 80 people for the three positions. Second, work with 
Indiana University to develop an accelerated Master's of Science 
program for registered nurses. Third, expand or create on-site training 
opportunities for entry level workers at all hospitals, including basic 
skills training, job readiness and GED prep and testing. At least 120 
workers will access these services. Fourth, create state-of-the-art 
outreach and recruitment material to reach 14,000 area residents over a 
2-year period. These materials will provide information about career 
opportunities in medical manufacturing and biotechnology.
    Grant Recipient and Location: JobPath, Inc./Arizona
    Partner(s) and Location(s): BIO5; TGEN; BIOSA; Pima County College; 
Pima County Superintendent of Schools; University of Arizona; Pima 
County One-Stop; La Paloma Family Services; Arizona Biosciences 
Association/AZ
    Funding Amount: $276,393
    Purpose of the Award: This demonstration program will build a 
pipeline of youth interested in pursuing careers in biotechnology 
through the development of an Introduction to Biotechnology course 
taught by community college faculty to high school students in a 
biotechnology summer institute. The grantee expects to train 50 
graduates of Biotechnology Summer Institute; 40 community college 
students will complete introductory classes and advance to 
biotechnology prerequisites; 60 graduates of the biotechnology college 
program will move on to employment or higher education; and 30 
graduates from paid internships with bioscience employers. Paid 
internships with local bioscience employers will be offered to students 
upon completion of the program. The program will also recruit and 
support participants from untapped labor pools enrolled in 
biotechnology courses and certificate programs at the local community 
college.
    Grant Recipient and Location: The Pennsylvania Workforce Investment 
Board/Pennsylvania
    Partner(s) and Location(s): Pennsylvania's local workforce 
investment boards; Ben Franklin Technology Partners; Industrial 
Resource Centers; Penn State University; Pennsylvania College of 
Technology/PA
    Funding Amount: $3,750,000
    Purpose of the Award: This demonstration project will develop a 
Statewide network that supports multiple facets of the plastics 
industry's development. Specifically, ETA will fund: Incumbent Worker 
Training, Curriculum Transfer, Occupational Forecasting; Supply Chain 
Analysis; a Plastics Occupations Toolkit; Internships/Co-ops; 
Scholarships; and Research & Development Symposiums. The grantee 
anticipates training over 1,200 incumbent workers in the plastics 
industry, including machine operators, machine set-up technicians, 
process engineers and production supervisors. The Pennsylvania 
Workforce Investment Board will play an oversight role and serve as the 
clearinghouse for documenting the overall impact of the initiative. 
Penn State will be involved in technology transfer and Research & 
Development. Local workforce investment boards will be able to meet 
employers' needs and provide key support for developing Centers of 
Excellence. This model will be promoted for replication to the public 
workforce system.
    Grant Recipient and Location: RISE Business/Virginia
    Partner(s) and Location(s): Center for Women's Business Research; 
Council of Growing Companies, Inc. Business Resources; Kauffman Center 
for Entrepreneurial Leadership; Edward Lowe Foundation; National 
Foundation for Teaching Entrepreneurship; National Minority Business 
Council; National Small Business United/national
    Funding Amount: $150,000
    Purpose of the Award: In this research project conducted by 
RISEbusiness, RISEbusiness will act as an intermediary between the 
public workforce system and small business by researching and 
publicizing the key issues affecting small and emerging businesses. 
RISEbusiness aims to research the following topics in order to increase 
small business' support for, access to, and utility of the workforce 
system: review existing literature; define and refine research 
questions; launch a research effort; refine the research methodology; 
collect and analyze qualitative and quantitative data; and disseminate 
the findings and implications. A final report will be distributed to 
the State and local workforce system to further support their access to 
services provided by the public workforce system.
    Grant Recipient and Location: Jobs for the Future--Workforce 
Innovations Networks (WINs)/Massachusetts
    Partner(s) and Location(s): Great Lakes Innovation and Development 
Enterprise (GLIDE); the Enterprise Ohio Skills MAX Center; Mid-Ohio 
Securities; KS Associates; Ross Environmental Services; Beckett 
LogiSync; the Braye Group; JD Munch Integrated Solutions; Cash 
Strategies; CyStorm; Banyan Technology; Accurate Processing; Catalyst 
Strategies; Hot Dog Heaven; National Association of Manufacturers- 
Center for Workforce Success; U.S. Chamber of Commerce, Center for 
Workforce Preparation/national
    Funding Amount: $5,121,777
    Purpose of the Award: The Workforce Innovations Network--WINS--is a 
collaboration of the Center for Workforce Preparation of the U.S. 
Chamber of Commerce, the Center for Workforce Success/Manufacturing 
Institute of the National Association of Manufacturerers, and Jobs for 
the Future to accelerate, expand, and broaden employer engagement 
strategies. The first module provided a comprehensive analysis of 
employer engagement strategies, and identified approaches and models 
for the system to replicate for better engagement and involvement of 
employers. The WINs Module II Project demonstrated three primary 
strategy objectives: (1) that locally business-based organizations 
(e.g., Chambers of Commerce, employer's organizations) could 
effectively serve as ``intermediary'' agents to establish and 
strengthen relationships between local businesses and local Workforce 
Investment Boards and service offices; (2) that these intermediary 
organizations could work with local businesses and WIBs to develop 
``talent'' supply chains to bring skilled workers to businesses; and 
(3) that intermediaries could contribute to improved governance of 
public workforce investment systems. WINs II established 12 local 
demonstration sites and three State-level sites where the objectives 
were validated. Among the sites hundreds of businesses have been 
connected to WIB services and in a few sites the WIB depends upon the 
intermediary for the majority of business connections. Local 
demonstration sites have received additional WIB grants to continue 
and/or extend the projects thereby leveraging the WINs II grant funds. 
Beyond the additional WIB funding, the sites have acquired more than $5 
million from State and private funding sources.
    Grant Recipient and Location: U.S. Chamber of Commerce, Center for 
Workforce Preparation/Washington, D.C.
    Partner(s) and Location(s): Lehigh Carbon Community College in 
Schnecksville, Pennsylvania; National Association of Workforce Boards; 
American Association of Community Colleges; Chicagoland Chamber of 
Commerce; Greater Seattle Chamber of Commerce; Greater New Orleans/
national
    Funding Amount: $1,502,700
    Purpose of the Award: The Business Coalition for Workforce 
Development Project will demonstrate the employer benefits of accessing 
the public workforce system by improving services and relationships 
between employers and the public workforce system. This will include 
research identifying areas of successful business engagement with the 
workforce system, identifying specific issues to retaining and engaging 
business partnerships, and documenting insight and advice on how 
systems and services can be improved to support improved outcomes for 
workers.
    Question. Since the program has been up and running for 3 years, 
what performance data from these grants can you share with this 
Committee?
    Answer. In an effort to model innovative strategies for investment, 
the projects funded under the High Growth Job Training Initiative have 
included both training and curricula development activities. A 
significant number of these investments are in their first year of 
performance. As such, we have limited performance outcome data at this 
time. However, performance data is available for grants that have 
concluded their activities. The outcomes from these grants are detailed 
below. Active grantees are in the process of submitting quarterly 
reports. These reports are presently being analyzed by the Department. 
In addition, the Department is working to complete an analysis and 
conduct an evaluation of the grants awarded to date, as well as to 
refine performance standards for future investments.

     OUTCOMES OF GRANTS IN THE PRESIDENT'S HIGH GROWTH JOB TRAINING
                               INITIATIVE
                       [Expiring by June 1, 2005]
------------------------------------------------------------------------
            Grantee                Expected outcome      Actual outcome
------------------------------------------------------------------------
National Center for Integrated   Illinois--Train 288   Illinois--Grant
 Systems Technology (Illinois     dislocated workers.   completed. 302
 and Ohio)--Dislocated Worker     Place 80 percent      workers were
 Integrated Systems Technology    (230) of all          enrolled with
 Training Project.                participants in       262 completers
                                  jobs with 75          and 74 percent
                                  percent (216)         placed in jobs.
                                  placed in small or   Ohio--Grant
                                  mid-sized companies.  ongoing. To
                                 Ohio--Train 288        date, 249
                                  dislocated workers.   participants
                                  Place 80 percent      have enrolled,
                                  (230) of all          121 completed
                                  participants in       training, and 95
                                  jobs with 75          have received
                                  percent (216)         job placements.
                                  placed in small or
                                  mid-sized companies.
National Restaurant Association  (1) Increase student  (1) 9,444
 Educational Foundation.          worksite experience   students
                                  to 6,000.             received
                                 (2) Add states to      experience.
                                  the program.         (2) 43 States
                                 (3) Increase number    added to
                                  of ProStart school    program.
                                  to 900.              (3) Increased to
                                 (4) Increase           1,075 schools
                                  industry              with enrollment
                                  involvement in        of nearly 44,000
                                  project.              students.
                                                       (4) No increase
                                                        reported.
Community Learning Center, Inc.  (1) 1,024 dislocated  (1) 1,028 workers
                                  workers will          served
                                  receive training.    (2) 914 workers
                                 (2) Place 802          placed in
                                  workers in            unsubsidized
                                  unsubsidized          jobs.
                                  employment.
U.S. Chamber of Commerce--       (1) Develop a         Report and
 Center for Workforce             research report       promotional
 Preparation.                     documenting           materials
                                  business needs,       developed and
                                  providing training    delivered to
                                  services in One-      ETA.
                                  Stop Centers, and
                                  developing
                                  successful
                                  promising practices
                                  in these areas.
                                 (2) Disseminate
                                  grant information
                                  through business
                                  conferences and
                                  development of
                                  grant-related
                                  promotional
                                  materials.
RISEBusiness...................  Develop a research    Research report
                                  report to increase    developed and
                                  understanding of      delivered to ETA
                                  the workforce needs
                                  of small and
                                  emerging
                                  businesses..
Workforce Innovation Networks--  Research report
 Jobs for the Future              developed and
 Partnership (1)Develop a         delivered to ETA..
 research report that:
  (1) Identifies obstacles to
 employer use of the workforce
 investment system and proposes
 solutions.
  (2) Documents the WINs
 demonstration projects at nine
 sites.
------------------------------------------------------------------------

    Question. Do these grantees perform better or worse than grantees 
who received awards through a competitive process?
    Answer. A significant number of these investments are in their 
first year of performance. As such, we have limited performance outcome 
data at this time. However, both solicited and unsolicited grants are 
integral to the goals of the Department in providing services to 
individuals and to employers, as well as in transforming the workforce 
investment system. The initial sole source investments under the High 
Growth Job Training Initiative were made in order to demonstrate and 
model new approaches to workforce education and investment and are 
providing learning opportunities that are informing investments as we 
move forward on a primarily competitive basis. Models and 
demonstrations, by their nature, are intended to try new approaches, 
not all of which will be successful. The Department is currently in the 
process of evaluating the initial High Growth grants and to develop an 
ongoing strategy for evaluating performance and outcomes for 
competitive grants as we move forward.
    The learning from these initial grants has already provided 
critical information for the development of criteria for future 
investments, which will improve the outcomes of these investments.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                    NURSING SHORTAGE IN RURAL AREAS

    Question. Please provide a report on the Department's progress in 
addressing the nursing shortage, specifically within rural communities 
and ethnic minority populations, such as Native Hawaiians.
    What initiatives, such as summer employment opportunities for 
students, have the Department utilized to foster continued growth of 
the nursing profession?
    Answer. We share your interest regarding the training of nurses. 
The Department of Labor has invested over $4.3 million through the 
President's High Growth Job Training Initiative to support projects in 
rural areas that develop and implement innovative solutions to address 
shortages in nursing and other health professions. Each of these 
projects will increase the number of nurses and other health 
professionals trained, hired, and retained in rural communities 
throughout the nation, including in Hawaii. Further, it is the 
Department's vision that rural communities across the country will 
benefit from these investments for many years to come through 
replication of the models.
    We are aware that Maui Community College is interested in such 
initiatives, and there have been a number of Congressional earmarks for 
Maui in the areas of rural development and rural job training, as well 
as pending proposals. With respect to fiscal year 2004 earmarks, we are 
near completion of our review of a proposal from the University of Maui 
for training and employment of Hawaiians living in rural areas. That 
award should be made shortly. In addition, the Department of Labor's 
fiscal year 2005 Appropriation includes $1,500,000 for Maui Community 
College for the Remote Rural Hawaii Job Training Program. We are 
working closely with Maui Community College to ensure that they will be 
able to implement an exemplary project.
    It also is worth noting that the Department of Health and Human 
Services, through the Health Resources and Services Administration, 
currently invests $150 million in nursing workforce development 
activities, including $31 million for the Nursing Education Loan 
Repayment and Scholarship Program.
    Question. Education and job training services programs have 
provided employment opportunities for Native Hawaiians. How does the 
Department plan to continue supporting these programs and further 
develop programs already in existence?
    Answer. The Department of Labor's fiscal year 2005 Appropriation 
includes $1,500,000 for Maui Community College for the Remote Rural 
Hawaii Job Training Program. We are working closely with Maui Community 
College to ensure that they will be able to implement an exemplary 
project.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                            H-2A ENFORCEMENT

    Question. I am concerned about the lack of enforcement of H-2A 
program requirements by the Wage and Hour division of DOL for migrant 
and seasonal farm workers. A large farm labor contracting company, 
Global Horizons recruited and employed Thai nationals in central 
Washington fruit production under the H-2A guest worker program in 2004 
and is planning on doing so again this year.
    A number of my constituents have raised serious concerns with 
respect to Global's compliance with H-2A laws and regulations. I know 
you agree it is imperative that the DOL fully enforce these 
requirements to protect both U.S. workers and guest workers who enter 
our country under the H-2A program. In fact, while the H-2A program has 
not been used extensively in Washington State, there have been problems 
with enforcement of program requirements for many years.
    It appears that Global routinely violated State and Federal 
employment laws by:
  --Refusing employment to qualified U.S. workers under the Federal H-
        2A guest worker program,
  --Failing to provide the work promised in the employment contract,
  --Failing to pay the wage rate required by the H-2A program and 
        contract; and
  --Providing substandard, unlicensed housing, with workers sleeping on 
        the floor or two to a bed, with no cooking or washing 
        facilities and no drinking water.
    Washington State's Department of Labor and Industry has denied 
Global's application for renewal of its State farm labor contractor's 
license. I also understand that there are outstanding complaints to the 
DOL from my State alleging various H-2A program violations by Global.
    Can you please provide a status report on DOL's investigation of 
these complaints?
    Answer. On February 10, 2005, the Wage and Hour Division of the 
Employment Standards Administration issued a notice of determination to 
Global Horizons under the H-2A program assessing civil money penalties 
totaling $154,700, and back wages totaling $131,267 for alleged 
violations occurring in Hawaii from September, 2002 through March 2003. 
These determinations have been appealed to the Department of Labor 
Office of Administrative Law Judges for a de novo hearing. Additional 
investigations involving other locations and periods of time are 
ongoing. However, because of their continuing nature we can not comment 
about those investigations at this time.
    In addition, on February 25, 2005, ETA issued a letter debarring 
Global Horizons from the H-2A program for a 3-year period based on 
Global Horizon's failure to fulfill requirements of its H-2A 
certifications and the Wage and Hour Division's prior findings of 
violations. Global Horizons requested a de novo hearing on debarment 
before an ALJ, and that has been consolidated with a Wage and Hour 
Division case against Global Horizon. The notice of determination for 
back wages and civil money penalties and the debarment proceeding have 
been consolidated and the hearing is presently scheduled for next year.
    While debarment is pending, ETA continues to process individual 
Global Horizon H-2A applications and to reach determinations on the 
merits of each. ETA continues to examine all applications for 
compliance with H-2A requirements and has rejected some of Global 
Horizons applications while certifying others. As one example, in 
January 2005, ETA denied Global Horizon's application for a new H-2A 
certificate for Eastern Washington based on the fact that Global 
Horizon at that time did not have a State-issued farm labor contract 
certificate, which is required by the State of Washington. Global 
Horizon appealed, and an ALJ upheld the denial on February 25, 2005.
    Washington State is taking its own actions involving Global 
Horizons. While the State had denied Global Horizon's application for 
renewal of its State farm labor contractor's license, we understand 
that the State has now extended that license until September 30, 2005. 
However, the State is also taking action to discontinue State provision 
of services to Global Horizons under the Wagner-Peyser Act, which 
includes such services as recruitment of local workers and placement of 
job orders in interstate clearance.
    Question. Please also inform me as to whether DOL is taking any 
action with respect to Global's Farm Labor Contractor registration 
under Federal law.
    Answer. Global is registered as a farm labor contractor under the 
Migrant and Seasonal Agricultural Worker Protection Act (MSPA). DOL has 
not initiated action to revoke this registration, but has pursued 
debarment action under H-2A. The Wage and Hour Division has an open 
investigation of Global. As with all such investigations, the Division 
will consider appropriate action at the conclusion of the 
investigation.
    Question. Are you willing to work with me to closely examine 
whether increased enforcement efforts are needed, including the 
imposition of penalties real deterrence?
    I know you agree with me that those who benefit from the H-2A 
program should do their part to make sure that the program operates 
lawfully. I also hope you will commit to work with me to educate 
growers who hire farm labor contractors for recruitment under the H-2A 
program to ensure that those growers monitor the contractor's 
compliance with the law.
    Answer. The Department of Labor is charged with two essential 
duties with respect to the enforcement of the H-2A program. First, the 
Department of Labor ensures that employers follow established rules and 
regulations for bringing foreign workers into the United States. 
Second, the Department of Labor vigorously enforces applicable labor 
standards. Guest worker programs cannot succeed without strict 
adherence to these responsibilities, and the Department takes them very 
seriously. In addition, the Department has an active H-2A compliance 
assistance program, which is designed to educate employers and 
employees of their responsibilities and rights under the law. The 
Department works with all interested parties to ensure that 
participants of the H-2A program are in full compliance with the law.

                                  PBGC

    Question. I commend you for tackling in the budget proposal the 
difficult issue of shoring up the Pension Benefit Guarantee 
Corporation. The PBGC insures the pensions of about 44 million American 
workers and is in danger of defaulting on those promises. Reforming 
this grossly under-funded insurance plan is long overdue. I am 
concerned, however, about the feasibility of some of your suggestions. 
For example:
  --You propose to increase fees on the corporations at the very time 
        they are less likely to be able to pay them--once they are 
        preparing to file for bankruptcy.
  --Your proposal would impose restrictions on pension benefits for 
        rank-and-file workers, without restricting the pensions of 
        executives.
  --The American Benefits Council (a group representing some of the 
        country's largest corporations on their employee benefits 
        program) predicts the Administration's plan could have the 
        effect of encouraging companies to dump their defined benefit 
        plans.
    Could you please explain why the plan discriminates against 
companies already in trouble and against rank-and-file workers?
    Answer. We appreciate your support for restoring the solvency of 
the PGBC. The Administration is committed to strengthening the pension 
insurance program and keeping defined benefit plans as a viable option 
for employers and employees. This requires a careful balancing of 
interests and inevitably will require trade-offs among various 
stakeholder interests. The Administration proposal strikes a necessary 
balance that will best protect the pension benefits earned by workers 
and retirees and alleviate the possibility that taxpayers will be 
called upon to rescue the insurance program.
    As you stated, the insurance program is grossly underfunded. Reform 
of the plan funding rules, by itself, will not eliminate PBGC's $23 
billion deficit. Premiums must be increased. The Administration's 
proposal is reasonable. It would increase the flat-rate premium for 
wage inflation since the last increase in 1991, and require a risk-
based premium for all pension underfunding. We believe that the 
Administration's proposal equitably distributes the cost among 
employers and does not put too great a burden on financially weak 
companies.
    With respect to your question about benefit restrictions, the 
proposal is based on the principle that employers should pay for what 
they promise and not make promises to their workers and retirees that 
cannot be funded. Employers with severely underfunded plans would not 
be allowed to divert funds from rank-and-file pensions to deferred 
compensation plans for executives. If a financially weak employer has a 
severely underfunded plan, the employer would be prohibited from 
funding any nonqualified deferred compensation for executives. In 
addition, funding would be prohibited for executive compensation at any 
time within 6 months before or 6 months after the termination of an 
underfunded plan.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                       WORKER OVERTIME PROTECTION

    Question. An amendment to the bankruptcy bill that was on the 
Senate floor last week that would have marginally increased the minimum 
wage, but would have also eliminated the 40 hour work week and the 
overtime benefits of thousands of workers.
    This scheme would create an 80 hour, two week work period that 
would allow employees to work up to 50 hours one week and 30 hours the 
next week without receiving one dime of overtime pay.
    The amendment's sponsors said the plan is voluntary, but how 
voluntary is it when your boss threatens to hire someone else who will 
agree to his 50 hour/30 hour week schedule? This is an assault on 
workers, and it comes on top of the administration's elimination of 6 
million workers from overtime pay eligibility last year.
    Can you provide the Administration's perspective on such proposals 
to weaken overtime protection?
    Answer. The Administration has not taken a formal position on this 
specific legislation. However, the President has called on Congress to 
pass legislation to help working families juggle the demands of work 
and home through comp-time and flex-time and give private-sector 
workers the same flexible scheduling options that Federal employees now 
enjoy. Providing choices like whether to receive overtime pay as cash 
or as paid time off would allow workers to balance the demands of the 
workplace and the needs of their families.
    The minimum wage amendment to the bankruptcy bill would have 
doubled the scope of so-called small businesses that would be exempt 
from paying the minimum wage, but by doing this, he would also be 
stripping workers in those companies from other Federal protections, 
like equal pay, overtime pay and child labor safeguards under the Fair 
Labor Standards Act.
    The amendment would end individual worker protections under the 
FLSA, and expand the size of businesses that need not apply the Act 
from those grossing $500,000 annually to those grossing $1 million 
annually. This would exempt about 700,000 businesses from providing 
worker protections, and cover a total of about 10 million fewer workers 
than we do today.
    Question. In light of the work that has been done in this country 
to ensure that children are not working and that women are paid the 
same as men for the same work, why would we want to rollback these 
protections?
    Answer. The Administration has not taken a formal position on this 
specific legislation. However, the President has indicated that he is 
willing to work with Congress on a sensible proposal to increase the 
minimum wage in a way that does not price people out of jobs or hurt 
small businesses. In addition, the President has called on Congress to 
pass legislation to help working families juggle the demands of work 
and home through comp-time and flex-time and give private-sector 
workers the same flexible scheduling options that Federal employees now 
enjoy. Providing choices like whether to receive overtime pay as cash 
or as paid time off would allow workers to balance the demands of the 
workplace and the needs of their families.

                     PERSONAL REEMPLOYMENT ACCOUNTS

    Question. You talked about the Administration's proposal to 
consolidate four programs authorized by the Workforce Investment Act 
(WIA) into a single $4 billion block grant. You suggest this is done 
for flexibility, but even with the community colleges funding, the 
Department's job training funding is more than $300 million short of 
current year funding.
    The House Committee approved a WIA reauthorization bill that 
creates a nationwide pilot program to give unemployed workers 
considered at risk for long-term unemployment a $3,000 voucher they can 
spend on training. There is no specific budget request for this, but 
the Labor Department has already diverted funds from other 
discretionary programs to initiate a seven-State pilot. I understand we 
have no results yet from the Department's pilot program.
    How do you reconcile the House plan for expanding these untested 
personal accounts nationwide before your Department has completed its 
pilot study?
    Answer. The current seven-State Personal Reemployment Account (PRA) 
demonstration project builds upon the positive findings of earlier 
demonstrations by offering reemployment bonuses, targeting them using 
the Worker Profiling Reemployment System (WPRS), and increasing 
consumer choice through flexible worker accounts. PRAs are similar to 
current practice under the Workforce Investment Act, where workers can 
choose their training through Individual Training Accounts. PRAs give 
workers more opportunities and choices.
    Mathematica Policy Research Inc., a firm with wide experience in 
employment and training program evaluation, including the evaluation of 
the reemployment bonuses and individual training account experiments, 
is the evaluation contractor for the PRA demonstration. Although 
results from the demonstration are not yet available (accounts were 
first made available in March 2005), States are reporting some initial 
successes in implementing PRAs. For example, Minnesota has offered 
accounts to 301 individuals, and so far 188 individuals have accepted.
    Question. The Economic Policy Institute has said that the accounts 
are ``too small to purchase meaningful training but just large enough 
to discourage workers from pursuing cost-effective short-term services 
that could help them get back to work more quickly.'' To get the $3,000 
accounts workers would have to forfeit about $10,000 in other worker 
training programs. What kind of training and education does the 
Department anticipate an unemployed worker ``purchasing'' with a $3,000 
training voucher.
    Answer. First, this question assumes that all workers can access 
$10,000 in training when, in fact, most cannot. The estimated WIA unit 
cost for all types of services an individual would receive (in Program 
Year 2005) is $3,200 for dislocated workers and $2,064 for adults; no 
where near $10,000. Further, information in a recent GAO report, based 
on a survey of local workforce investment boards across the country, 
indicates that the average amount spent on training for adults and 
dislocated workers was slightly less than $2,300.
    Second, as you know, the community college system has and continues 
to be an important provider of training to our system, and the $3,000 
account level is based upon the average cost of 2 years of instruction 
at a community college. We believe that Personal Reemployment Accounts 
will provide individuals with opportunities to connect more directly 
with meaningful training at a community college or from another 
training provider.
    Question. With less money available, no data yet on a seven-State 
pilot, and a $7,000 reduction in investment per worker, it's hard for 
me to see how we are helping move people back into the workplace. Can 
you explain how we will gain $7,000 in ``administrative efficiencies'' 
per worker? Or how $330 million in funding cuts will not lead to less 
opportunity for unemployed workers?
    Answer. As described earlier, the worker's forfeiture of $7,000 is 
not correct, as the average cost of 2 years at a community college is 
$3,000 and the unit costs for the WIA Adult and Dislocated Worker 
programs are $2,064 and $3,200, respectively. (Additionally, ITAs under 
WIA offer more limited choices in training, with no opportunity for a 
reemployment bonus). The Department of Labor anticipates that 
evaluation data will show that:
  --PRAs are significantly less staff-intensive than traditional forms 
        of service delivery (reducing program overhead costs by 
        directing resources directly into the hands of workers);
  --The time spent collecting Unemployment Insurance will likely 
        decrease; and
  --The nature of placement into and retention of good jobs will remain 
        constant or even increase as a result of more consumer choice 
        and the ability to manage and customize one's plan for 
        employment.

                     PROPOSED CHANGE TO CES SURVEY

    Question. The Bureau of Labor Statistics recently announced a 
decision to stop collecting data on women who work from its Current 
Employment Statistics program, claiming it is trying to reduce the 
paperwork burden on employers. By the agency's own admission, this 
survey takes only seven minutes to fill out.
    This data on women in the workforce is invaluable to researchers 
and policymakers in their efforts to understand gender inequality. At a 
time when women's employment may be changing in fundamental ways due to 
the economy, we should be expanding our ability to understand the 
evolving role of women in the labor force, not reducing it.
    I sent a letter, along with Senator Kennedy, to the Department 
about this issue on February 9. In your response, which I just 
received, you acknowledged that the Current Employment Statistics 
program is superior to the Department's other data collections programs 
for analyzing month-to-month trends. Help me understand why the 
Department would agree to eliminate a program that serves a valuable 
policy purpose and that experts agree is working?
    Answer. The BLS believes that its proposal to discontinue the 
Current Employment Statistics (CES) series on women workers is in the 
best interest of public policy. The discontinuation of the women 
workers series is part of a larger set of changes that the BLS has 
proposed for the CES survey. The BLS' decision to discontinue the women 
workers series is based on three factors: (1) the availability of 
extensive information on women's employment from the CPS, (2) the 
public's lack of use of the CES data, and (3) a desire to reduce 
respondent burden for a voluntary survey.
    Data on women's employment, occupations, earnings, and other labor 
force statistics will continue to be available from the Current 
Population Survey (CPS), a monthly survey of about 60,000 households. 
From the CPS, users have access to a rich source of data on women's 
employment, unemployment, and earnings by industry, occupation, 
education, age, marital status, and other characteristics. These data 
are used extensively in the study of women in the labor force.
    The BLS recognizes that one of the main concerns expressed about 
the proposed discontinuation of the women worker series is that the CES 
is superior to the CPS for analyzing month-to-month trends. However, 
the agency believes that such short-term measures are not appropriate 
for most assessments of the changing status of women (or any 
demographic group) in the labor market. When examining longer term 
trends, the advantage the CES has in sample size declines in 
importance. The two surveys have displayed similar trends for women's 
employment growth over the past several years.
    CPS data are used extensively in the study of women in the labor 
force. By contrast, CES women workers series are little used. In an 
effort to gauge the impact of the proposal to terminate the women 
workers series, the BLS undertook an analysis of the extent to which 
this data series is used by researchers and the general public. The BLS 
found that, while there was an average of 130,000 requests per month 
for CES national estimates through the BLS public use website, only 
about one-half of one percent of those requests were for the women 
worker employment series. Additionally, an informal literature search 
by BLS found almost no usage of CES women worker series. Articles that 
addressed women's employment and earnings issues nearly all used data 
from the CPS as their source.
    In addition, although the data it produces are used but rarely, the 
series imposes a significant reporting burden on some survey 
respondents because payroll records do not typically include gender 
identification. It is important to consider the context in which the 
women worker data is collected. The BLS relies upon the voluntary 
cooperation of approximately 155,000 businesses each month 
(representing about 400,000 individual worksites) in providing 
information from their payroll records on the employment, hours, and 
earnings of their workers. In an increasingly difficult data-collection 
environment, survey response burden is a crucial factor in survey 
design. We must minimize this burden to ensure the continued accuracy 
and integrity of the payroll data on which we rely to produce the 
Employment Situation, which is a principal Federal economic indicator 
and represents some of the nations most closely watched economic data. 
The individuals who complete the CES report often have indicated that 
gender information is not present on their standard payroll records and 
that they do not have ready access to the data. As an example of this 
burden, although 100 percent of employers who respond provide their 
total employment count, approximately one out of every six declines to 
provide data on female employment. In addition, the BLS proposal stems 
from a view that it is poor public policy to continue burdening several 
hundred thousand respondents each month to produce a data series with 
only a small handful of users.
    The BLS' proposed elimination of the women worker series in the CES 
survey is a part of a larger agency effort to improve the survey's 
relevance to the needs of data users and its value as input to other 
key economic statistics. For example, in mid-2005, the CES is changing 
its current policy of collecting data only for production and non-
supervisory employees and will begin collecting data for two new 
series: hours and regular earnings of all employees, and a total 
earning series (including both regular and irregular pay) for all 
employees. These changes are designed to make the survey more 
responsive to the needs of data users and increase its value in 
relation to other key economic statistics. For example, the Bureau of 
Economic Analysis has long sought more timely data on all-employee 
earnings in its construction of national income statistics. The new all 
employee hours and earnings series will provide more comprehensive 
information than the present series for analyzing economic trends. They 
also will provide improved input for other major economic indicators, 
including series on non-farm productivity, as well as eliminate a 
potential source of bias in BLS estimates of the productivity growth 
rate.
    The Department believes that accurate data on women's employment 
are crucial to understanding the economic opportunities that are 
available to women today. As we have indicated, the BLS will continue 
to collect timely and accurate data on women workers through the CPS, 
which is an overall richer source of data for women workers than the 
CES.

                         FEWER WORKERS TRAINED

    Question. Page 41 of your Budget Justification Material states 
that, with the Fiscal 2005 appropriation, you expect to serve 870,000 
participants in the Dislocated Worker Programs; 475,200 participants in 
the Adult Block Grant program; and 329,000 participants in the Youth 
Block Grant program. Yet you estimate that only 400,000 persons will be 
trained when these programs are consolidated as you are requesting for 
2006. Why is it that the current level of more than 1.6 million 
participants will only lead to 400,000 trainees next year?
    Answer. The estimated participant levels for fiscal year 2005 for 
the Adult and Dislocated Worker programs reflect the number of 
individuals receiving all types of employment assistance--not just 
those receiving job training. Also, the figure of 870,000 for the 
Dislocated Worker program was included in error--the correct 
participant level is 368,700.
    The Employment and Training Administration's fiscal year 2006 
Budget request emphasizes the Administration's commitment to increasing 
employment and training opportunities by funding new Consolidated State 
Grants that merge the WIA Adult, Dislocated Worker, and Youth programs 
and the Wagner-Peyser Employment Service program into a single base 
grant. The fiscal year 2006 Budget estimates that between 18,535,700 
and 18,960,000 participants will be served through the consolidated 
grants.
    The President's proposal for job training reform would double the 
number of workers receiving job training through major WIA grant 
programs, from approximately 200,000 to 400,000 annually. By 
eliminating unnecessary overhead costs and simplifying administration 
through the consolidation of duplicative employment and training 
bureaucratic structures, we project an overall savings of at least $300 
million, which can be used by States for training an additional 100,000 
workers annually. In addition, the President has requested $250 million 
for Community Based-Job Training Grants for fiscal year 2006. This new 
initiative, which will begin July 1, 2005, will utilize our nation's 
successful community colleges to train 100,000 more workers annually.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madam Secretary.
    The subcommittee will stand in recess to reconvene at 10:30 
a.m. on Wednesday, March 16, in room SD-138. At that time we 
will hear testimony from the Honorable Michael O. Leavitt, 
Secretary, Department of Health and Human Services.
    [Whereupon, at 11:37 a.m., Tuesday, March 15, the 
subcommittee was recessed to reconvene at 10:30 a.m., 
Wednesday, March 16.]

</pre></body></html>
